<html>
<title> - OVERSIGHT OF THE FEDERAL BUREAU OF INVESTIGATION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                           OVERSIGHT OF THE 
                    FEDERAL BUREAU OF INVESTIGATION

=======================================================================

                                 HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 28, 2016

                               __________

                           Serial No. 114-91

                               __________

         Printed for the use of the Committee on the Judiciary
         
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]         


      Available via the World Wide Web: http://judiciary.house.gov
      
      
                              _____________
                              
                              
                       U.S. GOVERNMENT PUBLISHING OFFICE
22-125 PDF                    WASHINGTON : 2016                      
                      
________________________________________________________________________________________                       
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f196819eb19284828599949d81df929e9cdf">[email&#160;protected]</a>  
                     
                       
                       
                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
LAMAR S. SMITH, Texas                ZOE LOFGREN, California
STEVE CHABOT, Ohio                   SHEILA JACKSON LEE, Texas
DARRELL E. ISSA, California          STEVE COHEN, Tennessee
J. RANDY FORBES, Virginia            HENRY C. ``HANK'' JOHNSON, Jr.,
STEVE KING, Iowa                       Georgia
TRENT FRANKS, Arizona                PEDRO R. PIERLUISI, Puerto Rico
LOUIE GOHMERT, Texas                 JUDY CHU, California
JIM JORDAN, Ohio                     TED DEUTCH, Florida
TED POE, Texas                       LUIS V. GUTIERREZ, Illinois
JASON CHAFFETZ, Utah                 KAREN BASS, California
TOM MARINO, Pennsylvania             CEDRIC RICHMOND, Louisiana
TREY GOWDY, South Carolina           SUZAN DelBENE, Washington
RAUL LABRADOR, Idaho                 HAKEEM JEFFRIES, New York
BLAKE FARENTHOLD, Texas              DAVID N. CICILLINE, Rhode Island
DOUG COLLINS, Georgia                SCOTT PETERS, California
RON DeSANTIS, Florida
MIMI WALTERS, California
KEN BUCK, Colorado
JOHN RATCLIFFE, Texas
DAVE TROTT, Michigan
MIKE BISHOP, Michigan

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel
                            
                            
                            C O N T E N T S

                              ----------                              

                           SEPTEMBER 28, 2016

                                                                   Page

                           OPENING STATEMENTS

The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia, and Chairman, Committee on the Judiciary     1
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................     5

                                WITNESS

The Honorable James B. Comey, Director, Federal Bureau of 
  Investigation
  Oral Testimony.................................................    18
  Prepared Statement.............................................    21

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Material submitted by the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, and 
  Ranking Member, Committee on the Judiciary.....................     6
Additional material submitted by the Honorable John Conyers, Jr., 
  a Representative in Congress from the State of Michigan, and 
  Ranking Member, Committee on the Judiciary.....................    15
Material submitted by the Honorable Darrell E. Issa, a 
  Representative in Congress from the State of California, and 
  Member, Committee on the Judiciary.............................    45
Material submitted by the Honorable Steve King, a Representative 
  in Congress from the State of Iowa, and Member, Committee on 
  the Judiciary..................................................    59
Material submitted by the Honorable Judy Chu, a Representative in 
  Congress from the State of California, and Member, Committee on 
  the Judiciary..................................................    67
Material submitted by the Honorable Mike Bishop, a Representative 
  in Congress from the State of Michigan, and Member, Committee 
  on the Judiciary...............................................    96

                                APPENDIX
               Material Submitted for the Hearing Record

Questions for the Record submitted to the Honorable James B. 
  Comey, Director, Federal Bureau of Investigation.........122<greek-l>
                       deg.OFFICIAL HEARING RECORD
          Unprinted Material Submitted for the Hearing Record

Material submitted by the Honorable Darrell E. Issa, a Representative 
    in Congress from the State of California, and Member Committee on 
    the Judiciary. This material is available at the Committee and can 
    also be accessed at:

    http://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=105390

 
                           OVERSIGHT OF THE 
                    FEDERAL BUREAU OF INVESTIGATION

                              ----------                              


                     WEDNESDAY, SEPTEMBER 28, 2016

                        House of Representatives

                       Committee on the Judiciary

                            Washington, DC.

    The Committee met, pursuant to call, at 9:04 a.m., in Room 
2154, Rayburn House Office Building, the Honorable Bob 
Goodlatte (Chairman of the Committee) presiding.
    Present: Representatives Goodlatte, Sensenbrenner, Smith, 
Chabot, Issa, King, Franks, Gohmert, Jordan, Chaffetz, Marino, 
Gowdy, Labrador, Farenthold, Collins, DeSantis, Walters, 
Ratcliffe, Trott, Bishop, Conyers, Nadler, Lofgren, Jackson 
Lee, Cohen, Johnson, Chu, Deutch, DelBene, Jeffries, Cicilline, 
and Peters.
    Staff Present: (Majority) Shelley Husband, Chief of Staff & 
General Counsel; Branden Ritchie, Deputy Chief of Staff & Chief 
Counsel; Zach Somers, Parliamentarian & General Counsel; 
Caroline Lynch, Chief Counsel, Subcommittee on Crime, 
Terrorism, Homeland Security, and Investigations; Ryan 
Breitenbach, Counsel, Subcommittee on Crime, Terrorism, 
Homeland Security, and Investigations; (Minority) Perry 
Apelbaum, Staff Director & Chief Counsel; Danielle Brown, 
Parliamentarian & Chief Legislative Counsel; Aaron Hiller, 
Chief Oversight Counsel; Joe Graupensperger, Chief Counsel, 
Subcommittee on Crime, Terrorism, Homeland Security, and 
Investigations; and Veronica Eligan, Professional Staff Member.
    Mr. Goodlatte. Good morning. The Judiciary Committee will 
come to order.
    And, without objection, the Chair is authorized to declare 
a recess of the Committee at any time.
    We welcome everyone to this morning's hearing on 
``Oversight of the Federal Bureau of Investigation.''
    Before I begin this hearing, I want to take a few minutes 
to recognize the chief counsel of the Subcommittee on Crime, 
Terrorism, Homeland Security, and Investigations, Caroline 
Lynch. After 15 years working on Capitol Hill, Caroline has 
decided to move back to her home State of Arizona to be close 
to her family and to pursue the next steps in her career. 
Needless to say, we are very sad to see Caroline go.
    During her time in Washington, D.C., Caroline worked for 
Representative John Shadegg, both in his personal office and as 
chief counsel of the House Republican Policy Committee. In 
2006, Caroline came to work for the House Judiciary Committee, 
and in 2008, she became chief counsel of the Judiciary 
Committee's Crime Subcommittee.
    At the Committee, Caroline has had an enormous impact on 
the reform of our criminal and national security laws. Few 
people in Washington have done as much to promote the safety of 
our communities. Caroline has overseen the drafting, 
negotiation, and passage of critical legislation regarding the 
Foreign Intelligence Surveillance Act, the Electronic 
Communications Privacy Act, and the most sweeping set of 
reforms to government surveillance practices in nearly 40 
years, the USA Freedom Act, among many other priority 
legislative initiatives.
    Anyone who has met Caroline knows she is immensely 
intelligent, hardworking, loyal, and a discerning chief 
counsel. And, of course, those people she has negotiated with 
have found her to be a skillful and formidable but fair 
advocate. Her team at the Subcommittee know her to be a 
determined leader and a steadfast friend. I have appreciated 
Caroline's deep knowledge of criminal laws, the strength of her 
convictions, and her courage to speak the truth in a place 
where it is rarely convenient to do so.
    We wish Caroline well in her new endeavors, and I thank her 
for her years of dedicated service to this Committee, the U.S. 
House of Representatives, and the American people.
    [Applause.]
    Mr. Goodlatte. And I know the Ranking Member, Mr. Conyers, 
would like to say a few words as well.
    Mr. Conyers. Thank you very much, Chairman Goodlatte.
    This is indeed a unique moment in our history, and on 
behalf of the Democratic staff and Democratic Members of the 
Committee, I want to recognize Caroline Lynch for her hard work 
and her dedication for the past 10 years.
    As chief crime counsel for the Republicans during this 
time, she worked collegially with her Democratic colleagues on 
a broad range of criminal justice issues. The Crime 
Subcommittee is legislatively the busiest Subcommittee, to me, 
in all of Congress, and every crime-related bill that has been 
enacted during her time here has had the benefit of her 
expertise.
    There are many examples of this, but I will cite her role 
in helping Members find common ground on section 215 of the 
PATRIOT Act so that we could enact important reforms in the USA 
Freedom Act. This important law will both safeguard our 
national security and our civil liberties, and it set a 
precedent for how we can proceed on such issues in the future. 
Her work on this legislation was essential to its ultimate 
success.
    We will miss her insight on these issues as well as her 
friendship and her friendliness as she leaves the Committee for 
other endeavors in her home State of Arizona.
    We wish you all the best.
    [Applause.]
    Mr. Goodlatte. I think you would agree with me in saying 
that, while her work is not quite done today and the rest of 
the week, she has also been very critical to the bipartisan 
work that we have been doing here the past few years, 
culminating in 11 bills so far passing out of this Committee 
dealing with criminal justice reform.
    And we thank you for the contribution you have made for 
that. And that work has been, indeed, very bipartisan, so we 
thank you all.
    We now welcome Director Comey to your fourth appearance 
before the House Judiciary Committee since your confirmation as 
the seventh Director of the FBI. Needless to say, the past year 
since our last oversight hearing has been challenging for the 
FBI on a number of fronts that we hope to review with you 
today.
    I want to begin by commending the men and women of the FBI 
and the NYPD and the New Jersey Police Department for their 
swift action in identifying and apprehending Ahmad Khan Rahami, 
whose cold and cowardly acts of terrorism last week injured 29 
American citizens.
    This was the latest in a string of attacks stretching back 
to the 2013 Boston Marathon bombing and continuing through the 
terror attacks in San Bernardino, Orlando, and Minneapolis. 
They all share one common thread--namely, radical Islam.
    This Administration, however, including the FBI, has coined 
this cancer with the euphemism of ``countering violent 
extremism.'' If the FBI and the rest of our national security 
apparatus continues its myopia about focusing on ethereal 
issues of extremism, their mission to protect the American 
people will always be one of following up on terrorism's 
aftermath.
    I look forward to hearing from you about how the FBI is 
working to proactively combat radical Islamic terrorism and put 
an end to this string of violence.
    While terrorism is a malignancy which must be purged, other 
events at home have called into question the confidence that 
Americans have historically held in a blind and impartial 
justice system.
    Former Secretary of State Hillary Clinton and the FBI's 
investigation into her seemingly criminal conduct is a case in 
point. It seems clear that former Secretary of State Hillary 
Clinton committed multiple felonies involving the passing of 
classified information through her private email server. The 
FBI, however, declined to refer the case for prosecution on 
some very questionable bases.
    This past Friday afternoon, the FBI released additional 
investigative documents from the Clinton investigation which 
demonstrate, among other things, that more than 100 of the 
emails on Secretary Clinton's private server contained 
classified information and that emails required to be preserved 
under Federal law were, in fact, destroyed.
    Even more alarming, we have recently learned that President 
Obama used a pseudonym to communicate with Secretary Clinton on 
her email server. Why is this relevant? As Secretary Clinton's 
top aide, Huma Abedin claimed, when informed by the FBI of the 
existence of an email between her boss and the President, ``How 
is that not classified?''
    Armed with knowledge of the President's now-known-to-be-
false claim that he only learned of Clinton's private email 
account ``at the same time everybody else learned it, through 
news reports,'' did the FBI review why the President was also 
sending classified information over unsecure means. In effect, 
this President and the former Secretary of State improperly 
transmitted communications through nonsecure channels, placing 
our Nation's secrets in harm's way.
    Secretary Clinton's decision to play fast and loose with 
our national security concerned not simply her daughter's 
wedding planning or yoga routines but, instead, quoting you, 
Director Comey, ``Seven email chains concerned matters that 
were classified at the Top Secret/Special Access Program level 
when they were sent and received.'' Top Secret/Special Access 
Programs contain some of the most sensitive secret information 
maintained by our government. This is a truly remarkable fact. 
Were anyone of lesser notoriety than Hillary Clinton guilty of 
doing this, that person would already be in jail.
    For Americans unsure what a special access program, or SAP, 
is, it is the kind of information that a war-planner would use 
to defeat an enemy or even clandestine intelligence operations. 
The Wall Street Journal explained that an SAP usually refers to 
highly covert technology programs often involving weaponry. 
Knowledge of these programs is usually restricted to small 
groups of people on a need-to-know basis.
    For those wondering whether this kind of information on an 
unsecure server is a problem, you need read no further than the 
Huffington Post, which reported Hillary Clinton's private email 
server, containing tens of thousands of messages from her 
tenure as Secretary of State, was the subject of hacking 
attempts from China, South Korea, and Germany after she stepped 
down in 2016.
    To conclude, let me ask everyone to engage in a thought 
experiment. One of this Nation's signature accomplishments in 
the war on terror was the raid on Abbottabad, Pakistan, on May 
2, 2011, that resulted in the killing of Osama bin Laden. That 
operation, which was conducted by an elite team of U.S. Navy 
special operators, was, of course, highly classified.
    Now, imagine, if you will, that classified information 
relating to the raid was passed through a nonsecure email 
server and was accessed by Nations or individuals hostile to 
the United States. Rather than a highly successful covert 
operation, we might have had a team of dead U.S. servicemen.
    Hillary Clinton chose to send and receive Top Secret 
information over a personal, unsecure computer server housed in 
her various homes and once reportedly placed in a bathroom 
closet. These actions, without a doubt, opened these 
communications to hostile interception by our enemies and those 
who wish America harm.
    These facts, and not the imagined history I have asked you 
to contemplate, were the basis of the investigation by the FBI. 
And these are the facts that you, Director Comey, chose to hold 
unworthy of a recommendation to prosecute, saying that no 
reasonable prosecutor would bring such a case.
    We, as Congress and the American people, are troubled how 
such gross negligence is not punished and why there seems to be 
a different standard for the politically well-connected, 
particularly if your name is Clinton.
    Mr. Director, I look forward to your testimony today.
    At this time, I am pleased to recognize the Ranking Member 
of the Committee, the gentleman from Michigan, Mr. Conyers, for 
his opening statement.
    Mr. Conyers. Thank you, Chairman Goodlatte.
    Welcome again, Director Comey, for your appearance here 
today.
    The FBI's mission is a complex undertaking: to protect the 
United States from terrorism, to enforce our criminal laws, and 
to lead the Nation's law enforcement community.
    That mission ought to mirror our own priorities in this 
Committee. In the past few days, for example, we have witnessed 
near-fatal terrorist attacks in Minnesota, New York, and New 
Jersey. These attacks underscore the growing fear that 
individuals can be moved to violence at home by the propaganda 
of ISIS and other terrorist groups abroad even though they have 
no direct connection to those organizations.
    To me, this threat is dire. We should be doing all we can 
within our communities and within our constitutional framework 
to mitigate the danger. But will our majority here in the House 
use their time today to discuss these attacks? I suspect that 
they will not be in their focus in this campaign season.
    In Charlotte, in Tulsa, in Dallas, right here in 
Washington, and in other cities across this country, our 
citizens demand answers to questions about race and policing 
and the use of lethal force by law enforcement. Our police are 
under siege, often underresourced, and, in some cases, hard-
pressed to build trust with the communities they serve.
    Director Comey, your continued work to foster lines of 
communication between police officers and the general public is 
commendable--and necessary if we are to keep our citizens safe 
from harm.
    But will my colleagues discuss this pressing issue with the 
Director of the FBI, whose leadership in the law enforcement 
community is paramount? I hope so. I am also afraid the focus 
may be elsewhere.
    The FBI is the lead agency in the investigation of cyber-
based terrorism, computer intrusions, online sexual 
exploitation, and major cyber fraud. We have known for some 
years about the persistent cyber threat to our critical 
infrastructure. Now we hear reports of a new cyber threat to 
the very basis of our democratic process.
    Twice this summer, Director Comey, I wrote to you with my 
fellow Ranking Members to ask you to look into reports that 
Russian state actors are working to undermine our election 
process.
    Without objection, Mr. Chairman, I ask that both these 
letters be placed in the record.
    Mr. Goodlatte. Without objection, they will be made a part 
of the record.
    [The information referred to follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]  
                               __________
    Mr. Conyers. Thank you.
    It is now the clear consensus of the intelligence community 
that the Russian Government was behind the hack of the 
Democratic National Committee and not, as some suggested, 
somebody sitting on their bed that weighs 400 pounds.
    On Friday, we learned from one report that the United 
States intelligence officials are seeking to determine whether 
an American businessman identified by Donald Trump as one of 
his foreign policy advisers has opened up private 
communications with senior Russian officials, including talks 
about the possible lifting of economic sanctions if the 
Republican nominee becomes President.
    The report cites to an unnamed ``senior U.S. law 
enforcement official,'' which I presume means someone in your 
orbit, Mr. Director.
    Without objection, I ask that this article, Mr. Chairman, 
be placed into the record as well.
    Mr. Goodlatte. Without objection, it will be made a part of 
the record.
    [The information referred to follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]  
                               __________
    Mr. Conyers. Thank you.
    Let me be clear. If true, this allegation represents a 
danger to our national security and a clear violation of 
Federal law, which expressly prohibits this type of back-
channel negotiation.
    And I am not alone in describing the nature of this threat. 
Speaker Ryan himself has said that ``Russia is a global menace 
led by a devious thug. Putin should stay out of this 
election,'' end quotation.
    But will our majority join us and press you on this problem 
today, Director Comey? Instead, I believe that the focus of 
this hearing will be more of the same: an attack on you and 
your team at the Department of Justice for declining to 
recommend criminal charges against Secretary Hillary Clinton.
    In recent weeks, this line of attack has been remarkable 
only for its lack of substance. Your critics dwell in character 
assassination and procedural minutia, like the proper scope of 
immunity agreements and your decision to protect the identities 
of individuals wholly unrelated to the investigation. They want 
to investigate the investigation, Director Comey, and I 
consider that an unfortunate waste of this Committee's time.
    With so many actual problems confronting this Nation and so 
many of those challenges within your jurisdiction and ours, you 
would think my colleagues would set their priorities 
differently. I hope that they do and they listen to our 
conversation today.
    I thank the Chairman, and I yield back.
    Mr. Goodlatte. Thank you, Mr. Conyers.
    And, without objection, all other Members' opening 
statements will be made a part of the record.
    We welcome our distinguished witness. And if you would 
please rise, I will begin by swearing you in.
    Do you solemnly swear that the testimony that you are about 
to give will be the truth, the whole truth, and nothing but the 
truth, so help you God?
    Thank you.
    Let the record reflect that the witness answered in the 
affirmative.
    FBI Director James Comey is a graduate of the College of 
William and Mary and the University of Chicago Law School. 
Following law school, Director Comey served as an assistant 
United States attorney for both the Southern District of New 
York and the Eastern District of Virginia. He returned to New 
York to become the U.S. attorney for the Southern District of 
New York. And, in 2003, he served as the Deputy Attorney 
General at the Department of Justice.
    Director Comey, we look forward to your testimony. Your 
written statement will be entered into the record in its 
entirety, and we ask that you summarize your testimony in 5 
minutes. You may begin. Welcome.

 TESTIMONY OF THE HONORABLE JAMES B. COMEY, DIRECTOR, FEDERAL 
                    BUREAU OF INVESTIGATION

    Mr. Comey. Thank you, Mr. Chairman, Mr. Conyers, the 
Members of the Judiciary Committee. It is good to be back 
before you, as the Chairman said, for the fourth time. I have 
six more to go, and I look forward to our conversations each 
time.
    I know that this morning there will be questions about the 
email investigation, and I am happy to answer those to the 
absolute best of my ability. In July, when we closed this case, 
I promised unusual transparency, and I think we have delivered 
on that promise in, frankly, an unprecedented way. And I will 
do my absolute best to continue to be transparent in every way 
possible.
    But what I thought I would do, because I know we will talk 
about that quite a bit, I want to just focus on some of the 
other things the FBI has been doing just in the last couple of 
weeks. And my objective is to make clear to you and to the 
American people the quality of the people who have chosen to do 
this with their lives, to do something that is not about money, 
it is not about the living, it is about the life that they 
make.
    And I just picked four different examples of things we have 
been working on that illustrate the quality of the folks, the 
scope of the work, which is extraordinary, and the importance 
of partnerships, because it is true that the FBI does nothing 
alone.
    So just to tick off four from four different parts of our 
organization, obviously, as the Chair and Mr. Conyers both 
mentioned, in the last couple weeks, our folks in the New York 
area have been working in an extraordinary way with their 
partners at Federal, State, and local organizations of all 
kinds to bring to justice very quickly the bomber in the New 
Jersey and New York attacks.
    That work was done in a way, frankly, that would have been 
hard to imagine 15 years ago in a time of turf battles and 
worries about my jurisdiction, your jurisdiction. They showed 
you how it should be done, how it must be done. And I think we 
should all be very proud of them.
    Second, within the last week, a hacker from Kosovo, who 
worked for the so-called Islamic State in hacking in and taking 
the identifies and personal information of American military 
employees and then giving it to the Islamic State so they could 
target these people, was sentenced to 20 years in jail for that 
hacking. His name is Ardit Ferizi.
    Our great folks, together with lots of partners around the 
world, found this Kosovar in Malaysia, and our Malaysian 
partners arrested him, brought him back to Virginia, where he 
was just sentenced to 20 years for his hacking on behalf of the 
Islamic State. Terrific work by our cyber investigators.
    And, obviously, as you know, we are doing an awful lot of 
work through our counterintelligence investigators to 
understand just what mischief is Russia up to in connection 
with our election. That is work that goes on all day every day, 
about which I am limited in terms of answering questions. But I 
wanted you to know that is a part of our work we don't talk 
about an awful lot but it is at the core of the FBI.
    And the last one I want to mention is, 2 weeks ago, a 6-
year-old girl was kidnapped off her front lawn in eastern North 
Carolina in a stranger kidnapping. And all of law enforcement 
in North Carolina surged on that case. We rolled our Child 
Abduction Rapid Deployment Team, which is a capability we have 
built around the country to help in just these kinds of 
situations. These are agents and analysts who are expert at 
doing what has to be done in that golden 24 hours you have to 
try and save a child.
    And so we rolled those resources, we worked with our 
partners at State and local levels in North Carolina, and 
overnight we found that little girl. We found that little girl 
chained by her neck to a tree in the woods, alive, thank God, 
and she was rescued.
    The picture that they showed me that morning of that little 
girl with wide eyes and her long hair around her shoulders but 
still a thick chain around her neck connecting her to that tree 
is one I will never be able to get out of my own head, because 
it is both terrible and wonderful. It is terrible because of 
what happened to this little girl; it is wonderful because, 
together, we found her and saved her.
    So I called the sheriff in North Carolina, I called our key 
team members who worked on that to thank them. And they told me 
that they were relieved and exhausted and that they are all 
hardened investigators but they stood that early morning in the 
command center and cried together because it almost never ends 
this way.
    So I said to the sheriff and to our people, I wish we 
didn't live in a world where little girls were kidnapped off of 
their front lawns, where we had to do this kind of work, but, 
unfortunately, we live in that world. And because we do, I am 
so glad that those people and the rest of the people that work 
for the FBI are in that world, because we are safer, we are 
better because they have chosen to do this with their lives.
    The best part of my job is the people I get to watch, to 
see their work, to admire their work, to support their work in 
any way that I can. They are doing extraordinary work for the 
American people across an incredible array of responsibilities. 
I know you know that, and we are very grateful for the support 
you give to the men and women of the FBI. And I look forward to 
our conversation about their work, Mr. Chairman.
    Thank you.
    [The prepared statement of Mr. Comey follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]  
                               __________
                               
    Mr. Goodlatte. Thank you, Director Comey.
    We will now begin questioning under the 5-minute rule, and 
I will begin my recognizing myself.
    You testified that the FBI did not investigate the veracity 
of Secretary Clinton's testimony to the Select Benghazi 
Committee under oath. We referred the matter to the United 
States attorney for the District of Columbia.
    Is the FBI now investigating the veracity of Secretary 
Clinton's testimony to the Select Benghazi Committee?
    Mr. Comey. Thank you, Mr. Chairman.
    The Department has the referral--I think there were two 
separate referrals--has the referrals. Now it is pending, and 
so I am not going to comment on a pending matter at this point. 
But the matter has been received by the Department of Justice. 
They have the letters from the Committee.
    Mr. Goodlatte. And you cannot tell us whether or not you 
are indeed investigating?
    Mr. Comey. I can't.
    Mr. Goodlatte. When do you expect that you will be able to 
tell us more about this pending matter before the FBI?
    Mr. Comey. I don't know, sir.
    Mr. Goodlatte. Paul Combetta with Platte River Networks 
posted to Reddit asking how to ``strip out a VIP's (VERY VIP) 
email address from a bunch of archived email.'' He went on, 
``The issue is that these emails involve the private email 
address of someone you'd recognize, and we're trying to replace 
it with a placeholder address as to not expose it.''
    This clearly demonstrates actions taken to destroy evidence 
by those operating Secretary Clinton's private server and by 
her staff. Certainly, Combetta did not take it upon himself to 
destroy evidence but had been instructed to do so by Secretary 
Clinton or her staff.
    So my first question to you is, was the FBI aware of this 
Reddit post prior to offering Mr. Combetta immunity on May 3, 
2016?
    Mr. Comey. I am not sure. I know that our team looked at 
it. I don't know whether they knew about it before then or not.
    Mr. Goodlatte. Isn't this information evidence of 
obstruction of justice and a violation of Mr. Combetta's 
immunity deal?
    Mr. Comey. Not necessarily, no.
    Mr. Goodlatte. Why not?
    Mr. Comey. It depends on what his intention was, why he 
wanted to do it. And I think our team concluded that what he 
was trying to do was, when they produced emails, not have the 
actual address but have some name or placeholder instead of the 
actual dot-com address in the ``from'' line.
    Mr. Goodlatte. Last week, the American people learned that 
Cheryl Mills, Secretary Clinton's longtime confidant and former 
State Department chief of staff, and Heather Samuelson, counsel 
to Secretary Clinton in the State Department, were granted 
immunity for production of their laptops. Why were they not 
targets of the FBI's criminal investigation?
    Mr. Comey. Well, a target is someone on whom you have 
sufficient evidence to indict. A subject is someone whose 
conduct at some point during the investigation falls within the 
scope of the investigation. So, certainly, with respect to Ms. 
Mills, at least initially, because she was an email 
correspondent, she was a subject of the investigation.
    Mr. Goodlatte. Did the FBI find classified information on 
either of their computers?
    Mr. Comey. I think there were some emails still on the 
computer that were recovered that were classified, is my 
recollection.
    Mr. Goodlatte. Isn't that a crime?
    Mr. Comey. Is what a crime, sir?
    Mr. Goodlatte. Having classified information on computers 
that are outside of the server system of the Department of 
State unsecured.
    Mr. Comey. No. It is certainly something--without knowing 
more, you couldn't conclude whether it was a crime. You would 
have to know what were the circumstances, what was the 
intention around that. But it is certainly something--it is the 
reason we conducted a yearlong investigation to understand 
where emails had gone on an unclassified system that contained 
classified information.
    Mr. Goodlatte. And what did you determine with regard to 
the emails found on her computer?
    Mr. Comey. I hope I am getting this right, and my troops 
will correct me if I am wrong, but they were duplicates of 
emails that had been produced, because the emails had been used 
to sort before a production.
    Mr. Goodlatte. Now, both Cheryl Mills and Heather Samuelson 
were granted immunity for production of these computers, these 
laptops. Why were they then allowed to sit in on the interview 
with Secretary Clinton?
    Mr. Comey. Right. The Department of Justice reached a 
letter agreement with the two lawyers to give them what is 
called act-of-production immunity, meaning nothing that is 
found on the laptop they turn over will be used against them 
directly, which is a fairly normal tool in investigations.
    They were--Ms. Mills, in particular, was a member of 
Secretary Clinton's legal team. And so Secretary Clinton 
decides which of her lawyers come to voluntary interviews with 
the FBI.
    Mr. Goodlatte. Is it usual to allow a witness or potential 
witness in a subsequent prosecution, had one been undertaken, 
to be present in the room when the FBI interviews another 
witness and potential target of an investigation?
    Mr. Comey. The FBI has no ability to exclude or include any 
lawyer that a subject being interviewed chooses to have there.
    Mr. Goodlatte. Even if the lawyer is a witness in the case? 
Can you cite any other instance in which a witness to a 
criminal investigation, who has already been interviewed by the 
FBI, has been allowed to accompany and serve as legal counsel 
to the target of that investigation?
    Mr. Comey. I can't from personal experience. It wouldn't 
surprise me if it happened.
    The FBI has no ability to decide who comes to an interview 
in a voluntary interview context. If it was a judicial 
proceeding, a judge could police who could be there. And, 
obviously, lawyers are governed by canons of ethics to decide 
what matters they can be involved in. But it doesn't fall to us 
to say: You can be in, you can't be in.
    Mr. Goodlatte. But wouldn't you agree that it is a conflict 
of interest for them to serve as attorneys for Secretary 
Clinton in this matter, having been interviewed by the FBI as 
witnesses?
    Mr. Comey. That is a question a lawyer has to answer for 
him- or herself.
    Mr. Goodlatte. You are a lawyer, Director Comey. What is 
your opinion of that?
    Mr. Comey. Oh, I don't want to offer an opinion on that, 
but that is something a lawyer has to decide for themselves, I 
assume, with counsel and consulting our canons of ethics, what 
matters you can be involved in and what you can't.
    But, again, the Bureau's role in conducting a voluntary 
interview is to interview the subject. Who they bring is up to 
them.
    Mr. Goodlatte. How can you trust the veracity of Secretary 
Clinton's answers, knowing that witnesses previously 
interviewed by the FBI were allowed to participate in the 
interview?
    Mr. Comey. We assess the answers based on what is said and 
all the other evidence we have gathered.
    Mr. Goodlatte. In----
    Mr. Comey. It doesn't matter----
    Mr. Goodlatte [continuing]. Consultation with her 
``attorneys,'' who are also witnesses to what was previously 
done earlier and may, in fact, have, themselves, violated the 
law, for which they requested and were granted immunity.
    Mr. Comey. Again, the answer is--excuse me--the answer is 
the same. We make the assessment based on what the witness says 
and the other evidence we have gathered in the case. Who is 
sitting there, to me, is not particularly germane.
    Mr. Goodlatte. Thank you. My time has expired.
    The Chair recognizes the gentleman from Michigan, Mr. 
Conyers, for his questions.
    Mr. Conyers. Thank you.
    Thank you so much.
    Director James Comey, twice this past week, the city of 
Charlotte, North Carolina, has been shaken by the shooting 
deaths of Black men. It is only one city out of many in this 
country looking for answers about the use of force by police. 
We on this Committee are looking for answers too.
    You are a vocal advocate for better collection of 
information about violent encounters between police and 
civilian. Has the FBI's ability to collect this information 
improved in the year since we have last discussed it? And why 
are these statistics so important to our current discussion on 
the use of force by police?
    Mr. Comey. Thank you, Mr. Conyers.
    We are having passionate, important conversations in this 
country about police use of force in connection with encounters 
with civilians, especially with African-Americans.
    Mr. Conyers. Yes.
    Mr. Comey. All of those conversations are uninformed today. 
They are all driven by anecdote. Because, as a country, we 
simply don't have the information to know: Do we have an 
epidemic of violence directed by law enforcement against Black 
folks? Do we have an epidemic involving brown folks? White 
folks? We just don't know. And in the absence of that data, we 
are driven entirely by anecdote, and that is a very bad place 
to be.
    I don't know whether there is an epidemic of violence. My 
instincts tell me there isn't, but I don't know. I can't tell 
you whether shootings involving people of any different color 
are up or down or sideways, and nor can anybody else in this 
country. And so, to discuss the most important things that are 
going on in this country, we need information. And the 
government should collect it. I can't think of something that 
is more inherently governmental than the need to use deadly 
force in an encounter during law enforcement work.
    Mr. Conyers. Yeah.
    Mr. Comey. And so what has changed in the last year, which 
is really good news, is that everybody in leadership in law 
enforcement in the United States has agreed with this, and they 
have agreed the FBI will build and maintain a database where we 
collect important information about all such encounters 
involving the use of deadly force. That will allow us to know 
what is going on in this country so we can have a thoughtful 
conversation and resist being ruled by individual anecdotes.
    That is why it matters so much.
    We are making progress. We will have this done--I would 
like to have it done in the next year. Certainly in the next 2 
years this database will be up and running, because everybody 
gets why it matters so much.
    Mr. Conyers. Thank you.
    On August 30, I wrote to you regarding Donald Trump's 
extensive connections to the Russian Government. The letter 
cites to a number of troubling reports, some that suggest mere 
conflicts of interest, others that might suggest evidence of a 
crime.
    Last Friday, we read a new report suggesting that Mr. 
Trump's foreign policy adviser has been meeting with high-
ranking, sanctioned officials in Moscow to discuss lifting 
economic sanctions if Mr. Donald Trump becomes President. The 
same report quotes, ``a senior United States law enforcement 
official,'' who says that this relationship is being, 
``actively monitored and investigated.''
    Is the FBI investigating the activities of Mr. Trump or any 
adviser to the Trump campaign with respect to any line of 
communication between the campaign and the Russian Government?
    Mr. Comey. I can't say, sir. As I said in response to a 
different question from the Chairman, we don't confirm or deny 
investigations.
    Mr. Conyers. Well, more generally, then, is it lawful for a 
private citizen to enter into official government negotiations 
with a foreign nation?
    Mr. Comey. I don't think it is appropriate for me to answer 
that hypothetical.
    Mr. Conyers. Uh-huh. Well, in my view, our research shows 
that it is not. The Logan Act, 18 U.S.C., section 953, 
prohibits this conduct, in my view.
    Does Mr. Trump currently receive intelligence briefings 
from the FBI?
    Mr. Comey. Both candidates and their running mates are 
offered on a regular basis briefings from the entire 
intelligence community. Some portion of the first briefing 
included an FBI segment, so yes.
    Mr. Conyers. Does his staff attend those meetings as well?
    Mr. Comey. No, just the candidate and the Vice Presidential 
candidate.
    Mr. Conyers. Uh-huh.
    And, finally, if a member of either----
    Mr. Comey. Okay, no, I am wrong. I am sorry. I have to 
correct what I said.
    Each was allowed to bring two people. And, as I recall, Mr. 
Trump did bring two individuals with clearances to the 
briefing. Secretary Clinton did not.
    I am sorry. I misstated that.
    Mr. Conyers. All right.
    Finally, if a member of either campaign were engaged in 
secret, back-channel communications with a foreign adversary, 
could that line of communication pose a threat to national 
security?
    Mr. Comey. Mr. Conyers, I don't think it is appropriate, 
given that I am not commenting on whether we have an 
investigation, to answer hypotheticals that might make it look 
like I am commenting on whether we have an investigation. So I 
would prefer not to answer that, sir.
    Mr. Conyers. Well, thank you for being here today.
    And I thank the Chairman and yield back.
    Mr. Goodlatte. The Chair thanks the gentleman, recognizes 
the gentleman from Wisconsin, Mr. Sensenbrenner, for 5 minutes.
    Mr. Sensenbrenner. Thank you, Mr. Chairman.
    Director Comey, welcome.
    Who authorized granting Cheryl Mills immunity?
    Mr. Comey. I am sorry?
    Mr. Sensenbrenner. Who authorized granting Cheryl Mills 
immunity?
    Mr. Comey. It was a decision made by the Department of 
Justice. I don't know at what level inside. In our 
investigations, any kind of immunity comes from the 
prosecutors, not the investigators.
    Mr. Sensenbrenner. Okay. Did she request immunity?
    Mr. Comey. I don't know for sure what the negotiations 
involved. I believe her lawyer asked for act-of-production 
immunity with respect to the production of her laptop. That is 
my understanding. But, again, the FBI wasn't part of those 
conversations.
    Mr. Sensenbrenner. Now, it has been a matter of public 
record that Secretary Clinton brought nine people into the room 
where two FBI agents were questioning her. Is that normal 
practice?
    Mr. Comey. I don't know if there is a normal practice. I 
have done interviews with a big crowd and some with just the 
subject. It is unusual to have that large a number, but it is 
not unprecedented, in my experience.
    Mr. Sensenbrenner. Now, Cheryl Mills, you know, also stated 
that she was an attorney. I am very concerned that when a fact 
witness represents a client who might be the target of an 
investigation there is a conflict of interest.
    And, you know, rather than letting Ms. Mills make a 
determination, would the FBI be willing to refer the matter of 
a fact witness, Ms. Mills in this case, representing a target, 
Secretary Clinton in this case, to the appropriate bar 
association for investigation?
    Mr. Comey. That is not a role for the FBI. Even though I 
happen to be a lawyer, we are not lawyers; we are 
investigators.
    Mr. Sensenbrenner. Okay.
    Mr. Comey. So that is a question for the legal part of the 
Department of Justice.
    Mr. Sensenbrenner. Okay.
    Why did Ms. Mills request immunity? Was she hiding 
something or was she afraid that something would incriminate 
her that was on her laptop?
    Mr. Comey. I don't know. I am sure that is a conversation 
she and her lawyer had and then her lawyer had with lawyers at 
the Department. I just don't know.
    Mr. Sensenbrenner. Uh-huh. Well, you know, there was an op-
ed by Professor Jonathan Turley that appeared in the media that 
said that there are a lot of good cases scuttled by granting 
immunity. And there was lots of immunity that was granted here.
    Doesn't it concern you, as an investigator, that your 
chiefs in the Justice Department decided to become an immunity-
producing machine for many people who would have been very key 
witnesses should there have been a prosecution?
    Mr. Comey. I don't think of it that way. It doesn't strike 
me there was a lot of immunity issued in this case. I know it 
is a complicated subject, but there is all different kinds of 
immunity. There are probably three different kinds that 
featured in this case. Fairly typical in a complex, white-
collar case, especially, as you try and work your way up toward 
your subject. So my overall reaction is this looks like 
ordinary investigative process to me.
    Mr. Sensenbrenner. Well, the target was not an ordinary 
target. I think we all know that. And since you announced that 
there would be no prosecution of Secretary Clinton in July, 
there have been several very material issues that are 
troubling, and would this not require a reopening of the 
investigation to solve those issues?
    Mr. Comey. I haven't seen anything that would come near to 
that kind of situation.
    Mr. Sensenbrenner. Oh----
    Mr. Comey. I know there are lots of questions, lots of 
controversy. I am very proud of the way this was done.
    Mr. Sensenbrenner. Well, you know, come on now. With all, 
you know, due respect, since you made this announcement, there 
have been many more issues that came out that were not on the 
table prior to your announcement that the investigation against 
Secretary Clinton had been dropped.
    And, you know, I think the American public is entitled to 
answers on this, particularly since we have to know, you know, 
the extent of the classified information which ended up being 
in the private email server.
    You know, all of us on this Committee have got security 
clearances of some kind or another, you know, and I am kind of 
worried that, you know, if I got some classified information 
and went back to my office and used an unsecured server to send 
it to somebody who may also have had classified information, I 
would be in big trouble. And I should be in big trouble if I 
did something like that.
    There seems to be different strokes for different folks on 
this. And that is what Americans are concerned about, 
particularly when we are looking to elect someone to the 
highest office of the land and the leader of the free world.
    I don't think your answers are satisfactory at all, Mr. 
Comey. I do have a great deal of respect for you, but I think 
that there is a heavy hand coming from someplace else.
    And, with that, I yield back.
    Mr. Goodlatte. The Chair thanks the gentleman, recognizes 
the gentleman from New York, Mr. Nadler, for 5 minutes.
    Mr. Nadler. Thank you, Mr. Chairman.
    First, let me express my admiration and thanks to the FBI 
for the professional manner and excellent work they did in the 
bombings that occurred in New York about a block out of my 
district to apprehend the suspect within, what, 48 hours. And 
through everything, it was a very good indication of teamwork 
and of professionalism, and I congratulate you on that.
    Secondly, let me say that I think that the mud that is 
being thrown from the other side of this table here 
continually, only because of the ongoing Presidential election, 
in the case in which the FBI decided there was nothing to 
prosecute, it is over--we all know nobody would even be talking 
about it if one weren't--if Hillary Clinton weren't a 
Presidential candidate. This is pure political maneuvering.
    But let me talk about a case that may pose a current 
national security threat to the United States and ask you a few 
questions about that.
    In his earlier remarks, Mr. Conyers referenced an August 30 
letter from the Ranking Members of a number of House 
Committees. That letter asked whether the FBI was investigating 
troubling connections between Trump campaign officials and 
Russian interests and whether they contributed to the illegal 
hacking of the Democratic National Committee and the Democratic 
National Campaign Committee.
    You are familiar with that letter, I take it.
    Mr. Comey. Yes, I am familiar with the letter.
    Mr. Nadler. I would like to ask you a few questions.
    The letter said this: ``On August 8, 2016, Roger Stone, a 
Donald Trump confidant, revealed that he has communicated with 
WikiLeaks founder Julian Assange about the upcoming release of 
additional illegally hacked Democratic documents. Mr. Stone 
made these statements during a Republican campaign event while 
answering a question about a potential October surprise.''
    Obviously, if someone is stating publicly that he is in 
direct communication with the organization that obtained these 
illegally hacked documents, I assume the FBI would want to talk 
to that person.
    Has the FBI interviewed Roger Stone about his 
communications with Julian Assange or his knowledge of how 
WikiLeaks got these illegally obtained documents?
    Mr. Comey. I can't comment on that.
    Mr. Nadler. Mr. Stone stated that he has knowledge about 
upcoming leaks of additional illegally hacked documents. Has 
the FBI asked him about those communications?
    Mr. Comey. I also can't comment on that.
    Mr. Nadler. Because it is an ongoing investigation?
    Mr. Comey. I don't want to confirm whether there is or is 
not an investigation. That is why--that is the way I answered 
Mr. Conyers' questions as well.
    Mr. Nadler. Director Comey, the FBI acknowledged in 
private--in public statements and testimony that it--
acknowledged that it was investigating Secretary Clinton's use 
of a private email server, and that was while the investigation 
was still ongoing. Now you can't comment on whether there is an 
investigation.
    Is there a different standard for Secretary Clinton and 
Donald Trump? If not, what is the consistent standard?
    Mr. Comey. No. Our standard is we do not confirm or deny 
the existence of investigations. There is an exception for 
that: when there is a need for the public to be reassured; when 
it is obvious it is apparent, given our activities, public 
activities, that the investigation is ongoing. But our 
overwhelming rule is we do not comment except in certain 
exceptional circumstances.
    Mr. Nadler. Aren't there exceptional circumstances when 
close officials to a candidate of a major political party for 
the United States says publicly that he is in communication 
with foreign officials and anticipates further illegal 
activity?
    Mr. Comey. I don't think so.
    Mr. Nadler. Mr. Trump's campaign chairman, Paul Manafort, 
resigned after failing to disclose his role in assisting a pro-
Russian party in Ukraine. The Associated Press reported, 
``Donald Trump's campaign chairman helped a pro-Russian party 
in Ukraine secretly route $2.2 million in payments to two 
prominent Washington lobbying firms in 2012, and did so in a 
way that effectively obscured the foreign political party's 
efforts to influence U.S. policy.''
    Has the FBI interviewed Mr. Manafort about his failure to 
disclose his work for this foreign government, as Federal law 
requires?
    Mr. Comey. I have to give you the same answer, Mr. Nadler.
    Mr. Nadler. Has the FBI interviewed Rick Gates, who 
reportedly still works for the Trump campaign, about his 
involvement in this scheme?
    Mr. Comey. Same answer, sir.
    Mr. Nadler. Same answer.
    Director Comey, after you investigated Secretary Clinton, 
you made a decision to explain publicly who you interviewed and 
why. You also disclosed documents, including notes from this 
interview--from those interviews.
    Why shouldn't the American people have the same level of 
information about your investigation of those associated with 
Mr. Trump?
    Mr. Comey. Well, I am not confirming that we are 
investigating people associated with Mr. Trump.
    In the matter of the email investigation, it was our 
judgment--my judgment and the rest of the FBI's judgment that 
those were exceptional circumstances where the public needed 
transparency.
    Mr. Nadler. Okay.
    My final question is the following. You investigated 
Secretary Clinton's emails and so forth, everything we have 
been talking about. You concluded, I believe quite properly, 
there was nothing to prosecute. And you have announced, in my 
opinion quite properly, that you had investigated it and there 
was nothing there--or there was nothing to prosecute. That was 
proper.
    But having announced--when a prosecutorial agency announces 
that ``we have investigated so-and-so and we have decided to 
prosecute because'' or ``we have investigated so-and-so and we 
have decided not to prosecute because,'' why is it appropriate 
for that prosecutorial agency to go further and say, ``Even 
though we decided not to prosecute, we still think this person 
did this, that, or the other thing and it was proper or 
improper''? Why is it proper for a prosecutorial agency to 
characterize your opinion of the propriety of the actions of 
someone who you have announced that you have decided did 
nothing criminal and shouldn't be prosecuted?
    Mr. Comey. That is a very hard decision. That is why it is 
the exception to the rule. You do risk damaging someone who 
isn't convicted.
    The judgment I made in this case is, given the unusual--in 
fact, I hope unprecedented--nature of this investigation, that 
it was appropriate to offer that transparency. Not an easy 
call. I really wrestled with it, but I think, on balance, it 
was the right call.
    Mr. Nadler. Let me just say before my time expires that I 
think--and I am just talking for myself--that that was highly 
inappropriate; that, having determined that there was nothing 
to prosecute and having announced that quite properly, for a 
prosecuting agency, the Department of Justice, to comment with 
comments that will be looked upon as authoritative that what 
she did was right or wrong or good or bad is not the 
appropriate role of a prosecuting agency and risks, not in this 
case perhaps, but risks--and I talk really now because of the 
future.
    I don't want to see that happen again with regard to 
anybody, because it puts anybody who did not commit a crime, 
who you or the Justice Department or whoever has determined did 
not commit a crime or there is no evidence sufficient to 
prosecute, puts them at the mercy of the opinion of an 
individual or individuals within the prosecuting agency. And 
that is just not right under our system.
    I yield back.
    Mr. Goodlatte. The time of the gentleman has expired.
    The Chair recognizes the gentleman from Texas, Mr. Smith, 
for 5 minutes.
    Mr. Smith. Thank you, Mr. Chairman.
    Director Comey, thank you for those examples of the FBI's 
good work in your opening statement. I think we all appreciate 
what the FBI has done.
    My first question is this: Would you reopen the Clinton 
investigation if you discovered new information that was both 
relevant and substantial?
    Mr. Comey. It is hard for me to answer in the abstract. We 
would certainly look at any new and substantial information.
    Mr. Smith. Yeah. Let's impersonalize it--in general, if you 
discovered new information that was substantial and relevant, 
you would reopen an investigation, would you not?
    Mr. Comey. Again, even in general, I don't think we can 
answer that in the abstract. What we can say is, if people--any 
investigation, if people have new and substantial information, 
we would like to see it so we can make an evaluation.
    Mr. Smith. Okay. Let me give you some examples and mention 
several new developments that I think have occurred and ask you 
if you have become aware of them.
    The first example is what the Chairman mentioned a while 
ago. An employee at a company that managed former Secretary 
Clinton's private email server said, ``I need to strip out a 
VIP's (VERY VIP) email address from a bunch of archived emails. 
Basically, they don't want the VIP's email address exposed to 
anyone.''
    I assume you are aware of that.
    Mr. Comey. I am aware of that.
    Mr. Smith. Okay.
    The same employee called a new retention policy designed to 
delete emails after 60 days a, ``Hillary cover-up operation.'' 
And you saw that, did you not?
    Mr. Comey. Say the last--I am sorry, Mr. Smith, I couldn't 
hear the last----
    Mr. Smith. The same employee called the new retention 
policy designed to delete emails after 60 days a ``Hillary 
cover-up operation.'' You saw that?
    Mr. Comey. I don't know that particular language.
    Mr. Smith. Okay. We will get you the source, but you can 
take my word for it that that is what he said.
    Mr. Comey. I will.
    Mr. Smith. Another example: A former Clinton Foundation 
employee, who also managed the Clinton server, destroyed 
devices used by former Secretary Clinton by smashing them with 
a hammer. You are aware of that?
    Mr. Comey. Yes.
    Mr. Smith. Okay.
    Two employees of the company that managed former Secretary 
Clinton's server recently pled the Fifth Amendment to Congress 
to avoid self-incrimination. And you are aware of that?
    Mr. Comey. Yes.
    Mr. Smith. Okay.
    And then, lastly, 15,000 more work-related emails were 
discovered, though there had been an attempt to wrongly delete 
them. And you are aware of that?
    Mr. Comey. I think we discovered them.
    Mr. Smith. Right.
    To me, Director Comey, what I cited are not the actions of 
innocent people. There is a distinct possibility that Mrs. 
Clinton or her staff directed others to destroy evidence in a 
government investigation, which, of course, is against the law. 
So I would urge you to reopen your investigation.
    Do you want to comment on that?
    Mr. Comey. I don't.
    Mr. Smith. Okay. I know you can't tell us whether you have 
or have not, but I believe I have given evidence of new 
information that is relevant and substantial that would justify 
reopening the investigation.
    My next question is this: I know you granted immunity to a 
number of individuals, but if you had new information that is 
relevant and substantial, you would be able to investigate them 
further, wouldn't you?
    Mr. Comey. Not to quibble, the FBI doesn't grant immunity 
to anybody. The Department of Justice is able to grant very 
different kinds of immunity. If new and substantial evidence 
develops either that a witness lied under a grant of use 
immunity or under any kind of immunity, of course the 
Department of Justice can pursue it.
    Mr. Smith. Okay.
    Mr. Comey. Nobody gets lifetime immunity.
    Mr. Smith. Right. Okay. Thank you, Director Comey.
    Last question is this: As Chairman of the Science 
Committee, I issued the FBI a subpoena on September 19, 2016. 
The due date for a response was 2 days ago, September 26. 
Bureau staff has still not provided the requested information 
and documents.
    Yesterday, we pointed out to them that the Science 
Committee has jurisdiction over the National Institute of 
Standards and Technology, which sets standards for the Federal 
Information Security Modernization Act of 2014.
    I trust you intend to comply with the subpoena.
    Mr. Comey. I intend to continue the conversations we have 
been having about the subpoena.
    Mr. Smith. Yeah.
    Mr. Comey. As you know, we have made a lot of documents 
available to at least six Committees, and the question of 
whether we should make them additional--available to another 
Committee is something that we are struggling with but talking 
to your folks about.
    Mr. Smith. Okay. To me, there is no struggle. If we have 
clear jurisdiction, which we can demonstrate, it, I think, 
obligates you to comply with the subpoena.
    Mr. Comey. Yes, sir. We are not trying to be disrespectful. 
We are just not sure we see the jurisdictional issue the way 
that your folks do. But we are continuing to talk about it.
    Mr. Smith. Okay. Thank you, Director Comey.
    Mr. Issa. Would the gentleman yield?
    Mr. Smith. I will yield to the gentleman from California.
    Mr. Issa. Thank you.
    The Chairman of the full Committee had asked something 
earlier, and I just want to point out and ask that it be placed 
in the record--according to the Maryland Code of Ethics 
19301.11, it specifically prohibits a former or current 
government officer or employee from acting as a counsel to 
someone that they represented in government. And I would like 
that to be placed in the record.
    In light of the fact that the Maryland Bar has----
    Mr. Goodlatte. Without objection, it will be made a part of 
the record.
    [The information referred to follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]  
                               __________
                               
    Mr. Issa. In light of the fact the Maryland Bar has this 
prohibition, would that have changed your view of allowing her 
in and saying you had no authority?
    Mr. Comey. I am not qualified nor am I going to answer 
questions about legal ethics in this forum. The FBI has no 
basis to exclude somebody from an interview who the subject of 
the interview says is on their legal team.
    Mr. Smith. Okay. Thank you, Director Comey.
    Thank you, Mr. Chairman. I yield back.
    Mr. Goodlatte. The Chair thanks the gentleman, recognizes 
the gentlewoman from California, Ms. Lofgren, for 5 minutes.
    Ms. Lofgren. Thank you, Mr. Chairman.
    And thank you, Director Comey, for once again appearing 
before this Committee, as you appear before so many Committees 
here in the House. Sometimes I wonder how you get any work done 
at all, that you are called up here so frequently.
    You know, there has been a lot of focus on the private 
email that Secretary Clinton used, just as her predecessor, 
Colin Powell, used. So far as I am aware from the public 
comments, there is no forensic evidence that there was a breach 
of that server, although theoretically you could intrude and 
not leave evidence.
    But there has been very little focus on the breach at the 
State Department email system. Now, it has been reported in the 
press that this breach of the State Department email system was 
one of the largest ever of a Federal system and was 
accomplished by, according to the press, either China or 
Russia.
    I am wondering if you are able to give us any insight into 
whether it was, in fact, the Russians who hacked into the State 
Department email system or whether that is still under 
investigation.
    Mr. Comey. Not in this open forum, I can't.
    Ms. Lofgren. All right. I am hoping that we can get some 
insight in an appropriate classified setting on that.
    Now, we have watched with some concern--and I know you are 
also concerned--about the Russian intrusion into our election 
system. It has been reported to us that the Russians hacked 
into the Democratic National Committee database. They also 
hacked into the Democratic Congressional Campaign Committee. 
And it seems that they are making an effort to influence the 
outcome of this election. We have been warned that the 
information stolen might not just be released but also be 
altered and forged and then released, in an effort to impact 
the election here in the United States.
    Yesterday, there were press reports--and I don't know if 
they are accurate, and I am interested if you are able to tell 
us--that the Russians have also hacked the telephones of 
Democratic staffers and that there was a request for Democratic 
staffers to bring their cell phones into the FBI to have them 
mirrored.
    Can you tell us anything about that?
    Mr. Comey. I can't at this point. What I can say in 
response to the first part of your question, any hacking is 
something we take very seriously. Any hacking in connection 
with this Nation's election system is something we take 
extraordinarily seriously, the whole of government. So it is 
something the FBI is spending a lot of time on right now to try 
and understand. So what are they up to and what does it involve 
and what is the scope of it to equip the President to decide 
upon the appropriate response. And so that is one of reasons I 
have to be very careful about what I say about it. That work is 
ongoing. I should make clear to folks when we talk about our 
election system, there has been a lot of press reporting about 
attempts to intrude into voter registration databases. Those 
are connected to the Internet. That is very different than the 
electoral mechanism in this country, which is not.
    Ms. Lofgren. We had actually a hearing, and I had the 
chance to talk to Alex Padilla, who is the Secretary of State 
in California. Number one, they encrypt their database. And 
number two, even if you were to steal it, there is backups that 
you couldn't steal. So they can't really manipulate that. But 
you could cause a lot of damage. I mean, you could create chaos 
on Election Day that would--and you could target that chaos to 
areas where voters had a tendency to vote for one candidate 
over another in an attempt to influence the outcome. So it is 
not a benign situation certainly, and one that we want to worry 
about.
    I want to just quickly touch on a concern I have also on 
cyber on rule 41, and how the FBI is interpreting that. I am 
concerned that the change, as understood by the FBI, would 
allow for one warrant for multiple computers, but would include 
allowing the FBI to access victims' computers in order to clean 
them up. Cybersecurity experts that I have been in touch with 
have raised very strong concerns about that provision, 
especially using malware's own signaling system to disable the 
malware. The cyber experts who have talked to me and expressed 
concern believe that that ultimately could actually trigger 
attacks. And, so, I am wondering if you have any comments on 
how the FBI intends to use rule 41 vis malware on victims' 
computers?
    Mr. Comey. Yeah. Thank you.
    Mr. Goodlatte. Time of gentlewoman has expired. The witness 
will be permitted to answer the question.
    Mr. Comey. Thank you, Mr. Chairman. I am not an expert, but 
one of the challenges we face, especially in dealing with these 
huge criminal botnets, which have harvested and connected lots 
of innocent peoples' computers is how do we execute a search 
warrant to try and figure out where the bad guys are, and get 
them away from those innocent people? And the challenge we have 
been facing is to go to every single jurisdiction and get a 
warrant would take, literally, years. And so we are trying to 
figure out can we use rule 41 to have one judge issue that 
order and give us that authority.
    Ms. Lofgren. Mr. Chairman, I know my time has expired. I 
would just like to close by expressing the hope that the FBI 
might seek the guidance of some of the computer experts at our 
national labs on this very question of triggering malware 
attacks. And I yield back.
    Mr. Goodlatte. The point is well taken. The Chair 
recognizes the gentleman from Ohio, Mr. Chabot, for 5 minutes.
    Mr. Chabot. Thank you, Mr. Chairman. Director Comey, 
Chairman Goodlatte, in his introduction of you, mentioned that 
you are a graduate of the College of William and Mary. And as 
you may well know, I am a graduate of William and Mary as well.
    Anyway, you may remember that our alma mater is very proud 
of something called the honor code. And I checked out the 
wording of the honor code to make sure that I was correct on 
it. And I will tell you exactly what it says. It says, ``As a 
member of the William and Mary community, I pledge on my honor 
not to lie, cheat, or steal, either in my academic or in my 
personal life.'' Well, one of the people whose behavior you 
investigated, Hillary Clinton, didn't have the good fortune to 
attend the College of William and Mary. But she did attend 
Wellesley. And I wondered whether they had an honor code. And I 
found out, I looked it up, they do, and they did. And here is 
what it says, ``As a Wellesley College student, I will act with 
honesty, integrity, and respect. In making this commitment, I 
am accountable to the community and dedicate myself to a life 
of honor.'' Let me repeat part of that again. ``I will act with 
honesty.''
    Now, I am sure the young women attending Wellesley today, 
and those that have attend it in the past, are proud that one 
of their own could be the next President of the United States. 
But a majority of the American people have come to the 
conclusion that Hillary Clinton is not honest and cannot be 
trusted. It is about two to one who say that she is dishonest. 
In the latest Quinnipiac poll, for example, the question being: 
Would you say that Hillary Clinton is honest or not, 65 percent 
said no. And only 32 percent said yes, she is honest. You know, 
Republicans and Democrats. Not surprisingly, were 
overwhelmingly one way or the other. But Independents, 80 
percent of them said nope, she is not honest. And only 19 
percent of them said she is.
    So Director Comey, since you and your people were the ones 
who investigated Hillary Clinton's email scandal, I would just 
like to ask a couple of questions. First, Hillary Clinton 
claimed over and over that none of the emails that she sent 
contained classified information. Was she truthful when she 
said that?
    Mr. Comey. As I said when I testified in July, there were--
I am forgetting now after 2\1/2\ months the exact number, but 
there were 80 or so emails that contained classified 
information.
    Mr. Chabot. Okay. So she said they didn't contain 
classified information and they did. So that sounds like not 
being truthful. Not trying to put words in your mouth. But I 
think that is what that means.
    Hillary Clinton then came up with a fallback position 
saying: Well, none of the emails I sent were marked classified. 
But that wasn't true either. Was it?
    Mr. Comey. There were three--as I recall, three emails that 
bore within the body of the text a portion marking that 
indicated they were classified confidential.
    Mr. Chabot. And again, not putting words in your mouth, but 
I think that means that no, she didn't tell the truth in that 
particular instance.
    Hillary Clinton said she decided to use a personal email 
server system for convenience. And that she would only have to 
carry around one BlackBerry. Was she being truthful when she 
said she just used one device?
    Mr. Comey. She used, during her tenure as Secretary of 
State, multiple devices. Not at the same time, but 
sequentially.
    Mr. Chabot. Okay. Again, I am going to take that as she 
said one and it was more. So, therefore, not honest. And in 
fact, some of the devices were destroyed with a hammer, as has 
already been mentioned. Is that the type of behavior that you 
would expect from someone who is being fully cooperative with 
an investigation, destroying devices containing potential 
evidence with a hammer?
    Mr. Comey. Well, we uncovered no evidence that devices were 
destroyed during the pendency of our investigation. And so why 
people destroy devices when there is no investigation is a 
question I am not able to answer.
    Mr. Chabot. Okay. Thank you. Mr. Director, a little less 
than 2 months ago, Hillary Clinton, in talking about her 
emails, claimed that you said ``that my answers were 
truthful.'' PolitiFact, by the way, gave this claim a Pants on 
Fire rating. Did you say that she was telling the truth with 
respect to her email claims?
    Mr. Comey. I did not. I never say that about anybody. Our 
business is never to decide whether someone--whether we believe 
someone. Our business is always to decide what evidence do we 
have that would convince us not to believe that person. It is 
an odd way to look at the world, but it is how investigators 
look at the world.
    Mr. Chabot. Thank you. Director Comey, it must have been, 
and I am almost out of time, but it must have been very awkward 
for you, you are tasked with investigating a person who could 
be the next President of the United States, and the current 
President of the United States has already prejudged the case 
and telegraphed to you and the entire Justice Department that 
he, your boss, has come to the conclusion that there is not 
even a smidgen of corruption, his own words, before you have 
even completed your investigation. You were aware that he had 
said that, weren't you?
    Mr. Comey. Yes, I saw those reported in the press.
    Mr. Chabot. Okay. And finally, it just seems to me here 
that there was clearly a double standard going on. Like, for 
example, if anybody else had done this, like a soldier or a 
serviceman who did virtually the same thing, they would have 
been prosecuted and were, but not Hillary Clinton. And that is 
a double standard, and that is not the way it is supposed to 
work in America. And I am out of time. I yield back.
    Mr. Comey. I disagree with that characterization, but----
    Mr. Goodlatte. The gentleman is permitted to respond.
    Mr. Comey. I don't think so. I actually think if I--if we 
were to recommend she be prosecuted, that would be a double 
standard because Mary and Joe at the FBI or some other place, 
if they did this, would not be prosecuted. They would be 
disciplined. They'd be in big trouble. In the FBI, if you did 
this, you would not be prosecuted. That wouldn't be fair.
    Mr. Chabot. I will give you the benefit of the doubt 
because you are an alumni of William and Mary.
    Mr. Comey. Okay.
    Mr. Goodlatte. The time of the gentleman has expired. The 
Chair recognizes the gentlewoman from Texas, Ms. Jackson Lee, 
for 5 minutes.
    Ms. Jackson Lee. Chairman, thank you so very much. Many 
Americans have come to trust Hillary Clinton as a dedicated 
committed public servant. But I believe it is important as we 
address these questions, let me make one or two points. My 
colleagues have already made it, and I look forward maybe to 
coming back to Washington to dealing with the potential Russian 
intrusion on the election system. I am not asking you, 
Director, at this time. And also the issue of connecting the 
dots as we deal with terrorism across America. But I do want to 
acknowledge Eric Williams, an outstanding detailee to this 
Judiciary Committee, and thank him for his service. And I want 
to thank the SAC in Houston, Mr. Turner, for helping us in the 
shooting that occurred in Houston, as you well know, that gave 
us a great deal of fear and scare just a couple of days ago.
    But, Director Comey, my Republican colleagues have 
questioned, second-guessed, and attacked you and your team of 
career FBI agents. They disagree with the results of your 
investigation. They want you to prosecute, or to ask the DOJ to 
prosecute Secretary Clinton regardless of the facts. So they 
have engaged in an almost daily ritual of holding hearings, 
desperately trying to tear down your investigation and your 
recommendations. I believe you testified previously that your 
recommendation in that case was unanimous, and your 
investigation was carried out by what you called an all star 
team of career agents and prosecutors. Is that right?
    Mr. Comey. Yes. These were some of our very best. And 
sometimes, because I am lucky enough to be the person who 
represents the FBI, people think it is my conclusion. Sure it 
is my conclusion, but I am reporting what the team thought and 
their supervisors and their supervisors. As I said, this was--
as painful as it is for people sometimes, this was not a close 
call.
    Ms. Jackson Lee. Let me continue. You have written that the 
case itself was not a cliff hanger. Is that right?
    Mr. Comey. Correct. Correct.
    Ms. Jackson Lee. Recently, Republicans have attacked the 
decision to provide limited immunity to individuals during the 
investigation. For example, when Congressman Chaffetz learned 
about this, he stated, ``No wonder they couldn't prosecute a 
case. They were handing out immunity deals like candy.'' I 
understand that the FBI does not make the final call on 
immunity agreements. That was the DOJ. You made that clear. So 
his statement was just wrong. But did you consult closely with 
DOJ before these immunity agreements were concluded by giving--
by having facts?
    Mr. Comey. Right. Our job is to tell them what facts we 
would like to get access to. The prosecutor's job is figure out 
how to do that. And so they negotiate--I think there were five 
limited immunity agreements of different kinds that they 
negotiated.
    Ms. Jackson Lee.  Did you or anyone at the FBI ever object 
to these decisions to grant immunity? Did you think they made 
sense?
    Mr. Comey. No. It was fairly ordinary stuff.
    Ms. Jackson Lee.  Was the FBI or DOJ handing out immunity 
agreements like candy?
    Mr. Comey. That is not how I saw it. I didn't see it----
    Ms. Jackson Lee. Congressman Gowdy, a good friend, also 
objected to granting immunity to Bryan Pagliano and Mr. 
Combetta at Platte River Networks. He quoted: ``These are the 
two people that FBI decides to give immunity to, Bryan and the 
guy at Platte River, if it happened.'' Those are the two that 
you would want to prosecute. So you are giving immunity to the 
trigger people, and everybody goes free.'' Do you agree with 
this assessment? Did the FBI screw up here and let everyone go 
free because of these limited immunity deals?
    Mr. Comey. No, I don't think so. The goal in an 
investigation like this is to work up. And if people have 
information that their lawyers are telling you that you are not 
going to get without some limited form of immunity and they are 
lower down, you try to get that information to see if you can 
make a case against your subjects.
    Ms. Jackson Lee. Congressman Gowdy also said this about the 
FBI: ``I have been underwhelmed by an agency that I once had 
tremendous respect for.'' Let me just say, sitting on this 
Judiciary Committee for many, many years, going through a 
number of investigations, I have never been proud of an agency 
that has always been there when vulnerable people are hurting, 
and when there is a need for great work. But my question to you 
is: What is your response to that, Director Comey? Do you 
believe these criticisms are fair?
    Mr. Comey. I think questions are fair. I think criticism is 
healthy and fair. I think reasonable people can disagree about 
whether I should have announced it and how I should have done 
it. What is not fair is any implication that the Bureau acted 
in any way other than independently, competently, and honestly 
here. That is just not true. I knew this was going to be 
controversial. I knew there would be all kinds of rocks thrown. 
But this organization and the people who did this are honest, 
independent people. We do not carry water for one side or the 
other. That is hard for people to see because so much of our 
country we see things through sides. We are not on anybody's 
side. This was done exactly the way you would want it to be 
done. That said, questions are fair. Feedback is fair.
    Ms. Jackson Lee. Absolutely. But the foot soldiers, we use 
that term in the civil rights movement, your agents on the 
ground, you take issue with whether or not they were 
compromised or they were adhering to somebody else's message. 
Is that what you are saying?
    Mr. Comey. Absolutely. You can call us wrong, but don't 
call us weasels. We are not weasels. We are honest people. And 
we did this in that way, whether you disagree or agree with the 
result, this was done the way you would want it to be done.
    Ms. Jackson Lee. You were able to learn that Mr. Pagliano 
and Mr. Combetta--you learned what they had to say. And if 
anyone provided statements to the FBI had actually provided 
evidence that Secretary Clinton has committed a crime, would 
you then have recommended prosecution to the DOJ?
    Mr. Comey. Oh, yeah. If the case was there, very 
aggressively.
    Ms. Jackson Lee. Are you sure you wouldn't have been a 
little nervous about doing so, a little intimidated?
    Mr. Comey. No. I really don't care.
    Ms. Jackson Lee. You don't look like it. You are kind of 
tall, and that----
    Mr. Comey. I have a 10-year term. That is the beauty of 
this--while there is a lot of challenging things about this 
job, one of the great things is I have a certain amount of job 
security. And so no. Either way, we would have done what the 
facts told us should be done.
    Ms. Jackson Lee. So are you now second-guessing your 
decision regarding Hillary Clinton?
    Mr. Comey. No. 
    Mr. Goodlatte. The time of the gentlewoman has expired.
    Ms. Jackson Lee. Mr. Chairman, I want to thank the Director 
and ask my colleagues to give the respect that this agency in 
this instance deserves. Thank you so very much for your 
service. I yield back.
    Mr. Goodlatte. The Chair thanks the gentlewoman. The Chair 
recognizes the gentleman from California, Mr. Issa, for 5 
minutes.
    Mr. Issa. Thank you, Mr. Chairman. Director, I have got a 
lot of concerns. But one of them refers to Reddit. At the time 
that the Department of Justice at your behest or your 
involvement gave Paul Combetta immunity, did you do so knowing 
about all of the posts he had on Reddit, and capturing all of 
those posts and correspondence where he was asking how to wipe, 
or completely erase on behalf of a very VIP, so to speak?
    Mr. Comey. I am not sure sitting here. My recollection is, 
and I will check this and fix it if I am wrong, that we had 
some awareness of the Reddit posts. I don't know whether our 
folks had read them all or not. We had a pretty good 
understanding of what we thought he had done. But that is my 
best recollection.
    Mr. Issa. Okay. In the last week, en masse, he has been 
deleting them from Reddit posts. Is that consistent with 
preserving evidence? And I say that because there is still an 
ongoing interest by Congress. And only in spite of Reddit's own 
senior, what they call, flack team trying to hide it, only 
because a few people caught it do we even know about it. And 
this and other Committees are interested in getting the backups 
that may exist on these deletions. You know, I guess my 
question to you is, is he destroying evidence relevant to 
Congressional inquiries? And I will answer it for you. Yes. He 
is. And what are you going to do about it?
    Mr. Comey. That is not something I can comment on.
    Mr. Issa. Well, let me go into something that concerns this 
body in a very specific way. As a former Chairman issuing 
subpoenas, I issued a subpoena, and additionally, I issued 
preserve letters in addition to that. Now-Chairman Chaffetz 
issued what are effectively preserve letters. Some of them were 
directly to Hillary Rodham Clinton while she was still 
Secretary. Others, the subpoena in 2013, was to Secretary 
Kerry. These individuals destroyed documents pursuant--or took 
it out of Federal custody pursuant to our subpoena and our 
discovery. As a result, they committed crimes. My question to 
you is, when I was a Chairman and I wanted to grant immunity to 
somebody, I had to notice the Department of Justice, and you 
were consulted. Isn't that correct?
    Mr. Comey. In a particular matter?
    Mr. Issa. In any matter.
    Mr. Comey. I don't know whether the FBI is consulted in 
that circumstance.
    Mr. Issa. Okay. For the record, yes. The Department of 
Justice does not grant immunity without checking with Federal 
law enforcement to see whether it will impact any ongoing 
investigation. That is the reason we have a requirement to give 
notice. When the reverse was occurring, you were granting--
handing out like candy, according to some, immunity, did you 
or, to your knowledge, Department of Justice confer with 
Chairman Goodlatte, Chairman Chaffetz, Chairman Smith or any of 
the other Chairmen who had ongoing subpoenas and 
investigations?
    Mr. Comey. Not to my knowledge.
    Mr. Issa. So isn't there a double standard that when you 
granted immunity to these five individuals, you took them out 
of the reach of prosecution for crimes committed related to 
destruction of documents, or withholding or other crimes 
pursuant to Congressional subpoenas?
    Mr. Comey. I don't think anybody was given transactional 
immunity.
    Mr. Issa. Oh, really? Now, we have are not allowed to make 
your immunities public, but I am going to take the privilege of 
making one part of it public. I read them. You gave immunity 
from destruction to both of those attorneys. Not just turning 
the documents over, specifically destruction. You did the same 
thing with these other two individuals, Bryan and Paul 
Combetta. You gave them immunity from destruction.
    Mr. Comey. Yeah. I don't think--well, again, I could always 
be wrong, but I don't have them in front of me either----
    Mr. Issa. Well, because you don't let us take them out of 
the SCIF, it is a little hard for us too. But the fact is when 
you read them----
    Mr. Comey. Can I finish my answer? I am pretty sure that 
what was granted was use immunity in the case of those two 
people, co-extensive with 18 U.S.C. 6001, which means no 
statement you make can be used against you directly or 
indirectly. Transactional immunity is sometimes given also by 
prosecutors, says you will not be prosecuted in any event for 
this set of facts. I don't think there was any transactional 
immunity.
    Mr. Issa. But when I read for both of the attorneys that 
immunity was granted, it, in both cases, said destruction, in 
addition to the turning over. Why was that--why would you 
believe that was necessary, or do you believe that would be 
necessary? You wanted the document. You wanted the physical 
evidence. Why did you have to give them immunity from 
destruction of materials? And because my time is expiring, when 
you look into it and hopefully get back to this Committee, I 
would like to know, does that immunity apply only to 
destruction on the computers delivered so that other 
destructions by Cheryl Mills could still be prosecuted?
    Mr. Comey. Yeah. Again, my recollection is no transactional 
immunity was given. Protection of statements was given to the 
Combetta guy and Mr. Pagliano.
    Mr. Issa. Thank you, Mr. Chairman.
    Mr. Goodlatte. The Chair thanks the gentlemen. The Chair 
recognizes the gentleman from Tennessee, Mr. Cohen.
    Mr. Issa. Mr. Chairman, I would ask unanimous consent, 
quickly, that a group of documents be included, and I will 
summarize them. They are basically the letters and subpoenas 
that led up to the destruction of documents that were 
previously held for preservation. Additionally, the blog posts 
from Reddit. If those could all be placed in the record.
    Mr. Goodlatte. Without objection, they will be made a part 
of the record.*
---------------------------------------------------------------------------
    Note: The material referred to is not printed in this hearing 
record but is on file with the Committee, and can also be accessed at:

    http://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=105390
    Mr. Issa. Thank you, Mr. Chairman.
    Mr. Goodlatte. The gentleman from Tennessee is recognized.
    Mr. Cohen. Thank you, sir. Director Comey, would you 
consider the FBI's most important job presently fighting 
terrorism and threats to the homeland?
    Mr. Comey. Yes. That is our top priority.
    Mr. Cohen. How much time do you think the FBI and you have 
spent responding to congressional inquiries, and on this 
particular email investigation? Could you give me an idea how 
many man months or years have been expended on responding to 
the different Committees that have called you in time after 
time after time, and repetitiously accused you of doing 
politics rather than being an FBI Director?
    Mr. Comey. I can't. I don't have any sense.
    Mr. Cohen. Could it be--would it be months of cumulative 
man hours, or would it be years of cumulative man hours?
    Mr. Comey. You know, I don't know. A lot of folks have done 
a lot of work to try and provide the kind of transparency that 
we promised. It has been a lot by a lot of people. I just don't 
have a sense of the----
    Mr. Cohen. How many hours have you spent before Congress on 
this?
    Mr. Comey. Testimony? Four hours and 40 minutes without a 
bathroom break, I want to note for the record. And whatever 
today is. Those would be the two main appearances. I was asked 
questions at Senate Homeland yesterday about this, and then 
House Homeland in July, I think. I am guessing 10 hours or so.
    Mr. Cohen. And you prepared for this, though. I mean, the 
10 hours is just like the iceberg?
    Mr. Comey. Oh, sure. Yeah.
    Mr. Cohen. Could your time and the FBI's time better be 
used fighting terroristic threats here in America?
    Mr. Comey. You know, we are still doing it all. So no one 
should think that we have taken a day off because we are also 
doing oversight. We do both.
    Mr. Cohen. In the case in New York where Mr. Rahami tried 
to detonate some bombs, did detonate a bomb, his father had 
accused him of being a terrorist at one time. And he had 
stabbed his brother and was in jail. Did the FBI interview him 
when he was in jail about his possible terrorist tendencies and 
his trips to Pakistan or Afghanistan?
    Mr. Comey. I will answer that. I am trying to be very 
circumspect at how I answer questions about the case, because 
the guy is alive and is entitled to a fair trial. And if I 
don't do anything that would allow him to argue, he lost the 
ability to have a fair trial. The answer is we did not 
interview him when he was in jail in 2014.
    Mr. Cohen. And why would that be? You interviewed the 
father, I believe. You might have talked to the brother. You 
might have talked to a friend. The best evidence was him. He is 
in jail. You didn't have to--you know. Why did they not go and 
talk to him?
    Mr. Comey. You know, sitting here, I don't want to answer 
that question yet. I have commissioned, as I do in all of these 
cases, a deep look back. We are trying to make the case now. We 
will go back very carefully, try to understand what decisions 
the agents made who investigated that and why, and whether 
there is learning from that. So I don't want to answer it just 
now, because I would be speculating a bit.
    Mr. Cohen. Thank you, sir. Some people have suggested you 
made a political calculation in your recommendation dealing 
with Secretary Clinton and the emails. Did you make a political 
calculation in coming to your ultimate decision?
    Mr. Comey. None.
    Mr. Cohen. Some said that on national television, that 
Secretary Clinton's emails were destroyed after a directive 
from the Clinton campaign. You announced your decision, you 
stated publicly, ``We found no evidence that Secretary 
Clinton's emails were intentionally deleted in efforts to 
conceal them.'' Is that not correct?
    Mr. Comey. That is correct.
    Mr. Cohen. Others have said they lost confidence in the 
investigation and questioned the genuine effort in which it was 
carried out. Did the FBI make a genuine effort to carry out a 
thorough investigation?
    Mr. Comey. Oh, yes. Very much.
    Mr. Cohen. And did you take some hits from the position you 
took when you announced your decision?
    Mr. Comey. A few. A few. Yeah.
    Mr. Cohen. Difficult.
    Mr. Comey. Difficult, but I just thought it was the right 
thing to do. I am not loving this. But I think it is important 
that I come and answer questions about it. As long as people 
have questions, I will try to answer them.
    Mr. Cohen. You are not loving this? Do you need a bathroom 
break?
    Mr. Comey. No, no, I am good.
    Mr. Cohen. Setting a record?
    Mr. Comey. I will let you know at 4:40. How I am doing?
    Mr. Cohen. Thank you, sir. At FBI buildings, we know what 
they shouldn't be named. And you know my position on that. And 
I hope you keep that well in mind. You are a credit to the FBI. 
You are a credit to government service, and to your alma mater. 
And I yield back the balance of my time.
    Mr. Goodlatte. The Chair thanks the gentleman and 
recognizes the gentleman from Iowa, Mr. King, for 5 minutes.
    Mr. King. Thank you, Mr. Chairman. I thank you, Director, 
for your testimony here before this Committee. Again, I was 
listening in the exchange between yourself and Mr. Issa. I 
would just like to confirm that you were confirming that Mr. 
Combetta made the Reddit posts?
    Mr. Comey. I don't know whether I am confirming it. I think 
he did, is my understanding. But, yeah, that is my 
understanding. I think he did. I haven't dug into that myself. 
I have been focused on a lot of other stuff as we have talked 
about. But I think that is right.
    Mr. King. I certainly can accept that. And I would like to 
just go back to the interview with Hillary Clinton and how that 
all came about on that July 2 date. But first, I am looking at 
the dates of the conditional immunity documents that I have 
reviewed. And I see that Mr. Pagliano had one dated December 
22, and another one dated December 28. Can you tell me what 
brought about that second agreement, why the first one wasn't 
adequate, and if there was an interview with Mr. Pagliano in 
between those dates? So December 22 and 28 of 2015?
    Mr. Comey. I think what it is, and Mr. Gowdy and Mr. Marino 
will recognize this term, the first one is what we call a 
queen-for-a-day agreement, which was to govern an interview, so 
limited use immunity for an interview. And then I believe the 
second one is the agreement for use immunity in connection with 
the investigation. So it is sort of a tryout for him to get 
interviewed, for the prosecutors and investigators to poke at 
him. And then the second one is the agreement they reached. I 
think that is right.
    Mr. King. And to the extent of if we are going to go any 
further, we will go off of the December 28 agreement. That 
would be how I would understand that.
    Mr. Comey. Well, I think they are both important to him and 
his lawyer. But the first is an intermediate step to the 
second.
    Mr. King. Okay. Thank you. Then were you aware of the 
President's statement on October 9, 2015 when he reported that 
Hillary Clinton would not have endangered national security?
    Mr. Comey. Obviously, I don't know the dates, but I 
remember public reporting on a statement like that.
    Mr. King. And the following October, and I will state it, 
the report I have is October 9. Then again, on April 10, 2016, 
it was reported that the President had said that Hillary 
Clinton was careless, but not intentionally endangering 
national security. Were you aware of that statement as well?
    Mr. Comey. Yes.
    Mr. King. And then I would like you, if you could 
characterize the interview, sometime around, I believe, May 16 
it was reported that you said you intended to interview Hillary 
Clinton personally?
    Mr. Comey. I never said that because I never intended that. 
And I am sure I didn't say that publicly.
    Mr. King. Were you aware of the report that that was your 
public statement?
    Mr. Comey. Yes. I think I read it and smiled about it. 
People imagine the FBI Director does things that the FBI 
Director doesn't do.
    Mr. King. In fact, and I am not disputing your answer, I am 
just simply, for the record, this is a record that is dated 
September 28, 2016, Buffalo News, that has your picture on it, 
and takes us back to--that is when it was printed, excuse me. 
Takes us back to a document May 16, 2016, has a picture of you 
on the front of it, and I will ask to introduce it into the 
record, it says, ``FBI Director James Comey told reporters that 
he would personally interview Hillary Clinton 'in coming days.' 
'' And I would ask unanimous consent to introduce this article 
into the record.
    Mr. Goodlatte. Without objection, it will be made a part of 
the reported.
    [The information referred to follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]  
                               __________
                               
    Mr. King. Thank you, Mr. Chairman. And not as a matter of 
indictment, I don't dispute your word on this, it is what the 
public expectation was hanging out there is my real point. And 
then with that public expectation, I think the public was 
surprised to learn about who was or wasn't in that room. Can 
you tell us who was in the room involved in either listening to 
or conducting the interview of Hillary Clinton on that date of 
July 2, 2016?
    Mr. Comey. I can't tell you for sure. I can give you a 
general sense. The witness and her legal team. And then on our 
side of the table, our agents, prosecutors from the Department 
of Justice. I don't know if any of our analysts were in there 
or not. But sort of our team, their team.
    Mr. King. And how many of your team? How many FBI 
investigators?
    Mr. Comey. I don't know for sure, sitting here. I think we 
probably had eight to 10 people on our side, prosecutors and 
agents. That is a knowable fact. I just don't know it sitting 
here.
    Mr. King. Prosecutors. Did Loretta Lynch have her people in 
there?
    Mr. Comey. If you mean Department of Justice lawyers, yes. 
Sure.
    Mr. King. So how many Department of Justice lawyers would 
have been there?
    Mr. Comey. I don't know for sure. Again, I think it was 
probably about eight people; probably about four lawyers, about 
four from the FBI. But again, I could be wrong.
    Mr. King. Okay. So around four investigators, around four 
potential prosecutors from the DOJ, a couple of attorneys for 
Hillary Clinton, Hillary Clinton herself. That would set the 
scene fairly closely?
    Mr. Comey. I think Secretary Clinton's team was bigger than 
that. I don't know the exact number.
    Mr. King. Okay. And then, when you received the counsel as 
to the recommendation you were to make to Loretta Lynch, I am 
going to just go through this quickly, you didn't review a 
video tape, an audio tape, or a transcript. So you would have 
had to rely upon the briefings from the people that were in the 
room who would have been your investigative team?
    Mr. Comey. Yes. The agents who conducted the interview, 
yes.
    Mr. King. And they were briefing off of notes that they had 
taken, which are now in the SCIF, but redacted?
    Mr. Comey. Right. They write them up in what is called an 
FBI 302.
    Mr. King. And so Loretta Lynch had her people in the room, 
and they would have had access to your investigators in the 
room. And out of that came a piece of advice to you that she 
had already said she was going to hand that responsibility over 
to you as Director of the FBI as to making the recommendation, 
which turned out to be the decision on whether or not to indict 
Hillary Clinton?
    Mr. Goodlatte. The time of the gentleman has expired. The 
Director will answer the question.
    Mr. Comey. I am not sure I am following it entirely. There 
was no advice to me from the Attorney General or any of the 
lawyers working for her. My team formulated a recommendation 
that was communicated to me. And the FBI reached its conclusion 
as to what to do uncoordinated from the Department of Justice.
    Mr. King. Even though Justice was in the room with your 
investigators? And I would make that final comment and I yield 
back. Thank you, Chairman.
    Mr. Comey. Sure. Sure.
    Mr. Goodlatte. The Chair thanks the gentleman. The Chair 
recognizes the gentleman from Georgia, Mr. Johnson, for 5 
minutes.
    Mr. Johnson. Thank you, Mr. Chairman. Russian hacking into 
the databases of the Democratic National Committee and the 
Democratic Congressional Campaign Committee, as well as Russian 
hacks into the voter registration systems of Illinois and 
Arizona, serve as ominous warnings to the American people about 
the risks that our electoral processes face in this modern era. 
Unfortunately, Trump Republicans in the House are as obsessed 
with Hillary Clinton's damn emails as Trump has been about 
President Obama's birth certificate. Just like The Donald 
closed his birth certificate investigation after 5 years of 
fruitless investigation, however, I predict that the Trump 
Republicans will, at some point, close this email persecution. 
The American people are sick of it. The attention of the 
American public is increasingly focused on the security of this 
Nation's election infrastructure. On Monday, the Ranking 
Members of the House and Senate Intelligence Committees, 
Senator Dianne Feinstein and Congressman Adam Schiff, issued a 
joint statement setting forth the current status of this 
investigation. It said this: ``Based on briefings we have 
received, we have concluded that the Russian intelligence 
agencies are making a serious and concerted effort to influence 
the U.S. Election.'' They work closely with intelligence 
community individuals to be able to put that statement out to 
the American public.
    Director Comey, I don't want to ask you about any 
classified information, but is their statement accurate?
    Mr. Comey. I don't--I can't comment on that in this forum. 
As I said in my opening, we are investigating to try to 
understand exactly what mischief the Russians might be up to in 
connection with our political institutions and the election 
system more broadly. But I don't want to comment on that at 
this point.
    Mr. Johnson. Free and fair elections are the linchpin of 
our society. A compromise or disruption of our election process 
is something that this Congress certainly should be looking 
into. Would you agree with that?
    Mr. Comey. I can't speak, sir, to what Congress should be 
looking into. But the FBI is looking into this very, very hard 
for the reasons you say. We take this extraordinarily 
seriously.
    Mr. Johnson. Thank you. In June, the FBI cyber division 
issued a flash alert to State officials warning that hackers 
were attempting to penetrate their election systems. The title 
of the flash alert was, ``Targeting Activity Against State 
Board of Election Systems.'' The alert disclosed that the FBI 
is currently investigating cyber attacks against at least two 
States. Later in June the FBI warned officials in Arizona about 
Russian assaults on their election system, and hackers also 
attacked the election system in Illinois, where they were able 
to download the data of at least 200,000, or up to 200,000 
voters. In August, the Department of Homeland Security convened 
a conference call warning State election officials and offering 
to provide Federal cyber security experts to help scan for 
vulnerabilities. And yesterday it was announced that at least 
18 states have already requested election cybersecurity help to 
defend their election systems.
    Director Comey, since these flash alerts and warnings went 
out over this summer, I would appreciate you letting us know 
whether or not there have been any additional attacks on State 
operations or databases since June.
    Mr. Comey. There have been a variety of scanning 
activities, which is a preamble for potential intrusion 
activities, as well as some attempted intrusions at voter 
registration databases beyond those we knew about in July and 
August. We are urging the States just to make sure that their 
dead bolts are thrown and their locks are on, and to get the 
best information they can from DHS just to make sure their 
systems are secure. And again, these are the voter registration 
systems. This is very different than the vote system in the 
United States, which is very, very hard for someone to hack 
into, because it is so clunky and dispersed. It is Mary and 
Fred putting a machine under the basketball hoop at the gym. 
Those things are not connected to the Internet. But the voter 
registration systems are. So we urge the States to make sure 
you have the most current information and your systems are 
tight. Because there is no doubt that some bad actors have been 
poking around.
    Mr. Johnson. All right. With that, I will yield back the 
balance of my time. And thank you, sir.
    Mr. Goodlatte. The Chair recognizes the gentleman from 
Texas, Mr. Gohmert, for 5 minutes.
    Mr. Gohmert. Thank you, Mr. Chairman. And Director Comey, 
thanks for being here. I was a bit astounded when you said the 
FBI is unable to control who a witness, coming in voluntarily, 
brings in to an interview. I have seen a lot of FBI agents tell 
people who could come into an interview and who could not. And 
in this case, and I am sure you have heard some of the 
questions raised by smart lawyers around the country about 
providing immunity to people like Cheryl Mills in return for 
her presenting a laptop that you had every authority to get a 
subpoena, and if you had brought a request for a search 
warrant, based on what we now know, I would have had no problem 
signing that warrant so you could go get it anywhere you want. 
And in fact, I have talked to former U.S. attorneys, A.U.S.A.s, 
who have said if an FBI agent came in and recommended that we 
gave immunity to a witness to get her laptop that we could get 
with a subpoena or warrant, then I would ask the FBI not to 
ever allow this agent on a case.
    Can you explain succinctly why you chose to give immunity 
without a proffer of what was on the laptop, give immunity to 
Cheryl Mills while she was an important witness, and you could 
have gotten her laptop with a warrant or subpoena?
    Mr. Comey. Sure. I will give it my best shot. Immunity we 
are talking about here, and the details really matter, that we 
are talking about, is act of production immunity, which says we 
want you to give us a thing. We won't use anything we find on 
that thing directly against you. All right? It is a fairly----
    Mr. Gohmert. Well, and I understand that, and I understood 
that from reading the immunity deal. And that is what is so 
shocking because she was working directly with Hillary Clinton. 
And, therefore, it is expected since the evidence indicates she 
was pretty well copied on so many of the emails that Hillary 
Clinton was using, that pretty much anything in there would 
have been useable against her. And you cleaned the slate before 
you ever knew.
    Now, some of the immunities you give, the last paragraph 
mentions a proffer. Was there a proffer of what the witness 
would say before the immunity deals were given to those that 
got those immunities?
    Mr. Comey. Can I answer first, though, your question about 
what I think it made sense to have active production immunity 
for Cheryl Mills' laptop?
    Mr. Gohmert. I would rather--my time is so limited. Please.
    Mr. Comey. It is an important question, and I think there 
is a reasonable answer, but I will give it another time. I 
think in at least one of the cases, and I am mixing up the 
guys, but with Mr. Combetta, maybe also with Mr. Pagliano--no. 
I got that reversed.
    Mr. Gohmert. It is yes or no. Did you have a proffer from 
them as to what they would say before you gave them immunity?
    Mr. Comey. I believe there was a proffer session governed 
by what I just referred to is called a queen-for-a-day 
agreement, with at least one of them to try and understand what 
they would say. But----
    Mr. Gohmert. Because the deals that I have seen back 30 
years ago before I went to the bench, the FBI would say you--
and the DOJ. Of course, we know FBI can't give immunity. It has 
to come from DOJ, just like it is not the FBI's job to say what 
a reasonable prosecutor should do or not do. You give them the 
evidence and then you let them decide. But a proffer is made 
saying this is what my client will say. Then the DOJ decides, 
based on that proffer, here is the plea we will offer, here is 
the immunity we will offer. And if your client deviates from 
that proffer, the deal is off.
    You got really nothing substantial. It is as if you went 
into the investigation determined to give immunity to people 
instead of getting a warrant. You gave immunity to people that 
you would need to make a case if a case were going to be made. 
And I know we have people across the aisle that are saying: 
Well, it is only because she is a Presidential candidate. It 
happens to be, in my case, I wouldn't care whether she was a 
Presidential candidate or not. What is important to maintaining 
a civilization with justice and fairness is a little 
righteousness where people are treated fairly across the board, 
and it does not appear that in this case, it comports with 
anything that FBI agents, with centuries of experience, have 
told me they have never seen anything like this.
    So one other thing, I know this happened before your watch, 
but under Director Mueller, Kim Jensen, who prepared 700 pages 
of training material for those who would go undercover and try 
to embed with al-Qaeda, it was wiped out because CARE and some 
of the people that were unindicted co-conspirators named in 
your Holy Land Foundation trial, they said: We don't like them. 
They do not allow agents to know what Kim Jensen put in that 
700 pages that was so accurate, so good about Islam, that we 
could imbed people in al-Qaeda and they wouldn't suspect them.
    I would encourage you to start training your FBI agents so 
whether they are in San Bernardino, Orlando, New Jersey, 
wherever, they can talk to a radicalized Islamist and determine 
whether they are radicalized. Without Kim Jensen's type 
material, you will never be able to spot them again, and we 
will keep having people die.
    Thank you. My time has expired.
    Mr. Goodlatte. The time of the gentleman has expired. The 
Director is permitted to respond if he chooses to do so.
    Mr. Comey. I don't think I have anything at this point.
    Mr. Goodlatte. The Chair recognizes the gentlewoman from 
California, Ms. Chu, for 5 minutes.
    Ms. Chu. Thank you. Director Comey, during this Committee's 
oversight hearing last year, I asked you about the cases of 
Sherry Chen and Xi Xiaoxing, both U.S. citizens who were 
arrested by the FBI, accused of different crimes related to 
economic espionage for China, only to have those charges 
dropped without explanation.
    Since you last testified before the Committee, both cases 
have been closed. Now, I know that you may not be personally 
familiar with the individuals' cases, or may not be inclined to 
comment on the facts of these cases to the Committee today. 
However, would you be willing to provide a written explanation, 
or possibly a summary of the investigations to clarify how and 
why the FBI handled the cases the way they did?
    Mr. Comey. I don't want to commit to that sitting here. We 
would certainly consider what we can supply consistent with 
things like the Privacy Act. But we will certainly consider it. 
I am familiar with the cases. I remember your questions about 
it last year. And so we will take a look at what we can share 
with you. We can't obviously do it in an open forum, in any 
event.
    Ms. Chu. I understand that. But I appreciate the 
consideration.
    Now I would like to address a different topic. Director 
Comey, your agency recently introduced an online initiative 
aimed at promoting education and awareness about violent 
extremism called Don't Be a Puppet. This program was designed 
to serve as a tool for teachers and students to prevent young 
people from being drawn toward violent extremism.
    However, national education groups, faith groups, and 
community organizations have raised serious concerns about the 
way in which the program presents the problem of violent 
extremism. Particularly troublesome is the Web site's charge 
that teachers and students should look for warning signs that a 
person may be on a slippery slope of violent extremism, and to 
report activity that may or may not be indicative of 
radicalization.
    For instance, the Web site encourages students and teachers 
to report when others use unusual language or talk about 
travelling to suspicious places. The user of the Web site, 
however, is left to draw inferences about what constitutes a 
suspicious place, or what language is unusual enough to be 
reported to a trusted authority. For example, a trip to France 
or Germany, which hosts many far-right extremist groups may not 
sound suspicious to many users. But a trip to Saudi Arabia or 
Iraq, home to various Muslims' holy sites, possibly would.
    So on August 9, the American Federation of Teachers led a 
number of national groups in a letter written to you. And, Mr. 
Chair, I would like to submit this for the record.
    [The information referred to follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]  
                               __________
                               
    Ms. Chu. And among the many concerns they raise is the 
potential for such initiatives to exacerbate the profiling and 
bullying of students of Middle Eastern background that--and 
what they--over and above what they already experience. So how 
do you respond to the concerns expressed by the American 
Federation of Teachers about the impact of the FBI's Don't Be a 
Puppet Program, and the effect it may have on schools in 
immigrant communities?
    Mr. Comey. Well, thank you for that. I am glad they shared 
their feedback. Boy, I hope either before or after the feedback 
they go on and actually go through the Don't Be a Puppet. 
Because I have done it. I honestly can't understand the 
concerns. It is a very commonsense thing. One of our big 
challenges is how--if a kid starts to go sideways toward 
violence, the people closest to him are going to see something 
likely. How do we get folks to a place where they are 
sensitized to make commonsense judgments that this person may 
be headed in a very dangerous direction? It is never going to 
be perfect. But I actually think a lot of thought went into 
this, including faith groups, all kinds of civic groups, to 
make sure we got something that was good commonsense education 
for kids and for teachers. And so I am a little bit at a loss. 
Maybe we ought to meet with them and they can show me which 
parts of it they actually think are problematic. But I think it 
is a pretty darn good piece of work, is my overall reaction.
    Ms. Chu. So, Director Comey, you have gone to the Web site 
and looked at it. So what, then, would you consider to be a 
place that sounds suspicious or what would you consider to be 
an unusual language that somebody is speaking so much so that a 
student should report them to the authorities?
    Mr. Comey. I think what it says is speaking--using unusual 
language, not speaking Pashto or French or German. I think it 
means speaking in an unusual way about things. And suspicious 
place, Syria leaps to my mind. If someone is talking to 
classmates about thinking about traveling to Syria, the 
classmates ought to be sensitized to that. The teacher ought to 
be sensitized to it, so we can try and intervene with that kid 
before we have to lock them up for most of their life.
    Ms. Chu. But do you have evidence to show that this program 
is actually countering recruiting efforts by violent 
extremists?
    Mr. Comey. I don't. But it sure makes a lot of sense to me. 
And it seems, again, a commonsense way to equip kids to resist 
the siren song that comes from radical Islamists or skinhead 
groups or hate groups of different kinds. So, look, it is not--
I am sure it is not perfect, because nothing in life is. We 
would welcome feedback. But the general idea makes a lot of 
sense to me.
    Ms. Chu. I yield back.
    Mr. Goodlatte. The Chair recognizes the gentleman from 
Ohio, Mr. Jordan, for 5 minutes.
    Mr. Jordan. Thank you, Mr. Chairman. Director, in your 
opening comments, you said this was an unusual case. I would 
say that is the understatement of the year. Husband of the 
subject meets with the attorney general 3 days before Secretary 
Clinton is interviewed by the FBI. Nine people get to sit in 
with Secretary Clinton during that interview. One of those was 
her chief of staff, Cheryl Mills, who was a subject of the 
investigation. Five people get some kind of immunity. Five 
people get some kind of immunity, and yet no one is prosecuted. 
Three of those people who get immunity take the Fifth in front 
of Congress, and one of them doesn't even both to show up 
whenhe is subpoenaed, supposed to have been at that very chair 
you are sitting at. And, of course, the Attorney General 
announces that she is going to follow your recommendations even 
though she doesn't know what those recommendations are, the 
only time she has ever done that.
    So, of course, this was unusual. We have never seen 
anything like this. Which sort of brings me to the posts. I 
would like to put up the posts that some have talked about 
which is the posts on Mr. Combetta on Reddit. And you said 
earlier that you don't know if you examined this during your 
investigation. So let's examine it now. ``I need to strip out a 
VIP's address from a bunch of archived email. Basically they 
don't want the VIP's email address exposed to anyone.''
    Now, Director, when I hear the term ``strip out email 
address,'' I think of somebody is trying to hide something, 
somebody is trying to cover up something, and it sort of raises 
an important question from these two sentences. Who is the 
``they'' who wants something hid, and who is the VIP who also 
wants something hid? Director Comey, is it likely the VIP--
well, it is not just a VIP. It is a very, very important 
person, according to Mr. Combetta. Is it likely that that 
person is Secretary Clinton?
    Mr. Comey. Yes. Sure.
    Mr. Jordan. Okay. And is it also likely that the ``they'' 
refers to her, Secretary Clinton's staff, and, specifically, 
Cheryl Mills.
    Mr. Comey. I don't know that. Either her lawyers or some 
staff that had tasked him with the production.
    Mr. Jordan. So one other thing that is important on that, 
if we could but that back up, one other thing that is important 
is the date. The date at the top says July 24, 2014. So 
whenever I see a date, and I am sure you do the same thing, I 
always look at what is happening about that same timeframe, 
what may have happened directly before that and maybe directly 
after that.
    So I went back to your reports that you guys had given to 
us. The first report back last month, August 18, 2016, page 15. 
Well, on page 15 it says, ``During the summer of 2014, the 
State Department indicated to Cheryl Mills a request for 
Clinton's work-related emails would be forthcoming. State 
Department gives Cheryl Mills a heads-up that she has got to go 
round up all of Secretary Clinton's email. On that same page, 
it says, ``The House Select Committee on Benghazi had reached 
an agreement with the State Department regarding production of 
documents on July 23, 2014,'' just the day before, so I find 
kind of interesting. Then from your report that we got just 
last week, ``After reviewing several documents dated in and 
around July 23, 2014, Paul Combetta had a conversation with 
Cheryl Mills, and after reviewing it July 24,'' there is that 
date again, ``2014 email from Bryan Pagliano, Paul Combetta 
explained Cheryl Mills was concerned Clinton's then-current 
email address would be disclosed publicly.''
    So it sure looks to me like it is Secretary Clinton, as you 
said. But also that it is Cheryl Mills and Bryan Pagliano who 
are urging Mr. Combetta to cover this stuff up. You agree?
    Mr. Comey. From what you read, it sure sounds like they are 
trying to figure out a way to strip out the actual email 
address from what they produce.
    Mr. Jordan. Well, they are actually trying to strip it all 
out, .pst file and everything. Here is the takeaway in my mind. 
Mills gets a heads-up, Cheryl Mills gets a heads-up, in mid-
summer of 2014; July 23, the day before Mr. Combetta's Reddit 
post, the Benghazi and the State Department reach an agreement 
on production of documents. Cheryl Mills has a conversation 
with Paul Combetta. He goes on Reddit then and tries to figure 
out how he can get rid of all this email, even though he is not 
successful then. He has to do it later down the road with 
BleachBit. And then the clincher. The clincher. Just last week, 
he is going online and trying to delete these Reddit posts. He 
is trying to cover up his tracks. He is trying to cover up the 
coverup.
    So I guess the question, as someone was asking earlier, in 
light of all this, are you thinking about reopening the 
investigation?
    Mr. Comey. I may have misunderstood what you said during 
the question. I don't understand that to be talking about 
deleting the emails. I understand it to be talking about 
removing from the ``from'' line the actual email address. And, 
but anyhow, maybe I misunderstood you. But the answer----
    Mr. Jordan. Well, the same guy later BleachBit--took 
BleachBit and did delete emails.
    Mr. Comey. Sure. Yeah.
    Mr. Jordan. So my question is, the guy you gave immunity 
to, the guy who took the Fifth in front of us, is online trying 
to figure out how to remove email addresses, change evidence, 
later uses BleachBit, that guy who won't testify in front of 
Congress, and he has correspondence with Cheryl Mills, Cheryl 
Mills, a subject of the investigation, Cheryl Mills who also 
got some kind of immunity agreement, Cheryl Mills who walked 
out of certain--walked out for part of the questions during the 
interview with the FBI. Seems to me that is pretty compelling, 
and the timelineis pretty compelling as well.
    Mr. Comey. I am not following. Compelling of what? There is 
no doubt that Combetta was involved in deleting emails.
    Mr. Jordan. After conversations with Cheryl Mills.
    Mr. Comey. He had the ``oh s-h-i-t'' moment, as he told us. 
And that is why it was very important for us to interview this 
guy to find out who told you to do that, why did you do that. 
That is why he was given use immunity.
    Mr. Jordan. Did you know about the Reddit posts when you 
interviewed him?
    Mr. Comey. As I said earlier, I think we did. I think our 
investigators did. I am not positive as I sit here.
    Mr. Jordan. Mr. Chairman, I mean, the guy is trying to 
cover up the Reddit posts where he is trying to figure out how 
he can cover up the email addresses. And I find that 
compelling, particularly in light of the fact that just the day 
before, he is talking with Cheryl Mills, and the State 
Department is on notice that the Benghazi Committee wants these 
very documents. I find that compelling. But obviously the FBI 
didn't. And this is just one more, one more, on that list of 
things that make this case highly unusual. I yield back.
    Mr. Goodlatte. The Director is permitted to respond if he 
chooses to do so.
    Mr. Comey. No, I don't think so.
    Mr. Goodlatte. The Chair recognizes the gentleman from 
Florida, Mr. Deutch, for 5 minutes.
    Mr. Deutch. Thank you, Mr. Chairman. Director Comey, the 
FBI is tasked with very serious responsibilities. You are on 
the front lines trying to prevent terrorist attacks. You are 
investigating public corruption. And as I told your agents on a 
recent visit to your Miami field office, I am grateful to you 
and your agents, all of the women and men of the FBI, for your 
dedication to the--and commitment to the pursuit of justice. We 
are most grateful.
    Now, one critical responsibility of the FBI is to 
investigate when American citizens violate Federal laws 
involving improper contacts with foreign governments. And, 
Director Comey, if an American national goes outside government 
channels to negotiate with a foreign government on behalf of 
the United States, that is a very serious crime, one that would 
violate the Logan Act, which, as you know, is the law that 
prohibits unauthorized people from negotiating with foreign 
governments in the place of the United States Government.
    Director Comey, would the FBI take allegations of Logan Act 
violations seriously? Is that within your jurisdiction?
    Mr. Comey. Yes. It is within our jurisdiction.
    Mr. Deutch. And if you had credible evidence that someone 
had violated the Logan Act, would the FBI investigate that 
alleged violation of law?
    Mr. Comey. I think we have done many Logan Act 
investigations over the years. And we certainly will in the 
future.
    Mr. Deutch. And am I correct in assuming that you are 
familiar with publicly quoted comments from various 
intelligence sources that have said that Russia has targeted 
the United States with a legal State-directed hacking?
    Mr. Comey. I am aware of the published reports.
    Mr. Deutch. If an American citizen, Director Comey, 
conducted meetings with a Russian individual who has been 
sanctioned by the United States about potential weakening of 
U.S. sanctions policy in violation of the Logan Act, would the 
FBI investigate?
    Mr. Comey. I don't think it is appropriate to answer that. 
That gets too close to confirming or denying whether we have an 
investigation. Seems too close to real life. So I am not going 
to comment.
    Mr. Deutch. Okay. But there are--you have investigated 
Logan Act violations. It is something that is clearly within 
your jurisdiction.
    I appreciate, Director Comey, your confirming that the FBI 
would treat these potential violations of law both seriously 
and urgently, because everything that I just outlined that you 
said the FBI would investigate has apparently happened already. 
Public reports suggest that the Logan Act may have been 
violated by Carter Page, one of the men Donald Trump signaled 
out as the top foreign policy adviser.
    So now the campaign appears eager to revise Mr. Page's role 
given the attention rightly being given to his illicit 
negotiations with a sanctioned Russian official. I read reports 
from Yahoo News from last week that law enforcement may already 
be looking into this issue. And I assume we all agree that the 
allegations are very serious. Russia, a Nation that hacks 
America, a Nation that continues to enable Assad, the Assad 
regime, to slaughter the Syrian people, a Nation that threatens 
and violates the territorial integrity of its neighbors and our 
European allies.
    It is a dangerous violation of Federal law if Donald 
Trump's adviser, Carter Page, is engaging in freelance 
negotiations with Russia. And here is what we know. In March, 
Donald Trump named Carter Page as a foreign policy adviser. In 
July, Mr. Page traveled to Moscow to give a speech that was 
harshly critical of the United States. And during that trip, 
Mr. Page is reported to have also met with a Russian official 
named Igor Sechin, a member of Vladimir Putin's inner circle 
and the president of the petroleum company, Rosneft, who was 
sanctioned by the United States under executive order 13361, 
prohibiting him from traveling to the United States or 
conducting business with U.S. firms.
    So Mr. Sechin has a clear and personal interest in lifting 
U.S. sanctions against him and other top Russian officials put 
in place by President Obama after Russia's military action in 
Ukraine. Now, if these two men met to discuss sanctions policy, 
or a lifting of sanctions under a potential Trump 
administration, this would be enormously concerning.
    Just last week the press reported that U.S. intelligence 
officials are seeking to determine whether an American 
businessman identified by Donald Trump as one of his foreign 
policy advisers has opened up private communications with 
senior Russian officials, including talks about possible 
lifting of sanctions.
    Mr. Comey, it is illegal if Trump's adviser met with 
Russians who have been sanctioned by the United States about 
lifting these sanctions. And I am grateful for your 
reassurances this morning that the FBI would investigate 
potential violations of the Logan Act by any individual who 
engages in unauthorized negotiations with a foreign government. 
I remind my colleagues that Donald Trump invited Russia to hack 
the United States. I remind my colleagues that Donald Trump 
suggested breaking America's longstanding commitment to our 
NATO allies and weakening U.S. sanctions against Russia. Is 
there a connection between these reckless and dangerous policy 
proposals, and the potential violation of the Logan Act by 
Donald Trump's Russia adviser?
    Mr. Comey, we appreciate very much the FBI's vigilance in 
pursuing justice. And, Mr. Chairman, I yield back.
    Mr. Goodlatte. The gentleman is permitted to respond if you 
choose to.
    So the Chair now recognizes the gentleman from 
Pennsylvania, Mr. Marino, for 5 minutes.
    Mr. Marino. Thank you, Chairman.
    Thank you, Director, for being here. I think we have worked 
on a couple of cases together in our districts.
    Mr. Comey. Yes.
    Mr. Marino. Would you clarify something for me on act-of-
production immunity? Does act-of-production immunity go beyond 
this scenario that I am going to state?
    You ask for a computer from a witness. You give that 
witness act-of-production immunity that, in my interpretation, 
is that the agent who has that now in his or her hands, the 
witness is immune from the agent getting on the stand and 
saying that person--this is that person's computer because they 
gave it to me.
    Does it go beyond that? Or was there additional immunity 
for Ms. Mills stating that anything on that computer cannot be 
used against her?
    Mr. Comey. As I recall it, Congressman, the act-of-
production immunity for Ms. Mills was: You give us this 
computer; we will not use--we, the Justice Department--anything 
we find on the computer directly against you in connection with 
investigation or prosecution for mishandling of classified 
information. I think that is how they defined it.
    Mr. Marino. But that goes beyond act of production. Doesn't 
act of production simply state that I am the agent, I can't get 
on the stand and say that belongs to that individual because 
they simply gave it to me? It sounds like more, additional 
immunity was given that says: And what is on this we cannot 
hold against you.
    Mr. Comey. Well, I think of it as--I still think of it as 
an act-of-production immunity. From my experience, that is what 
I would characterize that agreement.
    And I guess you are right, there could be a more limited 
form of act-of-production immunity which simply says: Your fact 
of giving us this object will not be used against you directly.
    Mr. Marino. Yeah.
    Mr. Comey. I would have to think through whether it can be 
parsed that way. But I think I take your point.
    Mr. Marino. So that is why I am saying additional immunity 
was given. And I don't think it was warranted at that point.
    Let me ask you this. We have both empaneled many grand 
juries, investigative grand juries. Why not empanel an 
investigative grand jury whereby you have reasonable suspicion 
that a crime may have been committed, and then you have the 
ability to get warrants, subpoenas, get this information, 
subpoena witnesses before the grand jury under oath, and if 
they take the Fifth--if it is not the target, if they take the 
Fifth and say, ``I am not going to talk to them,'' you can give 
them, whether it is use immunity--the AG can give them that, 
and you had that authority. And then transactional has to come 
from the judge.
    And if they refuse to testify then, then you can say, fine, 
we are going to take you before a judge, hold you in contempt, 
and then you are going to sit in jail until you answer our 
questions.
    Wouldn't that have been much simpler and more effective 
than the way this has gone about? I know that I have done it 
many, many times. And sometimes we find a situation where there 
isn't enough evidence, and most of the time we find there is 
enough evidence.
    Mr. Comey. Yeah. No, it is a reasonable question. And I 
don't want to talk about grand jury in connection with this 
case or any other case----
    Mr. Marino. That is why I posed it the way I did.
    Mr. Comey. Right. From our training, we know we are never 
supposed to talk about grand jury----
    Mr. Marino. Yes.
    Mr. Comey [continuing]. Publicly, but I can answer more 
generally than that.
    Anytime you are talking about the prospect of subpoenaing a 
computer from a lawyer that involves the lawyer's practice of 
law, you know you are getting into a big megillah.
    Mr. Marino. Okay, please let me interrupt you.
    Mr. Comey. Sure.
    Mr. Marino. I understand that clearly. Why did you not 
decide to go to an investigative grand jury? It would have been 
cleaner, it would have been much simpler, and you would have 
had more authority to make these witnesses testify--not the 
target, but the witness testify.
    That seems the way to go, Director. We have done it 
thousands of times. This just was too convoluted.
    Mr. Comey. Yeah, again, I need to steer clear of talking 
about grand jury use in a particular matter. In general, in my 
experience, you can often do things faster with informal 
agreements, especially when you are interacting with lawyers.
    In this particular investigation, the investigative team 
really wanted to get access to the laptops that were used to 
sort these emails.
    Mr. Marino. Okay. When was----
    Mr. Comey. Those are lawyers' laptops. That is a very 
complicated thing. I think they were able to navigate it pretty 
well to get us access.
    Mr. Marino. The media says that Ms. Clinton repeated--the 
media says--41 times that I do not recall or I do not remember 
or variations of that. Is that a fact or----
    Mr. Comey. I don't know. I have not--I have not counted. I 
have read the 302, obviously.
    Mr. Marino. Wouldn't that have been taken into 
consideration?
    Mr. Comey. I am sorry?
    Mr. Marino. Wouldn't that selective memory be taken into 
consideration?
    Mr. Comey. Sure. The nature and quality of a subject's 
memory is always a factor.
    Mr. Marino. All right. My time has expired. Thank you, sir.
    Mr. Goodlatte. The Chair recognizes the gentlewoman from 
Washington State, Ms. DelBene, for 5 minutes.
    Ms. DelBene. Thank you, Mr. Chair.
    And thank you, Director Comey, for spending all this time 
with us today.
    In 2010, the White House set up the Vulnerabilities 
Equities Process, the VEP, and implemented it in 2014 so it 
could give the government a process for determining whether, 
how, and when to disclose vulnerabilities to technology 
companies so that they would be able to address those 
vulnerabilities and patch them.
    And in a couple situations I know there was disclosure from 
the FBI. In April of this year, the FBI informed Apple of a 
security flaw in older versions of iOS and OS X, its first 
vulnerability disclosure to Apple under the Vulnerabilities 
Equities Process.
    In May of this year, the FBI's Cyber Division warned the 
private sector about a fake USB device charger that can log the 
keystrokes of certain wireless keyboards. And that was 15 
months after the FBI discovered the vulnerability.
    In the warning, the FBI stated, ``If placed strategically 
in an office or other location where individuals might use 
wireless devices, a malicious cyber actor could potentially 
harvest personally identifiable information, intellectual 
property, trade secrets, passwords, or other sensitive 
information.''
    Other instances of the FBI using the VEP are scarce, and, 
indeed, there have been reports that it is rare for the FBI to 
use this process. And so I wanted to, you know, ask you why 
this is and what is your view of the process.
    Mr. Comey. Thank you for that question.
    The process seems to me to be a reasonable process to, in a 
structured fashion, bring everybody who might have an optic on 
this in the government together to talk about how do we think 
about disclosing a particular vulnerability to the private 
sector against the equities that may be at stake in terms of 
national security in particular.
    And so I think it makes sense to have such a process. The 
FBI participates in it when we come across a vulnerability that 
we know the vulnerability and it falls within the VEP's 
jurisdiction.
    I don't know the particulars of the case. You said there 
was a 15-month delay in disclosing a particular vulnerability. 
I don't know enough to react to that. I probably wouldn't react 
in an open forum, in any event. But that is my overall 
reaction.
    Ms. DelBene. And does every vulnerability discovered go 
through this process, in terms of understanding whether or not 
you would disclose?
    Mr. Comey. I think there is a definition of what falls 
under the process. You have to know the vulnerability. So we 
have to have knowledge of, so what is it that allows it, the 
vulnerability, to be exploited. We didn't, for example, in the 
San Bernardino case. We bought access, but we didn't know the 
vulnerability, what was behind it.
    But I forget the definition, as I sit here, of which 
vulnerabilities have to be considered.
    Ms. DelBene. And so is there another process that you might 
use that is different from the VEP when you are looking at----
    Mr. Comey. I don't know of one.
    Ms. DelBene [continuing]. Vulnerabilities and whether or 
not they----
    Mr. Comey. Before the VEP, I know our folks would routinely 
have--make disclosure to private entities, but I don't think 
there is a--I don't know of a process outside of VEP.
    Ms. DelBene. But you are not sure if in every situation the 
VEP is used whenever you discover a vulnerability?
    Mr. Comey. It sounds like a circular answer, but if it is 
a--and, obviously, I didn't read the VEP before coming here 
today. We could get smart on it very quickly and have somebody 
talk to you about it.
    But if it falls under the definition of things that have to 
be discussed at the VEP, of course we do. I just can't remember 
what that definition is exactly.
    Ms. DelBene. Okay. I am trying to understand, if a 
vulnerability is discovered, if there is always a standard 
process that you would go through to understand whether or not 
that information would be disclosed, and if that process is the 
VEP. That is the----
    Mr. Comey. Yeah, that is a great question. I don't know the 
answer to that, whether there is a set of vulnerabilities that 
would fall outside of the VEP process. And if that is the case, 
how do we deal with it? I don't know, sitting here.
    Ms. DelBene. Thanks. If you have other feedback on that, I 
would appreciate it at another time.
    Mr. Comey. Okay.
    Ms. DelBene. In August, you said that stakeholders needed 
to take some time to collect information on the ``going dark'' 
issue and come back afterward to have an adult conversation. 
And I agree with you.
    And so I wondered if you would agree that there is room for 
us to work together on ways to help law enforcement that don't 
include mandating a backdoor?
    Mr. Comey. Totally. I keep reading that I am an advocate of 
backdoors, I want to mandate backdoors. I am not. I have never 
advocated we have to have backdoors. We have to figure out how 
we can solve this problem together. And it has to be everybody 
who cares about it coming together to talk about it.
    I don't know exactly what the answer is, frankly. I can see 
the problem, which I think is my job, is to tell people the 
tools you are counting on us to use to keep you safe, they are 
less and less effective. That is a big problem. But what to do 
and how to do it is a really complicated thing, and I think 
everybody has to participate.
    Ms. DelBene. Thank you. Thank you so much for that.
    And I yield back, Mr. Chair.
    Mr. Goodlatte. The Chair thanks the gentlewoman, recognizes 
the gentleman from South Carolina, Mr. Gowdy, for 5 minutes.
    Mr. Gowdy. Well, thank you, Mr. Chairman.
    I want to start by acknowledging progress. I think it is 
important that we do so. This morning, we have had nine 
straight Democrats talk to the FBI about emails without asking 
for immunity. That is a record.
    And I suspect the reason that they have not asked for 
immunity from Director Comey is they would say they have done 
nothing wrong. I find that interesting, because that is exactly 
what Heather Samuelson and Cheryl Mills' attorneys said. In 
fact, they said it just a few days ago, and I will quote it: 
``The FBI considered my clients to be witnesses and nothing 
more.''
    And then Ms. Mills and Ms. Samuelson's attorneys said this. 
I think this is the most interesting part. ``The Justice 
Department assured us my clients did nothing wrong.''
    Well, Mr. Chairman, if you are assuring subjects or targets 
or witnesses, whatever you want to call them, that they have 
done nothing wrong, it does beg the question, what are you 
seeking and receiving immunity from? I mean, if you have done 
nothing wrong--laptops don't go to the Bureau of Prisons, Mr. 
Chairman; people do. So the immunity was not for the laptop. 
The immunity was for Cheryl Mills.
    And if the Department of Justice says you have done nothing 
wrong, it does beg the question of why you are seeking or 
receiving immunity. And it could be, Mr. Chairman, it could be 
for the classified information that was the genesis of the 
investigation. It could be for the destruction of Federal 
records which came from that initial investigation. Or it could 
be both.
    Mr. Comey, I want to ask you this: Did the Bureau interview 
everyone who originated an email that ultimately went to 
Secretary Clinton that contained classified information?
    Mr. Comey. I don't think so. Nearly everyone, but not 
everyone.
    Mr. Gowdy. Well, you and I had a discussion the last time 
about intent. You and I see the statute differently. My opinion 
doesn't matter; yours does. You are the head of the Bureau. 
But, in my judgment, you read an element into the statute that 
does not appear on the face of the statute. And then we had a 
discussion about intent.
    So why would you not interview the originator of the email 
to, number one, determine whether or not that originator had a 
conversation with the Secretary herself?
    Mr. Comey. There are a handful of people who the team 
decided it wasn't a smart use of resources to track down. One 
was a civilian in Japan, as I recall, who had forwarded 
something that somehow got classified as it went up. And the 
other were a group of low-level State Department people 
deployed around the world who had written things that ended up 
being classified.
    Nearly everyone was interviewed, but there was a small 
group that the team decided it isn't worth the resources.
    Mr. Gowdy. Well, to that extent, if you interviewed the 
overwhelming majority of the originators of the email, will you 
make those 302s available to Congress? Because I counted this 
morning 30-something 302s that we do not have.
    Mr. Comey. Okay. I will go back and check. My goal is 
maximum transparency, consistent with our obligations under the 
law. I will check on that.
    Mr. Gowdy. Well--and I appreciate it, for this reason: 
Intent is awfully hard to prove. Very rarely do defendants 
announce ahead of time, ``I intend to commit this crime on this 
date. Go ahead and check the code section. I am going to do 
it.'' That rarely happens.
    So you have to prove it by circumstantial evidence, such as 
whether or not the person intended to set up an email system 
outside the State Department; such as whether or not the person 
knew or should have known that his or her job involved handling 
classified information; whether or not the person was truthful 
about the use of multiple devices; whether or not the person 
knew that a frequent emailer to her had been hacked; and 
whether she took any remedial steps after being put on notice 
that your email or someone who has been emailing with you 
prolifically had been hacked; and whether or not--and I think 
you would agree with this, Director.
    False exculpatory statements are gold in a courtroom. I 
would rather have a false exculpatory statement than a 
confession. I would rather have someone lie about something and 
it be provable that that is a lie, such as that I neither sent 
nor received classified information; such as that I turned over 
all of my work-related emails. All of that, to me, goes to the 
issue of intent.
    So I got two more questions. Then I am going to be out of 
time.
    For those who may have to prosecute these cases in the 
future, what would she have had to do to warrant your 
recommendation of a prosecution? If all of that was not 
enough--because all of that is what she did. If all of that is 
not enough, I mean, surely you cannot be arguing that you have 
to have an intent to harm the United States to be subject to 
this prosecution. I mean, that is treason. That is not a 
violation of this statute.
    Mr. Comey. No. I think we would have to be able to prove 
beyond a reasonable doubt a general awareness of the 
unlawfulness of your conduct, you knew you were doing something 
you shouldn't do. And then--obviously, that is on the face of 
the statute itself. Then you need to consider, so who else has 
been prosecuted and in what circumstances, because it is all 
about prosecutorial judgment.
    But those two things would be the key questions: Can you 
prove that the person knew they were doing something they 
shouldn't do, a general criminal intent, general mens rea?
    Mr. Gowdy. But the way to prove----
    Mr. Comey. And have you treated other people similarly?
    Mr. Gowdy. The way to prove that is whether or not someone 
took steps to conceal or destroy what they had done. That is 
the best evidence you have that they knew it was wrong, that 
they lied about it.
    Mr. Comey. It is very good evidence. You always want to 
look at what the subject said about their conduct.
    Mr. Gowdy. Well, there is a lot. There is a lot. If you saw 
her initial press conference, it all falls under the heading of 
``false, exculpatory statement.''
    I am out of time, Mr. Chairman, but the Director did--you 
started off by giving us examples of things the Bureau has 
done. And every one of us who has worked with the FBI, that is 
the FBI that I know. The one that went and saved that girl in 
North Carolina, that is the FBI that I know.
    What concerns me, Director, is when you have five immunity 
agreements and no prosecution; when you are allowing witnesses 
who happen to be lawyers, who happen to be targets, to sit in 
on an interview. That is not the FBI that I used to work with.
    So I have been really careful to not criticize you. In 
fact, I said it again this morning. They wanted to know was he 
gotten to, did somebody corrupt him. No, I just disagree with 
you. But it is really important to me that the FBI be 
respected. And you have to help us understand, because it looks 
to me like some things were done differently that I don't 
recall being done back when I used to work with them.
    And, with that, I would yield back to the Chairman.
    Mr. Comey. Can I respond to that?
    Mr. Goodlatte. Yes, you may.
    Mr. Comey. I hope someday when this political craziness is 
over you will look back again on this, because this is the FBI 
you know and love. This was done by pros in the right way. That 
is the part I have no patience for. Sorry, sir.
    Mr. Goodlatte. The Chair recognizes the gentleman from 
Rhode Island, Mr. Cicilline, for 5 minutes.
    Mr. Cicilline. Thank you, Mr. Chairman.
    And thank you, Director Comey, for your extraordinary 
service to our country. And please convey to the professionals 
at the FBI my gratitude for their exemplary service to the 
people of this country. And, particularly, I want to 
acknowledge the extraordinary, prompt, and effective response 
to the recent bombings in New Jersey and New York. It is just 
another example of this extraordinary agency and your 
extraordinary leadership.
    Director Comey, many of us have expressed a concern about 
the growing incidence of gun violence in this country. And we 
expressed condolences and concern of following the recent mass 
shootings in Burlington, Washington, where five people lost 
their lives. We shared the same sentiments after incidents in 
Aurora and Newtown and Charleston. But as more Americans lose 
their lives to senseless gun violence, this Congress has been 
absolutely silent and inactive on this issue.
    So I would like to really turn to you and your career in 
public service, both as a U.S. attorney and now as the FBI 
Director, with so much experience in dealing with the 
consequences of gun violence, and ask you to kind of share with 
us what you think might be some things Congress could do to 
help reduce gun violence in this country.
    If I recall correctly, in 2013, during your confirmation 
hearings, you at least alluded to your support for universal 
background checks, bans on illegal trafficking of guns, assault 
weapons, and high-capacity magazines.
    So I am wondering what you think would be effective for us 
to do to help reduce the incidence of gun violence in this 
country.
    Mr. Comey. Thank you, Congressman.
    And you are exactly right. We just spend a lot of time 
thinking, investigating, and mourning the deaths in mass 
shootings. I think it is really important, though, the Bureau 
not be in the policy business, and be in the enforcement 
business. And so I am going to respectfully avoid your 
question, honestly, because I think we should not be in the 
place of--we should be a factual input to you. We should not be 
suggesting particular laws with respect to guns or anything 
else.
    Mr. Cicilline. So let me ask you, Director, about a very 
specific enforcement challenge.
    I introduced a piece of legislation called the Unlawful Gun 
Buyer Alert Act to get at this issue of a default process. This 
is where people buy a gun, they purchase a gun, but they are 
not permitted to buy one under law, but the 3-day time period 
has elapsed. And, between 2010 and 2014, 15,729 sales to 
prohibited persons occurred. That means people who were not 
lawfully permitted to buy guns got a gun 15,000 times.
    So my legislation would require that when that happens that 
local law enforcement is notified. They can then make a 
decision, should we go prosecute this person who is now in 
possession of a gun illegally, should we, you know, execute a 
search warrant, but they would at least be put on notice, in 
your community, a person who should not have a gun bought one, 
so they can take some action.
    Would that make sense in terms of your enforcement 
responsibilities?
    Mr. Comey. It might. I know ATF is notified in those 
circumstances----
    Mr. Cicilline. Which, of course, is a very different set of 
priorities for ATF; do they go and actually execute a warrant 
and charge somebody. But there are State and local prohibitions 
on that that could be acted upon. So would it also make sense 
to notify local law enforcement?
    Mr. Comey. It might. I would want to think through and ask 
ATF how do they think through the deconfliction issues that 
might arise there, but it is a reasonable think to look at.
    Mr. Cicilline. Now, the second--my next question, Director, 
is: There has been recent discussion about implementing stop-
and-frisk in cities to address crime even at the national 
level. And, although the data shows that this 
disproportionately targets people of color--and just to give 
you some context, in 2011, when stop-and-frisk activity reached 
an all-time high in New York City, police stopped 685,000 
people; 53 percent of those individuals were Black, 34 percent 
were Latino, and 9 percent were White. More than half were ages 
14 to 24 years old. And of the 685,000 people that were stopped 
and frisked, 88 percent were neither arrested nor received any 
sort of citation.
    Do you believe this stop-and-frisk policy is an effective 
tactic to address crime in our Nation's cities? What would a 
Federal implementation look like that Mr. Trump has called for? 
And how can Congress minimize racial profiling and 
discriminatory, ineffective techniques like stop-and-frisk and, 
instead, promote activities that build trust and confidence 
between the police and the community?
    Mr. Comey. I don't know what a Federal program would look 
like, because we are not in the policing business; we are 
investigative agencies at the Federal level. But the Terry 
stop--the ``stop-and-frisk'' is not a term we use in the 
Federal system--the Terry stop, which is the stop of an 
individual based on reasonable suspicion that they are engaged 
in a criminal activity, is a very important law enforcement 
tool.
    To my mind, its effectiveness depends upon the conversation 
after the stop. When it is done well, someone is stopped, then 
they are told, ``I stopped you because we have a report of a 
guy with a gray sweatshirt who matches you. That is why I 
stopped you, sir. I am sorry.'' Or, ``I stopped you because I 
saw you do this behavior.''
    Because the danger is what is an effective law enforcement 
technique can become a source of estrangement for a community, 
and you need the help of the community. So it is an important 
tool when used right, and what makes the difference between 
right and wrong is what is the nature of the conversation with 
the person you stopped.
    Mr. Cicilline. Thank you. Very good.
    Mr. Chairman, I would just like to finally associate myself 
with the remarks with Congressman Deutch regarding the Logan 
Act violations and the remarks of many of my colleagues 
regarding the attempts by the Russians to interfere with our 
democracy and electoral process, and take great comfort in the 
Director's commitment to continue to understand this as an 
important responsibility of the agency to protect the integrity 
of our democracy.
    And, with that, I yield back.
    Mr. Goodlatte. The Chair thanks the gentleman.
    The Chair recognizes the gentleman from Utah, Mr. Chaffetz. 
And as I do, I want to thank him for making, as Chairman of the 
Oversight and Government Reform Committee, this very nice 
hearing room available to us while the Judiciary Committee 
hearing room is under renovation.
    So the gentleman is recognized for 5 minutes, with my 
thanks.
    Mr. Chaffetz. Well, and I appreciate the extra 5 minutes of 
questioning for doing so. So thank you very much.
    Director, thank you for your accessibility. You have been 
very readily available, and we do appreciate that.
    This investigation started because the inspector general 
found classified information in a nonsecure setting and the FBI 
went to a law firm and found this information. They seized at 
least one computer and at least one thumb drive.
    Did you need an immunity agreement to get those?
    Mr. Comey. It was not--I don't think there was--in fact, I 
am certain there was no immunity agreement used in connection 
with that.
    Mr. Chaffetz. So did it really take the FBI a full year to 
figure out that Cheryl Mills and Heather Samuelson also had 
computers with classified information on it?
    Mr. Comey. No. It took us to that point in the 
investigation to insist that we try to get them.
    Mr. Chaffetz. Were you getting them because they had 
classified information or because there was some other 
information you wanted?
    Mr. Comey. No. We thought those were the tools, as we 
understood it, that had been used to sort the emails. And the 
investigative team very much wanted to understand, if they 
could, whether there was an electronic----
    Mr. Chaffetz. Well----
    Mr. Comey [continuing]. Tale of how that had been done. 
Because the big, big issue was what did they delete, what did 
they keep, and----
    Mr. Chaffetz. But why did you need an immunity agreement? 
Why didn't they just cooperate and hand them over? The law firm 
did, didn't they?
    Mr. Comey. Well, yes. That is a question really I can't 
answer. That is between a lawyer and her client and the Justice 
Department lawyers. For whatever reason, her lawyer thought it 
was in her interest to get an act-of-production immunity 
agreement with the Department of Justice.
    Mr. Chaffetz. The FBI interviewed David Kendall's partner 
but did not interview David Kendall. Why didn't you interview 
David Kendall?
    Mr. Comey. I don't remember. I don't remember that 
decision.
    Mr. Chaffetz. Going back to this Reddit post, this was put 
up on July 24 of 2014. You believe this to be associated with 
Mr. Combetta, correct?
    Mr. Comey. Yes, I think that is right.
    Mr. Chaffetz. This is the one that Mr. Jordan put up about 
the need to strip out a ``VIP's (VERY VIP) email address from a 
bunch of archived emails.'' He is referring to a Federal 
record, isn't he?
    Mr. Comey. I don't know exactly which records he is 
referring to.
    Mr. Chaffetz. How is this not a conscious effort to alter 
Federal records? I mean, the proximity to the date is just 
stunning.
    Mr. Comey. I am sorry, what is the question?
    Mr. Chaffetz. How is this not a conscious effort to alter a 
Federal record?
    Mr. Comey. Well, depending upon what the record was and 
exactly what he was trying to do and whether there would be 
disclosure to the people they were producing it to saying, we 
changed this for privacy purposes. I just don't know, sitting 
here.
    Mr. Chaffetz. These are documents that were under subpoena. 
These Federal records were under subpoena. They were under a 
preservation order. Did Mr. Combetta destroy documents?
    Mr. Comey. I don't know whether that was true in July of 
2014, they were under a subpoena.
    Mr. Chaffetz. Did he ultimately destroy Federal records, 
Mr. Combetta?
    Mr. Comey. Oh. I have no reason to believe he destroyed 
Federal records.
    Mr. Chaffetz. He used BleachBit, did he not?
    Mr. Comey. Yeah, the question is what was already produced 
before he used the BleachBit. The reason he wanted immunity was 
he had done the BleachBit business after there was publicity 
about the demand from Congress for the records. That is a 
potential----
    Mr. Chaffetz. And not just publicity. There was a subpoena.
    Mr. Comey. Right. That is potentially----
    Mr. Chaffetz. And there was communication from Cheryl Mills 
that there was a preservation order, correct?
    Mr. Comey. Yes.
    Mr. Chaffetz. And he did indeed use BleachBit on these 
records.
    Mr. Comey. Sure. That is why the guy wouldn't talk to us 
without immunity.
    Mr. Chaffetz. And so when he got immunity, what did you 
learn?
    Mr. Comey. We learned that no one had directed him to do 
that, that he had done it----
    Mr. Chaffetz. You really think that he just did this by 
himself?
    Mr. Comey. I think his account--again, I never 
affirmatively believe anybody except my wife. But the question 
is do I have evidence to disbelieve him, and I don't. His 
account is credible, that he was told to do it in 2014, screwed 
up and didn't do it, panicked when he realized he hadn't, and 
then raced back in and did it after Congress asked for the 
records and The New York Times wrote about them. That was his, 
``Oh, s-h-i-t,'' moment.
    Mr. Chaffetz. But he----
    Mr. Comey. And that was credible. Again, I don't believe 
people, but we did not have evidence to disbelieve that and 
establish someone told him to do that--no email, no phone call, 
nothing.
    The hope was, if he had been told to do that, that would be 
a great piece of evidence; if we give him immunity, maybe he 
will tell us so-and-so told me to, so-and-so asked me to, and 
then we are working up the chain.
    Mr. Chaffetz. But he did indeed destroy Federal records, 
and he was told at some point to do this, correct? Who told him 
to do that initially? When he was supposed to do it in December 
and he didn't do it, who told him to do that?
    Mr. Comey. One of Secretary Clinton's staff members. I 
mean, I can't remember, sitting here. We know that. One of her 
lawyers; it might have been Cheryl Mills. Someone on the team 
said, ``We don't need those emails anymore. Get rid of the 
archived file.''
    Mr. Chaffetz. This is what is unbelievable about this, 
because there is classified information, there is--there are 
Federal records that were indeed destroyed. And that is just 
the fact pattern.
    Here is the other thing that I would draw to your attention 
that is new. September 15 of this year, I issued a subpoena 
from the Oversight and Government Reform Committee on these 
Reddit posts. Four days later, they were destroyed--or taken 
down. They were deleted. I would hope the FBI would take that 
into consideration. Again, we are trying, under a properly 
issued subpoena, to get to this information.
    Let's go to Heather Mills real quick. How does the--in the 
2016 interview with Cheryl Mills, she says, quote, Mills did 
not learn--in the interview report that you--the interview 
summary from the FBI--Mills did not learn Clinton use using a 
private email server until after Clinton's tenure.
    Also, you have this interview with Mr. Pagliano, who said 
he approached--quote, Pagliano then approached Cheryl Mills in 
her office and relayed a State Department employee's concerns 
regarding Federal records retention and the use of a private 
server. Pagliano remembers Mills replying that former 
Secretaries of State had done similar things, to include Colin 
Powell.
    It goes, then, on to a page 10, and this is what I don't 
understand. The FBI writes, Clinton's immediate aides, to 
include Mills, Abedin, Sullivan, and a redacted name, told the 
FBI they were unaware of the existence of a private server 
until after Clinton's tenure at State or when it become public 
knowledge.
    But if you look back at the email from Heather Mills, if 
you go back to 2010--this is to Justin Cooper, okay? Mills to 
Cooper, who does not--he works for Clinton; he doesn't work for 
the State Department. ``FYI, HRC email coming back. Is server 
okay?'' Cooper writes back, ``You are funny. We are on the same 
server.''
    She knew there was a server. When there is a problem with 
Hillary Rodham Clinton's emails, what did they do? She called 
the person who has no background in this, who is not a State 
Department employee, no security clearance, and then tells the 
FBI, ``Well, I never knew about that,'' but there is direct 
evidence that contradicts this.
    How do you come to that conclusion and write that in the 
summary statement, that she had no knowledge of this?
    Mr. Comey. That is a question?
    Mr. Chaffetz. Yes.
    Mr. Goodlatte. The time of the gentleman has expired, but 
the Director will answer the question.
    Mr. Comey. I don't remember exactly, sitting here. All--
having done many investigations myself, there is always 
conflicting recollections of fact, some of which are central, 
some of which are peripheral. I don't remember, sitting here, 
about that one.
    Mr. Goodlatte. The Chair recognizes the gentleman from 
Florida, Mr. DeSantis, for 5 minutes.
    Mr. DeSantis. Director Comey, violent crime is up in this 
country, isn't it?
    Mr. Comey. Our UCR stats we just released show a rise in 
homicide and other violent crime in 2015.
    Mr. DeSantis. Violent crime, I think, was about 4 percent, 
but the homicides were up 10 percent. Is that correct?
    Mr. Comey. Ten-point-eight percent.
    Mr. DeSantis. And that is a pretty startling, concerning 
increase. Do you agree?
    Mr. Comey. Yes. It is concerning.
    Mr. DeSantis. Now, I don't know if you have data in 2016, 
but is your sense that 2016 is going to look closer to 2015, is 
there any indication that the rate is going to go back down?
    Mr. Comey. No. We continue to see spikes in some big cities 
in a way we can't quite make sense of. There is no doubt that 
some 15 to 30 cities are continuing to experience a spike. 
Whether that will drive the whole number up, I don't know.
    Mr. DeSantis. Now, the FBI has now assumed control of the 
Dahir Adan, the Minnesota stabbing terrorist investigation. Is 
that confirmed, that that was a terrorist attack, at this 
point?
    Mr. Comey. We are still working on it. It does look like, 
at least in part, he was motivated by some sort of inspiration 
from radical Islamic groups. Which groups and how we are not 
sure of yet.
    Mr. DeSantis. But he was praising Allah, was asking at 
least one of the potential victims whether they were Muslim, 
and I know ISIS did take responsibility for it, correct?
    Mr. Comey. They claim responsibility. That isn't 
dispositive for us, because they will claim responsibility for 
any savagery they can get their name on. But we are going 
through his entire electronic record and history of all of his 
associations to try and understand that.
    Mr. DeSantis. Now, there was a report from the House 
Homeland Security last year that said that Minnesota was 
actually the number-one source for ISIS fighters in the United 
States. One, do you acknowledge that that--or do you agree that 
that is true? And, if so, why is Minnesota churning out so many 
jihadists?
    Mr. Comey. I don't know for sure whether that is true, but 
it sounds about right. We have very few ISIL fighters from the 
United States, even over the last 2 years.
    There have been a number of Somali-American-heritage young 
men who have gone to fight with Al Shabaab in Somalia and with 
ISIL. I suspect the reason is that is one of the few areas in 
the United States where we have a large concentration that is 
susceptible to that recruiting.
    The great thing about America is everybody is kind of 
dispersed. That is one of the areas where there is an immigrant 
Muslim community that seems to be susceptible for some reason--
in small measure. Again, we are talk about eight people, I 
think the number is. But that is my reaction to that.
    Mr. DeSantis. Well, what is the FBI doing to deal with the 
problem? You have an insular community that may make this 
problem more significant, so how is the FBI combating that?
    Mr. Comey. Oh, in a bunch of difference ways. With lots of 
partners to make sure we know the folks in the--especially the 
Somali-American community in Minneapolis. The U.S. attorney 
there has done a great job of----
    Mr. DeSantis. Have they been helpful with the FBI?
    Mr. Comey. Very. Very. Because they don't want their sons 
or daughters involved in this craziness any more than anybody 
else does.
    Mr. DeSantis. Now, with Paul Combetta, I am just trying to 
figure out what happened here. He never said that he remembered 
anything from that March 25 phone conversation with the Clinton 
people. Of course, that was days before he BleachBit'd the 
emails. He never said he had any factual knowledge of anything 
that happened on that call. Is that his basic statement? As I 
read the 302s, he didn't really provide any information.
    Mr. Comey. I can't remember for sure. It would be in the 
302. You have probably seen it more recently than I have.
    Mr. DeSantis. Well, I saw one 302 said that he pled the 
Fifth. Obviously, he was given immunity. Another said that 
there was an invocation of attorney-client privilege at one 
time in one of the other summaries.
    So I am just trying to figure out, you know, what happened 
with Combetta, why was he not able to provide information. He 
had immunity. This was something that was much more fresh in 
his mind than previous conversations with Clinton people would 
have been. And yet you said he was credible. To me, feigning 
ignorance, that is not credible given the timeline, where you 
have The New York Times saying that this server existed, the 
House immediately sends a subpoena, he has this conversation, 
and then, lo and behold, a few days later, all the emails are 
BleachBit'd.
    Mr. Comey. Well, he told us that, with immunity, that no 
one directed him to do it, instructed him to do it. We 
developed no evidence to contradict that.
    Again, we are never in the business of believing people; 
the question is always what evidence do we have that 
establishes disbelief. We don't have any contrary evidence. His 
account is uncontradicted by hard facts.
    Mr. DeSantis. Well, it is--he is in a situation where he 
has--these things are now under a subpoena, and he has 
conversations with people who they potentially could implicate, 
and then he takes this action. So I guess the question is, is 
it more reasonable to think that he just would have said, ``Oh, 
you know what? I just need to all of a sudden BleachBit this 
stuff,'' without any direction at all? I just find that to be 
something that is difficult to square.
    Let me ask you this. In September, you sent a memo to your 
employees at the FBI basically defending the way the Bureau 
handled this investigation. Why did you send that?
    Mr. Comey. It was about how we were doing transparency, 
because there was all kinds of business about whether we were 
trying to hide stuff by putting it out on a Friday, and I 
wanted to equip our workforce with transparency about how we 
were doing our productions to Congress so they could answer 
questions from their family and friends.
    Mr. DeSantis. But you----
    Mr. Comey. I want them to know we are conducting ourselves 
the way they would want us to.
    Mr. DeSantis. And you have--because you mentioned former 
agents and people in the community. I mean, this has provoked 
some controversy within the ranks of current and former agents?
    Mr. Comey. Not within the FBI. Again, who knows what people 
don't tell the Director, but I should have--I should have asked 
Mr. Gohmert.
    If there are agents in the FBI who are concerned or 
confused about this, please contact me. We will get you the 
transparency you need to see that your brothers and sisters did 
this the way you would want them to.
    Mr. DeSantis. All right. I am out of time, but I will say 
just, when I was in the military--you had said no one would be 
prosecuted. I mean, maybe that was just for civilian, but I can 
tell you that people, if you had compromised Top Secret 
information, there would have been a court marshal in your 
future.
    And I yield back.
    Mr. Goodlatte. Would the Director care to respond to that?
    Mr. Comey. No. Fine.
    Mr. Goodlatte. That is a direct comparison to the finding 
of yourself, that, as you stated in your news conference, that 
no prosecutor would prosecute somebody under similar 
circumstances.
    Mr. Comey. I understood Mr. DeSantis to be expressing a 
personal opinion. I accept that at face value. I just haven't 
seen the cases that show me on the public record that that is 
true. But I accept his good faith.
    Mr. Goodlatte. The Chair recognizes the gentleman from 
Texas, Mr. Ratcliffe, for 5 minutes.
    Mr. Ratcliffe. Thank you, Mr. Chairman.
    Director, did you make the decision not to recommend 
criminal charges relating to classified information before or 
after Hillary Clinton was interviewed by the FBI on July the 
2nd?
    Mr. Comey. After.
    Mr. Ratcliffe. Okay. Then I am going to need your help in 
trying to understand how that is possible. I think there are a 
lot of prosecutors or former prosecutors that are shaking our 
heads at how that could be the case.
    Because if there was ever any real possibility that Hillary 
Clinton might be charged for something that she admitted to on 
July the 2nd, why would two of the central witnesses in a 
potential prosecution against her be allowed to sit in the same 
room to hear the testimony?
    And I have heard your earlier answers to that. You said 
that, well, it was because the interview was voluntary and they 
were her lawyers. But I think you are skirting the real issue 
there, Director.
    First of all, the fact that it was voluntary, it didn't 
have to be, right? You could have empaneled an investigative 
grand jury, she could have been subpoenaed. And I know you have 
said that you can't comment on that, and I don't really care 
about the decision about whether or not there should have been 
a grand jury here, but since you didn't have one, it goes to 
the issue at hand about whether or not this interview should 
have ever taken place.
    With due respect to the answers that you have given, the 
FBI and the Department of Justice absolutely control whether or 
not an interview is going to take place with other witnesses in 
the room. Because the simple truth is that under the 
circumstances as you have described those interviews never take 
place. If there was ever any possibility that something Hillary 
Clinton might have said on July 2 could have possibly resulted 
in criminal charges that might possibly have resulted in a 
trial against her relating to this classified information, 
well, then, to use your words, Director, I don't think that 
there is any reasonable prosecutor out there who would have 
allowed two immunized witnesses central to the prosecution 
proving the case against her to sit in the room with the 
interview, the FBI interview, of the subject of that 
investigation.
    And if I heard you earlier today, in your long career, I 
heard you say that you have never had that circumstance. Is 
that--did I hear you correctly?
    Mr. Comey. That is correct, but----
    Mr. Ratcliffe. Okay. And I never have either, and I have 
never met a prosecutor that has ever had that.
    So, to me, the only way that an interview takes place with 
the two central witnesses and the subject of the investigation 
is if the decision has already been made that all three people 
in that room are not going to be charged.
    Mr. Comey. Can I respond?
    Mr. Ratcliffe. Yes. Please.
    Mr. Comey. I know in our political lives sometimes people 
casually accuse each other of being dishonest, but if 
colleagues of ours believe I am lying about when I made this 
decision, please urge them to contact me privately so we can 
have a conversation about this.
    All I can do is to tell you again, the decision was made 
after that, because I didn't know what was going to happen in 
that interview. She would maybe lie during the interview in a 
way we could prove--let me finish.
    I would also urge you to tell me what tools we have as 
prosecutors and investigators to kick out of an interview 
someone that the subject says is their lawyer.
    Mr. Ratcliffe. That is not my point. The interview never 
should have taken place if you were going to allow the central 
witnesses that you needed to prove the case to sit there and 
listen to the testimony that the subject was going to give. It 
never happens. It has never happened to you, and it has never 
happened to me or any other prosecutor that I have met.
    And you know you have defended the people that were 
involved in this of being great, but if it has never happened, 
I wonder why this is a case of first precedent with respect to 
that practice that you and I have never seen in our careers.
    Mr. Comey. You and I don't control the universe of what has 
happened. I suspect it is very unusual.
    A key fact, though, that maybe is leading to some confusion 
here is we had already concluded we didn't have a prosecutable 
case against Heather Samuelson or Cheryl Mills at that point. 
If they were targets of our investigation, maybe we would have 
canceled the interview, but, frankly, our focus was on the 
subject. The subject at that point was Hillary Clinton.
    Mr. Ratcliffe. All right. Let me move on.
    According to the FBI's own documents, Paul Combetta, in his 
first interview on February the 18th told FBI agents that he 
had no knowledge about the preservation order for the Clinton 
emails, correct?
    Mr. Comey. I don't know the dates of that, but I am sure it 
is in the 302.
    Mr. Ratcliffe. Okay.
    But then 2\1/2\ months later, on May the 3rd, his second 
interview, he made a 180-degree turn, and he admitted that, in 
fact, he was aware of the preservation order and he was aware 
of the fact that that meant that he shouldn't disturb the 
Clinton emails, correct?
    Mr. Comey. Yep.
    Mr. Ratcliffe. Okay. Well, then I need your help again 
here, because when I was at the Department of Justice, your 
reward for lying to Federal agents was an 18 U.S.C. 1001 charge 
or potential obstruction-of-justice charge; it wasn't immunity.
    Mr. Comey. Depends on where you are trying to go with the 
investigation. If it is a low-level guy and you are trying move 
up in the chain, you might think about it differently.
    Mr. Ratcliffe. But he lied to an FBI agent. You don't think 
that is important?
    Mr. Comey. Oh, it is very important. It happens all the 
time, unfortunately. It is very, very important. Sometimes you 
prosecute that person and end their cooperation; sometimes you 
try and sign them up.
    Mr. Ratcliffe. But if they lie to an FBI agent after they 
are given immunity, they have violated the terms of their 
immunity agreement.
    Mr. Comey. Oh, sure, after, after the agreement.
    Mr. Ratcliffe. And so that is my point. He shouldn't have 
immunity anymore.
    Mr. Comey. Oh, I am sorry. I may have misunderstood you. He 
lied to us before he came clean under the immunity agreement 
and admitted that he had deleted the emails.
    Mr. Ratcliffe. No, not according to the FBI's documents. He 
had the immunity agreement in December of 2015. These 
interviews took place in February and March and May of this 
year, 2016.
    Mr. Comey. Combetta?
    Mr. Ratcliffe. Combetta.
    Mr. Comey. Okay. Then I am--then I am confused and 
misremembering, but I don't think that is right.
    Mr. Ratcliffe. Okay. Well, let me--my time has expired, but 
I have one last question, and I think that it is important.
    At this point, based on everything, do you think that any 
laws were broken by Hillary Clinton or her lawyers?
    Mr. Comey. Do I think that any laws were broken?
    Mr. Ratcliffe. Yeah.
    Mr. Comey. I don't think there is evidence to establish 
that.
    Mr. Ratcliffe. Okay. Well, I think you are making my point 
when you say there is no evidence to establish that. Maybe not 
in the way she handled classified information, but with respect 
to obstruction of justice--and you have a pen here--I just want 
to make the sure the record is clear about the evidence that 
you didn't have, that you can't use to prove. So this comes 
from the FBI's own report.
    It says that the FBI didn't have the Clintons' personal 
Apple server used for Hillary Clinton work emails. That was 
never located, so the FBI could never examine it. An Apple 
MacBook laptop and thumb drive that contained Hillary Clinton's 
email archives was lost, so the FBI never examined that. Two 
BlackBerry devices provided to the FBI didn't have SIM cards or 
SD data cards. Thirteen Hillary Clinton personal mobile devices 
were lost, discarded, or destroyed with a hammer, so the FBI 
clearly didn't examine those. Various server backups were 
deleted over time, so the FBI didn't examine that.
    After the State Department and my colleague Mr. Gowdy here 
notified Ms. Clinton that her records would be sought by the 
Benghazi Committee, copies of her emails on the laptops of both 
of her lawyers, Cheryl Mills and Heather Samuelson, were wiped 
clean with BleachBit, so the FBI didn't review that. After 
those emails were subpoenaed, Hillary Clinton's email archive 
was also permanently deleted from the Platte River Network with 
BleachBit, so the FBI didn't review that. And also after the 
subpoena, backups of the Platte River server were manually 
deleted.
    Now, Director, hopefully that list is substantially 
accurate, because it comes from your own documents. My question 
to you is this: Any one of those in that very, very long list, 
to me, says obstruction of justice. Collectively, they scream 
obstruction of justice. And to ignore them, I think, really 
allows not just reasonable prosecutors but reasonable people to 
believe that maybe the decision on this was made a long time 
ago not to prosecute Hillary Clinton.
    And, with that, I yield back.
    Mr. Goodlatte. Director, do you care to respond?
    Mr. Comey. Just very briefly. To ignore that which we don't 
have--we are in a fact-based world, so we make evaluations 
based on the evidence we are able to gather using the tools 
that we have. So it is hard for me to react to these things 
that you don't have. So that is my--that is my reaction to it.
    Mr. Goodlatte. The Chair recognizes the gentleman from 
Texas, Mr. Farenthold, for 5 minutes.
    Mr. Farenthold. Thank you very much.
    Director Comey, thank you for being here. I know this is--
there are a lot of things you would probably much rather be 
doing than sitting on the hot seat, so to speak.
    And here is where I am coming from on this. You have been 
asked a lot of questions today about the Clinton investigation. 
And what I am hearing from folks back in Texas--and I am just 
going to take a big-picture view of this--is this stuff just 
simply doesn't pass the smell test on a lot of areas.
    You just had my colleague from Texas, Mr. Ratcliffe, list a 
long list of things that you all didn't have in the 
investigation. You have been asked earlier today, well, you 
know, would you reopen the investigation, what would it take to 
get you to reopen the investigation.
    We have had five people given immunity, which, basically, 
we got nothing, when, you know, perhaps a plea agreement or 
something else might have worked. You have your interpretation 
in your previous testimony before Congress that section 793(f) 
required intent, when, in fact, the standard is gross 
negligence.
    And it is just a long list of things that just have people 
scratching their heads, going, ``If this were to happen to me, 
I would be in a world of hurt, probably in jail.'' And how do 
you respond to people who are saying that this is not how an 
average American would be treated, this is only how Hillary 
Clinton would be treated?
    Mr. Comey. Yeah. Look, I have heard that a lot, and my 
response is: Demand--when people tell you that, that others 
have been treated differently, demand from a trustworthy source 
the details of those cases. Because I am a very aggressive 
investigator, I was a very aggressive prosecutor. I have gone 
back through 40 years of cases, and I am telling you under oath 
that to prosecute on these facts would be a double standard, 
because Jane and Joe Smith would not be prosecuted on these 
facts.
    Now, you would be in trouble. That is the other thing I 
have had to explain to the FBI workforce. You use an 
unclassified email system to do our business, and in the course 
of doing our business--talk about classified topics--you will 
be in big trouble at the FBI, I am highly confident of that. I 
am also highly confident, in fact certain, you would not be 
prosecuted. That is what folks tend to lump together.
    So I care deeply about what people think about the justice 
system and that it not have two standards. It does not, and 
this demonstrates it.
    Mr. Farenthold. But you look at General Petraeus and his 
handling of classified information. You look at--and I will go 
back to what you are saying----
    Mr. Comey. But when you look at it, demand to know the 
facts. I don't want to dump on General Petraeus because the 
case is over, but I would be happy to go through how very 
different that circumstance is than this circumstance.
    Mr. Farenthold. And you talk about you tell your FBI 
agents, if you do what we are investigating here with material 
from the FBI, you would be in a world of trouble. I would 
assume that could potentially be fired.
    Is Hillary Clinton in--she didn't get in any trouble at the 
State Department. The only trouble she has got now is trying to 
explain it to the American people.
    Mr. Comey. Right. She is not a government employee, so the 
normal range of discipline that would be applied to FBI 
employees if they did do something similar doesn't apply. And I 
gather--I think that is some of the reason for people's 
confusion, lumping these two together, and their frustration, 
but it is what it is.
    And all I can tell people is: Demand the facts. When people 
tell you, oh, so-and-so has been treated differently, demand 
the facts on that.
    Mr. Farenthold. All right. Let's just do a hypothetical. 
Let's say somebody here in Congress were to email my personal 
email some classified information, and I am on my--I get it on 
my phone. It comes to my cell phone too. My personal email 
comes to my personal cell phone. I look at it and go, ``Wow, 
that probably shouldn't be on there,'' and don't do anything.
    I mean, to me, that is being grossly negligent with 
classified information, and I should--and that is a violation 
of 793(f). And that is exactly what Hillary Clinton did, I 
think.
    I mean, at what point do you get to intent? The classified 
information was on an unsecured server, you knew it was there, 
and you didn't do anything about it. To me, that is gross 
negligence, period. I would think I would be prosecuted for 
that.
    Mr. Comey. Yeah. I am confident that you wouldn't. But we 
just have to agree to disagree.
    Mr. Farenthold. All right. If I ever get in trouble----
    Mr. Comey. Don't do it.
    Mr. Farenthold.--I am going to save this clip.
    Mr. Comey. Don't do it. I guess I can't control Congress. 
If you work for us, don't do it.
    Mr. Farenthold. No, I have absolutely no intention of doing 
it.
    So, again, I just want to say, don't get frustrated when we 
continue to ask these questions. Because we are not badgering 
you because we want to badger you; we are talking to you 
because the American people are upset about this and don't 
think it was handled appropriately. And that is the basis, at 
least, of my questioning. And I thank you for appearing here.
    Mr. Comey. And I totally understand that, that I think 
there are lots of questions people have, which is why I have 
worked so hard to try and be transparent. There has never been 
this kind of transparency in a criminal case ever, but because 
I understand the questions and the importance of it, I have 
tried.
    But I hope people will separate two things: questions about 
facts and judgment, from questions and accusations about 
integrity. As I said before, you can call us wrong, you can 
call me a fool. You cannot call us weasels. Okay? That is just 
not fair.
    And I hope we haven't gotten to a place in American public 
life where everything has to be torn down on an integrity basis 
just to disagree. You can disagree with this. There is just not 
a fair basis for saying that we did it in any way that wasn't 
honest and independent. That is when I get a little worked up. 
Sorry.
    Mr. Farenthold. I am out of time. I----
    Mr. Goodlatte. The Chair recognizes the gentleman from 
Michigan, Mr. Bishop, for 5 minutes.
    Mr. Bishop. Thank you.
    Thank you, Director Comey, and I appreciate your testimony 
here today.
    Just in followup to all this discussion regarding the 
Clinton investigation, specifically with regard to the 
interview of Secretary Clinton, I am holding in my hand a 
memorandum from Deputy Attorney General James Cole. It is dated 
May 12, 2014. This memorandum was issued to you and others on 
the policy concerning electronic recording of statements.
    Are you familiar with this memorandum?
    Mr. Comey. Yes. Uh-huh.
    Mr. Bishop. The policy establishes a presumption that the 
FBI will electronically record statements made by individuals 
in their custody. Now, I know that Secretary Clinton was not 
technically in custody, but the policy also encourages agents 
and prosecutors to consider electronic recording in 
investigative or other circumstances where that presumption 
does not exist.
    The policy also encourages agents and prosecutors to 
consult with each other in such circumstances. And given the 
magnitude of what we have been talking about today and the huge 
public interest and demand for information with regard to the 
public trust, I think this is specifically important to this 
discussion.
    Now, you are aware of this policy, correct?
    Mr. Comey. Right, that applies to people that are in 
handcuffs.
    Mr. Bishop. But not--it also applies to--the policy also 
encourages agents and prosecutors to consider electronic 
recording in investigative matter--in other matters where that 
presumption does not exist, does----
    Mr. Comey. Sure.
    Mr. Bishop [continuing]. It not?
    Mr. Comey. The FBI doesn't do it, but, sure, I understand 
that they encouraged us to talk about it.
    Mr. Bishop. So the agents, then, did not consider to 
conduct the interview in a recorded situation then?
    Mr. Comey. We do not record noncustodial interviews. Now, 
maybe someday folks will urge us to change that policy, but we 
don't. And we sure wouldn't want to change it in one particular 
case.
    Mr. Bishop. Well, that is the policy. I am just reading the 
policy that is issued by the Deputy Attorney General, James 
Cole, that--it was to you and to others in the Department of 
Justice--that establishes the policy. So if you don't do it, I 
assume that you are doing it against the policy of the 
Department of Justice.
    Mr. Comey. No. That policy only governs custodial 
interrogations, so people who have been locked up. We do not--
and it is not inconsistent with Department of Justice policy--
record noncustodial, that is, voluntary interviews, where 
someone is not in our custody.
    Mr. Bishop. Well, I am reading this differently then, 
because it does say that there is an exception, that it is 
within your discretion to record such----
    Mr. Comey. Well, sure, you could. And I don't know, maybe 
some other Federal investigative agencies do. The FBI's 
practice is we do not record noncustodial interviews.
    Mr. Bishop. Okay. Thank you, Director.
    I want to pivot, if I can, and build off Representative 
DeSantis' questions with regard to the refugees attempting to 
enter the United States and specifically with regard to Syrian 
refugees.
    I am wondering if you can tell me--we have talked about 
this process and the fact that we do not have a process in 
place that we can rely upon. You have indicated before when you 
testified and I asked the question that we just simply don't 
have enough information to ensure that we have the information 
that we need to ensure that these people are not a threat to 
our country.
    Can you expand upon that now after a year? Can you tell me 
whether or not we have more information, more capabilities to 
vet these refugees?
    And I say this because, in my district in Michigan, in this 
fiscal year, Michigan has taken the fourth most refugees of all 
States, 4,178. And we are the--we have taken the third most for 
Iraq, the second most from Syria. Michigan has absorbed an 
enormous number of refugees, and I think you can understand our 
concern with regard to the fact that we don't have information 
necessary to identify whether or not they are a threat.
    Can you assuage my concern and the concerns of my 
constituents that we have a system in place that we can vet 
these individuals and they don't pose a threat to our country?
    Mr. Comey. I can assuage in part and restate my concern in 
part.
    Our process inside the United States Government has gotten 
much better at making sure we touch all possible sources of 
information about a refugee. The interview process has gotten 
more robust. So we have gotten our act together in that 
respect.
    The challenge remains, especially with respect to folks 
coming from Syria, we are unlikely to have anything in our 
holdings. That is, with people coming from Iraq, the United 
States Government was there for a very long period of time, we 
had biometrics, we had source information. We are unlikely to 
have that kind of picture about someone coming from Syria, and 
that is the piece I just wanted folks to be aware of.
    Mr. Bishop. Has anything changed in your vetting process? 
Have you updated it? Do you have any concerns with an increased 
terrorist activity in the last 6 months, including New York, 
New Jersey, and Minneapolis.
    Has anything changed in the vetting process? Can you be 
confident that foreign fighters or other refugees entering the 
country are not planning future attacks on our country?
    Mr. Comey. Well, as I said, over the last year, since I was 
last before you, the vetting process has gotten more effective 
in the ways I described.
    I am in the business where I can't ever say there is no 
risk associated with someone. So we wake up every day, in the 
FBI, worrying about who might have gotten through in any form 
or fashion into the United States or who might be getting 
inspired while they are here. So I can't ever give a blanket 
assurance.
    Mr. Bishop. Director, I respect your opinion. And this is 
not a policy question. I am asking you based on your personal 
opinion as a law enforcement officer that we rely upon to keep 
this country safe. Is there anything that you would do to 
ensure, as you said, that our country is safe with regard to 
this refugee process?
    Mr. Comey. Anything that I would do?
    Mr. Bishop. Anything that you would do, any recommendations 
you have for Congress, for this country, that would ensure our 
safety?
    Mr. Comey. Yeah, I shy away from assurances of safety, 
given the nature of the threats we face. I do think that there 
may be opportunities to do more in the social media space, with 
refugees in particular. And I talked to Jeh Johnson yesterday 
about it. I know this is a work in progress.
    So much of people's lives, even if we don't have it in our 
holdings, may be in digital dust that they have left in 
different places. Are we harvesting that dust on people who 
want to come into this country in the best way? And I think 
there may be ground for improvement there.
    Mr. Bishop. Thank you, Director.
    And I will yield back. But, Mr. Chairman, I would ask 
unanimous consent to enter the memorandum that I referenced 
earlier dated May 12, 2014, into the record.
    Mr. Goodlatte. Without objection, it will be made a part of 
the record.
    [The information referred to follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]  
                               __________
                               
    Mr. Goodlatte. The Chair recognizes the gentleman from 
Georgia, Mr. Collins, for 5 minutes.
    Mr. Collins. Thank you, Mr. Chairman.
    Director Comey, I appreciate you being here. You are, I 
believe, forthright, much more so than, you said, in any other 
criminal case we have had. But I am also still in the military. 
I am still in the Air Force Reserve. I went to my drill back in 
July. I was hit by an amazing amount of questions from 
different servicemembers on this issue of how does the former 
Secretary of State get to do this and yet we have members of 
the military who are prosecuted all the time.
    Your statements earlier were fairly startling when you 
said, I don't know of anybody else that has been classified as 
this. Just since 2009, Department of Justice has prosecuted at 
least seven people under the Espionage Act, all for very 
similar cases.
    Now, you said go look at the facts. Well, we are looking at 
the facts in these cases. The interesting one--and, you know, 
you said that, in looking back at your investigation, 
mishandling or removal of classified information, we cannot 
find a case that would support bringing criminal charges on 
these facts. All right. Well, it didn't take nothing but a 
simple legal search to find a Marine that fall in it. Now, I 
guess their name is not Jane or Joe, so they did get 
prosecuted. Okay?
    And this is the issue under 18 U.S.C. 793(f), gross 
negligence. This is what the Marine did. They took classified 
information that was put into a gym bag, cleaned out, washed, 
and took. All right? Simple mishandling. The court of appeals 
actually upheld this case, and this is what they said, that the 
purpose of Federal espionage statutes is to protect classified 
documents from unauthorized procedures, such as removal from 
proper place of custody, which would mean how you deal with 
this. Regardless of means of removal, it was apparent gross 
negligence and was a proximate cause of the document's removal.
    United States v. McGinnis, said it is clear the Congress' 
intent is to create a hierarchy of defenses against national 
security, ranging from classic spying to merely losing 
classified materials through gross negligence or the 
mishandling of.
    It was sort of also ironic for me that when I had to go 
back in July and this past month when I went back, I had to do 
my annual information assurance training. They went through 
everything that we have to do with handling classified 
information. I had been in a war zone, I have been in--this is 
just common knowledge among most everybody in the world. 
Obviously not to the Secretary.
    How can you then explain to me this Marine's mistake in 
taking classified documents or mishandling them is more severe 
than the Secretary of State, who sent and received classified 
emails on a regular basis, including those that were originally 
classified, not those that were classified later but were 
originally classified?
    Mr. Comey. I am familiar with the case, and I am quite 
certain it is not a 793(f) case. It was prosecuted----
    Mr. Collins. His conviction was under 793(f).
    Mr. Comey. Yeah, I don't think--I mean, I will go back and 
check again. I would urge you to too. I am pretty sure it is 
not under the gross negligence prong of 793(f). But it is a 
Uniform Court of Military Justice prosecution, not by the 
Department of Justice. Am I remembering correctly?
    Mr. Collins. This was from and is appealed out in the U.S. 
Court of Appeals for the Armed Forces of the United States.
    Mr. Comey. Okay. But, regardless, I think even--I don't 
think this is under the same provision, but even there, that is 
a case involving someone who actually stole classified 
information, hard copies.
    What people need to remember--and I don't say this to make 
little of it. I think it is a very serious matter. What 
happened here is the Secretary used an unclassified email 
system, her personal system, to conduct her business.
    Mr. Collins. And let's just stop right there. That, in and 
of itself--and I understand it's an uncomfortable--we have been 
through a lot--you have been through a lot of questions. I 
apologize. But let's just come back to the basics here.
    We are trying to parse that I didn't have such as Sandy 
Berger or all these others who have been prosecuted, they took 
a hard copy. In today's society, and even understanding if you 
go through any information assurance class, anything else, they 
tell you it cannot be on a personal laptop. In fact, there was 
another chief petty officer who had classified information on a 
personal computer. It went back and forth to a war zone. That 
is not physical documents.
    It's on a--to parse words like that is why the American 
people are fed up. They are fed up with the IRS Commissioner 
when he does it. They are fed up here. I am not attacking 
your--I think you are one of the more upright people I met. I 
think you just blew it. I think the Attorney General blew it. I 
shared this with her.
    And I think when we come to this thing, there is no other 
way that you can say that there is no others that resemble 
this. As a lawyer, you are taught all the time to take facts 
and put them--they might not be exact, but they fit under the 
law. You can't--I mean, so I guess maybe I am going to change 
the question, because we are going to go down a dead end. You 
are going to say it wasn't and----
    Mr. Comey. Congressman, can I respond----
    Mr. Collins. So let me ask you this. I want to change 
questions.
    Do you honestly believe that a lady, a woman of vast 
intelligence, who was the First Lady of the United States, who 
was a Senator who had access to classified information all of 
the Members here do, who was Secretary of State who had even 
further classification ability even beyond what we have here, 
do you believe that in this case, honestly, she was not grossly 
negligent or criminal in her acts?
    Mr. Comey. First of all, I don't believe anyone other than 
my wife. My question is what evidence do I have to establish 
that state of mind. And I don't believe I have evidence to 
establish it beyond a reasonable doubt.
    Mr. Collins. Then, really, what we are saying here is this, 
is she is--this is in essence what you are saying. You said I 
can't prove it, and I understand. There are a lot of out folks 
out there in the law that, you know, they come to us all the 
time. I am an attorney as well. And they come to us and say, it 
is not what we know, it is not what we think, it is what we can 
prove. I get it.
    But here is the problem with this. And this is the person 
who is asking to lead this country. If she can hide behind this 
and blatantly get approval from the FBI through an 
investigation, which has been covered here thoroughly, then I 
just do not understand. She is either the most arrogant, which 
probably so, or the most insanely naive person we have ever 
met.
    Because when I actually show evidences of basically the 
same thing, which you can take fact and correlate to law, this 
is why the Armed Forces right now have the new term called the 
Clinton defense. ``I didn't know. I didn't mean to.'' It is the 
Clinton defense.
    With questions like this, Director, we have given the 
ability now to where nobody takes this seriously. And this is 
why people are upset. When it was originally classified, she 
can tell all the stories she wants. She can have the backup 
from you that no prosecutor--which is, again, amazing to me, 
that a law enforcement would tell the prosecutor--because how 
many times I have been on both sides of this where the law 
enforcement agent says I am not sure we have a case here, but 
when the prosecutor looks at it, the prosecutor says, yeah, 
there is a case here.
    I don't really, frankly--no offense--care what--if I am 
prosecuting, what the law enforcement officer--if I can see the 
case and I can make it, that is my job, not yours. And yet now 
we have a whole system that has been turned upsidedown, not 
because I don't believe your honesty of your people, but I 
believe you blew it because you, frankly, didn't have the whole 
situation into effect where the FBI would look political.
    And, unfortunately, that is all you have become in this. 
And it is a sad thing. Because you all do great work, you have 
done great work, and you will do great work. But I think it is 
time to start--we just bring down the curtain. There is a 
wizard behind the thing, Ms. Hillary Clinton, who is playing 
all of us. Because she is not that naive. She is not stupid. 
She knew what she was doing, because she was simply too bored. 
If she, God forbid, gets into 1600 Pennsylvania Avenue and just 
gets bored with the process, then God help us all.
    Mr. Chairman, I yield back.
    Mr. Comey. Mr. Chairman, there are only two----
    Mr. Goodlatte. The Director is permitted to respond.
    Mr. Comey. Yeah, two pieces of that I need to respond to.
    First, you said hiding behind something. This case was 
investigated by a group of professionals. So if I blew it, they 
blew it too. Career FBI agents, the very best we have, were put 
on this case, and career analysts. We are a team. No one hid 
behind anything.
    American citizens should insist that we bring criminal 
charges if we are able to investigate and produce evidence 
beyond reasonable doubt to charge somebody. That should be true 
whether you are investigating me or you or Joe Smith on the 
street. That is the way this case was done. It is about 
evidence.
    And the rest of it I will let go.
    Mr. Collins. Mr. Chairman, I will--and I apologize--I am 
not--this is the problem, though. When you take it as a whole--
it has been said up here this is a unique case. You talk about 
it being a unique case. Director, this is a unique because I 
truly--and I don't think you convince hardly anybody except 
your own group that--I don't think you ever said they couldn't 
blow it. They blew it. Anybody else would have been prosecuted 
under this, in my humble opinion.
    Mr. Comey. You are just wrong.
    Mr. Collins. You say no.
    Mr. Comey. You are just wrong. We will just have to agree 
to disagree.
    Mr. Collins. Well, unfortunately, there is a lot to 
disagree on this.
    Thank you, Mr. Chairman.
    Mr. Goodlatte. The time of the gentleman has expired.
    The gentleman from Idaho, Mr. Labrador, is recognized for 5 
minutes.
    Mr. Labrador. Thank you, Mr. Chairman.
    And, Director Comey, I have always appreciated your 
testimony before this Committee, and I respect the work that 
you do for the FBI.
    When you made your recommendations to the Department of 
Justice to not prosecute Hillary Clinton, I actually disagreed 
with your decision, but I appreciated your candor in explaining 
to the American people and to us those recommendations.
    Since that decision, I continue to view you as honorable 
and a strong leader for the critical Federal agency. In fact, I 
did 20 townhall meetings over the recess, and I was lambasted 
at every one of them, in fact I think I lost votes, because I 
defended your integrity at every one of those townhall meetings 
and I told them why, even though I disagreed with your 
conclusions, I thought you came to it from an honorable place.
    However, as more information has come to light, I question 
the thoroughness--and I am not questioning your integrity, but 
the thoroughness and the scope of the FBI's investigation.
    In the past week, we have learned of the grants of immunity 
to several key witnesses in the Clinton investigation, 
including Hillary Clinton's former chief of staff and one of 
the individuals responsible for setting up her server.
    I am really disappointed by this revelation and confused as 
to why these immunity grants were necessary and appropriate, 
given the circumstances. It appears to me that the FBI was, 
very early in this investigation, too willing to strike deals 
and ensure that top officials could never be prosecuted for 
their role in what we now know was a massive breach of national 
security protocol.
    We have a duty to ensure that our FBI is still in the 
business of investigating criminal activity. So at what point 
in the investigation was Cheryl Mills offered immunity?
    Mr. Comey. Cheryl Mills was never offered immunity. Not to 
quibble, but she was given letter immunity to govern----
    Mr. Labrador. At what point?
    Mr. Comey. June of 2016. So June of this year. So about 11 
months into the investigation.
    Mr. Labrador. So, and to be clear, was she offered immunity 
for interview and potential testimony or for turning over the 
laptop as evidence?
    Mr. Comey. Turning over the laptop as evidence. It governed 
what could be done in terms of using it against her, that 
laptop.
    Mr. Labrador. To your knowledge, was Cheryl Mills an 
uncooperative witness prior to the immunity deal?
    Mr. Comey. I think our assessment was she was cooperative. 
I forget the month she was interviewed, but she was interviewed 
fully before that.
    Mr. Labrador. And she always cooperated?
    Mr. Comey. I think our assessment was--again, this is the 
odd way I look at the world--we had no reason to believe she 
was being uncooperative.
    Mr. Labrador. So could this investigation have been 
completed without these grants of immunity in place?
    Mr. Comey. In my view, it couldn't be concluded 
professionally without doing our best to figure out what was on 
those laptops. So getting the laptops was very important to me 
and to the investigative team.
    Mr. Labrador. So in your vast experience as an 
investigator, as a DOJ attorney, now as an FBI Director, how 
many times have you allowed a person who is a material witness 
to a crime you are investigating to act as the lawyer in that 
same investigation?
    Mr. Comey. Well, ``to let'' is what I am stumbling on. The 
FBI has no power to stop someone in a voluntary----
    Mr. Labrador. No, no, no, no. You are speaking--let's just 
be honest. You allowed, the FBI allowed Cheryl Mills to act as 
the attorney in a case that she was a material witness. How 
many times have you----
    Mr. Comey. In the same sense that I am ``allowing'' you to 
question me----
    Mr. Labrador. How many times have you----
    Mr. Comey.--I can't stop you from questioning me.
    Mr. Labrador. How many times have you done that prior?
    Mr. Comey. I have not had an experience where the subject 
of the interview was represented by a lawyer who was also a 
witness in the investigation.
    Mr. Labrador. Okay. So you have never had that experience.
    Mr. Comey. Not in my experience.
    Mr. Labrador. You prosecuted terrorists and mobsters, 
right?
    Mr. Comey. Correct.
    Mr. Labrador. And during your time in Justice, how many 
times did you allow a lawyer who was a material witness to the 
case that you were prosecuting to also act as the subject of--
as the attorney to the subject of that investigation?
    Mr. Comey. As I said, I don't think I have encountered this 
situation where a witness--a lawyer for the subject of the 
investigation was also a witness to the investigation. I 
don't----
    Mr. Labrador. So this was highly unusual, to have----
    Mr. Comey. In my experience, yes.
    Mr. Labrador. Okay.
    In your answer to Chairman Chaffetz, you indicated that you 
had no reason to disbelieve Paul Combetta when he told you that 
he erased the hard drive on his own. Is that correct?
    Mr. Comey. Correct.
    Mr. Labrador. However, in the exchange on Reddit, he said, 
``I need to strip out a VIP's email address from a bunch of 
archived emails. Basically, they don't want the VIP's email 
address exposed to anyone.''
    Those two statements are not consistent. How can you say 
that he was truthful when he told you nobody told him to act 
this way but yet you saw this Reddit account that says where 
``they'' told him that he needed to act in this way?
    Mr. Comey. I think the assessment of the investigative team 
is those are two very--about two different subjects. One is a 
year before about--in the summer of 2014 about how to produce 
emails and whether there was a way to remove or mask the actual 
email address, the HRC, whatever it is, dot-com. And the other 
is about actually deleting the content of those emails sitting 
on the server.
    Mr. Labrador. It seems like in your investigation you 
found, time after time, evidence of destruction, evidence of 
breaking iPhones and other phones, all these different things, 
but yet you find that there is no evidence of intent.
    And I am a little bit confused as to your interpretation of 
18 U.S.C. 793(f). On the one hand, you have said that Secretary 
Clinton couldn't be charged because her conduct was extremely 
careless but not grossly negligent, correct?
    Mr. Comey. That is not exactly what I said.
    Mr. Labrador. That is what you said today. But you have 
also said----
    Mr. Comey. I don't remember saying that.
    Mr. Labrador [continuing]. There was no evidence of her 
intent to harm the United States.
    But you will agree that a person can act with gross 
negligence or even act knowingly without possessing some 
additional specific intent. So which is it? Is it a lack of 
gross negligence that she had or a lack of intent?
    Mr. Comey. In terms of my overall judgment about whether 
the case was worthy of prosecution, it is the lack of evidence 
to meet what I understand to be the elements of the crime, one; 
and, two, a consideration of what would be fair with respect to 
how other people have been treated. Those two things together 
tell me--and nothing has happened that has changed my view on 
this--that no reasonable prosecutor would bring such a case.
    The specific-intent question, yes, I agree that specific 
intent to harm the United States is a different thing than a 
gross negligence or a willfulness.
    Mr. Labrador. So just one last question. You have talked 
about Mary and Joe. And Mary and Joe would be disciplined at 
the FBI if they did what Hillary Clinton did. If Mary and Joe 
came to you and asked for a promotion immediately after being 
disciplined, would you give them that promotion?
    Mr. Comey. Tough to answer that hypothetical. It would 
depend upon the nature of the conduct and what discipline had 
been imposed.
    Mr. Labrador. And what if they ever asked for a promotion 
that would give them management and control of cybersecurity of 
your agency and the secrets of your agency after they had done 
these things? Would you give them that promotion?
    Mr. Comey. That is a question that I don't want to answer.
    Mr. Labrador. All right.
    Mr. Goodlatte. The time of the gentleman has expired.
    The Chair recognizes the gentlewoman from California, Mrs. 
Walters, for 5 minutes.
    Mrs. Walters. Hi, Director Comey.
    Despite the absence of an intent mens rea standard in 18 
U.S.C. section 793(f), you have said that there has never been 
a prosecution without evidence of intent. Thus, the standard 
has been read into the statute despite the specific language 
enacted. What exactly are the legal precedents that justify 
reading intent into the statute?
    Mr. Comey. Well, my understanding of 793(f) is governed by 
a couple things--three things, really: one, the legislative 
history from 1917, which I have read, and the one case that was 
prosecuted in the case. And those two things combined tell me 
that, when Congress enacted 793(f), they were very worried 
about the ``gross negligence'' language and actually put in 
legislative history we understand it to be something very close 
to ``willfulness.''
    Then the next 100 years of treatment of that actually tell 
me that the Department of Justice for a century has had that 
same reservation, because they have only used it once. And that 
was in a case involving an FBI agent who was--in an espionage 
context.
    So those things together inform my judgment of it.
    Mrs. Walters. Okay.
    Considering the importance of protecting classified 
information for national security purposes, a lot of people 
disagree that an intent standard should be read into that 
statute. What specific language would you recommend we enact to 
ensure gross negligence is the actual standard for the statute, 
not intent?
    Mr. Comey. I don't think that is something the Bureau ought 
to give advice on. It is a good question, as to what the 
standard should be. I could imagine Federal employees being 
very concerned about how you draw the line for criminal 
liability. But I don't think that is something we ought to 
advise on, the legislation.
    Mrs. Walters. Okay.
    Should we enact a mens rea standard for extreme 
carelessness for the statute?
    Mr. Comey. Same answer, I think, is appropriate.
    Mrs. Walters. Should we enact a civil fine?
    Mr. Comey. A civil fine for mishandling classified 
information?
    Mrs. Walters. Uh-huh.
    Mr. Comey. I don't know, actually, because it is already 
subject to discipline, which is suspension or loss of clearance 
or loss of job, which is a big monetary impact to the people 
disciplined. So I don't know whether it is necessary.
    Mrs. Walters. Okay.
    I want to change subjects----
    Mr. Comey. Okay.
    Mrs. Walters [continuing]. For my next question. As you 
know, the number of criminal background checks for noncriminal 
purposes, such as for employment decisions, continues to 
increase annually.
    I don't expect that you have this information on hand; 
however, would you be willing to provide the Committee and my 
staff with the number of criminal history record checks for 
fingerprint-based background checks that the FBI has conducted 
over each of the past 5 years?
    And what are your thoughts regarding whether the FBI has 
the capacity to process the increasing number of background 
check requests?
    Mr. Comey. I am sure we can get you that number, because I 
am sure we track it. So I will make sure my staff follows up 
with you.
    Mrs. Walters. Okay.
    Mr. Comey. I do believe we have the resources. Where we 
have been strained is on the background checks for firearms 
purchases. The other background check processes we run, my 
overall sense is we have enough troops to do that. We are able 
to--we charge a fee for those, and I think we are able to 
generate the resources we need.
    Mrs. Walters. Okay. Thank you.
    I yield back my time.
    Mr. Issa. Could the gentlelady yield to me?
    Mrs. Walters. Sure. I would be happy to yield to you, Mr. 
Issa.
    Mr. Issa. Thank you.
    Director, some time ago, you appeared before this 
Committee, and you told us that you had exhausted all of the 
capability to unlock the San Bernardino iPhone, the 5C. Did 
that turn out to be true?
    Mr. Comey. It is still true.
    Mr. Issa. That you had exhausted all of your capability?
    Mr. Comey. That the FBI had, yes.
    Mr. Issa. So shouldn't we be concerned from a cyber 
standpoint that you couldn't unlock a phone that, in fact, an 
Israeli company came forward and unlocked for you and basically 
a Cambridge professor or student for 90 bucks has shown also to 
be able to unlock and mirror or duplicate the memory?
    I mean, and this is purely a question of--you apparently do 
not have the resources to do that which others can do. Isn't 
that correct?
    Mr. Comey. I am sure that is true in a whole bunch of 
respects, but, first, I have to correct you. I am not 
confirming--you said an Israeli company? I am not confirming--
--
    Mr. Issa. Well, okay. A contractor for you, reported to be, 
for a million dollars, unlocked the phone. So I would ask you 
to confirm, the phone got unlocked, right?
    Mr. Comey. Yes, it did.
    Mr. Issa. Okay. So the technology could be created outside 
of ordering a company to essentially, you know, reengineer 
their software for you, correct?
    Mr. Comey. In this particular case, yes.
    Mr. Issa. Okay. And so you lack that capability. How can 
this Committee know that you are in the process of developing 
that sort of technology, the equivalent of the Cambridge $90 
technology?
    Mr. Comey. How can the Committee know?
    Mr. Issa. Yeah. I mean, in other words, where are the 
assurances that you are going to get robust enough?
    We have an encryption working group that was formed between 
multiple Committees to no small extent because of your action 
of going to a magistrate and getting an order because you 
lacked that capability and were trying a new technique of 
ordering a company to go invent for you.
    The question is, how do we know that won't happen again, 
that you will go to the court, ask for something when, in fact, 
the technology exists or could exist to do it in some other 
way, a technology that you should have at your disposal, or at 
least some Federal agency should, like the NSA?
    Mr. Comey. Well, first of all, it could well happen again, 
which is why I think it is great that people are talking about 
what we might do about this problem.
    It is an interesting question as to whether we ought to 
invest in us having the ability to hack into people's devices, 
whether that is the best solution. It doesn't strike me as the 
best solution. But we are--and I have asked for more money in 
the 2017 budget--trying to invest in building those 
capabilities so when we really need to be able to get into a 
device we can.
    It is not scaleable, and I am not sure it would be 
thrilling to companies like Apple to know we are investing 
money to try and figure out how to hack into their stuff.
    Mr. Issa. Well, isn't it true that we have clandestine 
organizations who have the mandate to do just that, to look 
around the world and to be able to find information that people 
don't know you can find, keep it secret, get it out there?
    And my question to you is, shouldn't we, instead of giving 
you the money, simply continue to leverage other agencies who 
already have that mandate and then ask you to ask them to be 
your conduit for that when you have an appropriate need?
    Mr. Comey. That is a reasonable question. It may be part of 
the solution. Real challenges in using those kinds of 
techniques in the bulk of our work, because it becomes public 
and exposed. But that has to be an important part of the 
conversation.
    Mr. Issa. Thank you.
    I yield back.
    Mr. Goodlatte. The Chair recognizes the gentleman from 
Arizona, Mr. Franks, for 5 minutes.
    Mr. Franks. Thank you, Mr. Chairman.
    And thank you for being here, Director Comey.
    Director Comey, I--the last thing I want to do is to 
lecture you on anything related to the law, because I think you 
have given your whole life to that effort.
    And I guess, in the face of so many things already having 
been said here and asked, that all I can do is to try to sort 
of reassociate this in a reference of why there is a rule of 
law. You know, we had that little unpleasantness in the late 
1770's with England over this rule of law, because we realized 
there is really only two main ways to govern, and that is by 
the rule of men or the rule of law. And sometimes it is 
important for all of us just to kind of reconnect what this 
whole enterprise of America is all about. And I, again, don't 
seek to lecture you in that regard.
    And I know--and you have to forgive me for being a 
Republican partisan here, because I am very biased in this 
case. But I know that when you interviewed Mrs. Clinton you 
were up against someone that really should have an earned 
doctorate of duplicity and deception hanging on her wall. I 
don't know that you probably could have interviewed a more 
gifting prevaricator. So I know you were up against the best.
    But, having said that, when I read the law here that I know 
so many have already referenced--I think maybe that is the best 
way for me to do that. 18 U.S.C. 1924 provides that any Federal 
official who ``becomes possessed of documents or materials 
containing classified information of the United States and 
knowingly removes such documents or materials without authority 
and with the intent to retain such documents or materials at an 
unauthorized location shall be fined under this title or 
imprisoned for not more than 1 year or both.''
    Now, I didn't miss one word there. It does not require--
that section does not require an intent to profit. It doesn't 
require harm to the United States or otherwise to act in any 
manner disloyal to the United States. It only requires intent 
to retain classified documents at an unauthorized location.
    And I believe, sir, in all sincerity to you, person to 
person, I belive that some of your comments reflected that that 
is what occurred. And, over the last several months, I believe 
that is the case.
    And so I have to--it is my job to ask you again why the 
simple clarity of that law was not applied in this case. 
Because the implications here are so profound. For your 
children and mine, for this country, they are so profound.
    And, again, I don't envy your job, but I want to give you 
the remainder of the time to help me understand why a law like 
this that any law school graduate--if we can't apply this one 
in this case, how in God's name can we apply it in any case in 
the world? Why is it even written?
    So I am going to stop there and ask your forbearance and 
just go for it.
    Mr. Comey. Sure. No, it is a reasonable question.
    That is the--18 U.S.C. 1924 is the misdemeanor mishandling 
statue that is the basis on which most people have been 
prosecuted for mishandling classified information have been 
prosecuted. It is not a strict liability statute. I was one of 
the people, when I was in the private sector, who argued 
against strict liability criminal statues. It requires, in the 
view of the Department of Justice and over long practice, proof 
of some criminal intent, not specific intent to harm the United 
States but a general awareness that you are doing that is 
unlawful. So you have to prove criminal intent.
    So there are two problems in this case. One is developing 
the evidence to prove beyond a reasonable doubt that Secretary 
Clinton acted with that criminal intent. And, second, even if 
you could do that, which you can't, looking at the history of 
other cases, what would be the right thing to do here? Has 
anybody ever been prosecuted on anything near these facts?
    And, again, I keep telling the folks at home, when people 
tell you lots of people have been prosecuted for this, please 
demand the details of those cases. Because I have been through 
them all.
    So that combination of what the statute requires and the 
history of prosecutions told me--and, again, people can take a 
different view, and it is reasonable to disagree--that no 
reasonable prosecutor would bring that case. That, in a 
nutshell, is what it is.
    Mr. Franks. Well, you said it was a reasonable question. 
That was a reasonable answer. But I can't find that in the 
statute.
    Thank you, sir.
    Mr. Goodlatte. The Chair recognizes the gentleman from 
Louisiana, Mr. Richmond, for 5 minutes.
    Mr. Richmond. Thank you, Mr. Chairman.
    Director Comey--and I am going down a completely different 
path. Our law enforcement in this country have a consistent 
enemy in a group called sovereign citizens. And what I have 
seen in my district, we lost two officers in St. John Parrish 
about 4 years ago, and we just lost another three officers in 
Baton Rouge, with another couple injured.
    In the case in St. John Parrish, we actually had the 
perpetrators on the radar in north Louisiana, and, at some 
point, they moved to south Louisiana in my district and we lost 
contact. So, when St. John Parrish deputies went to their 
trailer park, they had no idea what they were walking into, and 
they walked into an ambush with AR-15s and AK-47s, and the 
unimaginable happened.
    So, through NCCIC and other things, are you all focused on 
making sure--and I think there are about 100,000 of them. But 
are you all focused on making sure that our law enforcement has 
the best information when dealing with, whether it is sovereign 
citizens or terrorist cells or other bad actors, that that 
information gets to the locals so they are not surprised and 
ambushed?
    Mr. Comey. Well, we sure are. And I don't know the 
circumstances of that case, but I will find out the 
circumstances.
    In two respects, we want, obviously, people to know when 
someone is wanted. But, more than that, we have a known or 
suspected terrorist file that should have information in that 
about people we are worried about so that if an officeris 
making a stop or going up to execute a search warrant and they 
run that address of that person, they will get a hit on what we 
call the KST file.
    So that is our objective. And if there are ways to make it 
better, we want to.
    Mr. Richmond. Now, let's switch lanes a little bit, because 
this is one of--I think an issue when we start talking about 
criminal justice reform and we start talking about the FBI. In 
my community and communities of color and with elected 
officials, there seems to be two standards: one for low-level 
elected officials and then one for other people.
    So I guess the facts I will give you of some of our cases--
and you tell me if it sounds inconsistent with your knowledge 
of the law and your protocol, but nonprofit organizations where 
elected officials have either been on boards or had some 
affiliation with, when those funds are used in a manner that 
benefits them personally, they have been prosecuted. And I mean 
for amounts that range from anywhere from $2,000 upwards to 
$100,000.
    Your interpretation of the law, that if nonprofit funds are 
used to benefit a person and not the organization, that that is 
a theft of funds--because I believe that those are a lot of the 
charges that I have seen in my community. Would you agree with 
that?
    Director Comey. Sure, it could be. And I know from personal 
experience, having done these cases, that is often--that is at 
the center of a case involving a corrupt official.
    Mr. Richmond. Now, let's take elected official out and just 
take any foundation director or board director or executive 
director who would use the funds of a nonprofit to pay personal 
debts or bills or just takes money. You would agree that that 
would constitute a violation of the law, criminal statute?
    Mr. Comey. Potentially. On the Federal side, potentially of 
wire fraud, mail fraud, or a tax charge, potentially.
    Mr. Richmond. The other thing that I would say is that, in 
our community, we feel that it is selective prosecution; that 
if you are rich, you have another standard; that if you are an 
African-American, you have another standard.
    And there are a number of cases that I will give you off-
line, but it appears that--and my concern is the authority of 
your agents to decide that a person is bad and then take them 
through holy hell to try to get to the ultimate conclusion that 
the agent made, and they don't let the facts get in their way. 
And at the end of the day, you have businesspeople who spend 
hundreds of thousands of dollars to protect their reputation 
and to fight a charge that they ultimately win, but now they 
are broke, they are defeated, because, when it comes out, it 
says the United States of America versus you.
    So I would just ask you to create a mindset within the 
Department that they understand the consequences of leaks to 
the press, charges, and what happens if--when those charges are 
really not substantiated, you still break a person. And I think 
that you all have a responsibility to be very careful with the 
awesome power that you all are given.
    And, with that, Mr. Chairman, I thank back--I would yield 
back.
    Mr. Goodlatte. The Chair thanks the gentleman.
    The Director is welcome to respond.
    Mr. Comey. I very much agree with what you said, 
Congressman, at the end of that. The power to investigate is 
the power to ruin. Obviously, charging people can also be 
ruinous. So it is when we have to be extraordinarily prudent in 
exercising fair, open-minded, and careful. So I very much agree 
with that.
    Mr. Goodlatte. The Chair recognizes the gentleman from 
Michigan, Mr. Trott, for 5 minutes.
    Mr. Trott. Thank you, Mr. Chairman.
    And thank you, Director, for being here. And thank you for 
your service to our country.
    When you made your statement at the press conference on 
July 5, you said, ``I have not coordinate or reviewed this 
statement in any way with the Department of Justice or any part 
of government. They do not know what I am about to say.''
    I have no reason to question your integrity, but is there 
any chance that someone working in your office or as part of 
this investigation knew what you were going to decide and 
recommend and maybe told one of the Attorney General's staff 
what was about to happen on July 5?
    Mr. Comey. Anything is possible. I would--I think I would 
be willing to bet my life that didn't happen----
    Mr. Trott. Okay.
    Mr. Comey [continuing]. Just because I know my folks.
    Mr. Trott. So here is why I ask. The facts give me pause. 
The investigation started in July of 2015. Many of us in 
Congress, including myself, suggested that the Attorney General 
should recuse herself because of her friendship with the 
Clintons and because of her desire to continue on as Attorney 
General in a Clinton administration.
    Then she had the fortuitous meeting on the airplane with 
former President Clinton on June 30. Then on July 2, give or 
take, she came out and said, you know, I have created an 
appearance of impropriety, and so I am going to just follow 
whatever the FBI Director's recommendation is.
    And then, 3 days later, you had your press conference. And 
in your press conference, you said, ``In our system of justice, 
the prosecutors make the decisions about what charges are 
appropriate based on the evidence.'' That is not what happened 
in this case. Ultimately, you made the decision. Isn't that 
what happened?
    Mr. Comey. Well, I made public my recommendation. The 
decision to decline the case was made at the Justice 
Department.
    Mr. Trott. But before you had that press conference, you 
knew, based on the Attorney General's public comments that she 
was going to follow whatever you recommended. So, ultimately, 
you made the decision in this case as to whether or not charges 
should be filed against Secretary Clinton. Isn't that the 
reality of what happened?
    Mr. Comey. I think that is a fair characterization. The 
only thing I would add to that is I think she said--I don't 
remember exactly--that she would defer to the FBI and the 
career prosecutors at the Department of Justice.
    But, look, I knew that once I made public the FBI's view 
that this wasn't a prosecutable case that there was virtually 
zero chance that the Department of Justice was going to go in a 
different direction. But part of my decision was based on my 
prediction that there was no way the Department of Justice 
would prosecute on these facts in any event.
    So I think your characterization is fair, but I just wanted 
to add that color to it.
    Mr. Trott. But you can see how some of us would look at the 
dates and the facts leading up to your press conference and 
think, okay, for a year we have been suggesting she is not the 
appropriate person to make the ultimate decision as to whether 
charges should be filed; she won't recuse herself. And then 3 
days before you come out with your recommendation, which she 
has already said she is going to follow, she basically decides 
to recuse herself. Those facts give me pause.
    Mr. Comey. I get why folks would ask about that, but I 
actually think it is--there are two dates that matter. But I 
think what generated that was the controversy around her 
meeting with President Clinton, not the interview with 
Secretary Clinton.
    Mr. Trott. That is a whole other discussion.
    So let's talk about Cheryl Mills. So you have said earlier 
today that it really wasn't up to you to weigh in on whether 
there was a conflict for Ms. Mills to act as Secretary 
Clinton's lawyer in the interview.
    But, again, you are kind of taking your attorney hat on and 
off whenever it is convenient. You decided that at the 
beginning of that interview it wasn't appropriate for you to 
weigh in as a lawyer suggesting there was a conflict. But then 
again, your recommendation is, ultimately, as a lawyer, what is 
being done in this case. Do you see little bit of inconsistency 
there or no?
    Mr. Comey. No, I see the point about the--look, I would 
rather not have an attorney hat on at any time. I put it on 
because I thought that was what was necessary at the conclusion 
of this investigation. But I stand by that. The agents of the 
FBI, it is not to them to try and kick out someone's lawyer.
    Mr. Trott. Well, what would have happened if you had said, 
Ms. Mills, because of the history here, you can't be in this 
interview?
    Mr. Comey. I don't know. I don't know.
    Mr. Trott. Could you have said that to her?
    Mr. Comey. I guess you could. It would be well outside our 
normal role.
    Mr. Trott. So, a number of times today, you have said there 
really is no double standard. And so now I am just asking you 
as a citizen and not even in your capacity as Director of FBI, 
can you sort of see why a lot of Americans are bothered by a 
perceived double standard?
    Because if any of the gentlemen sitting behind you this 
morning, who I assume are with the Department, had done some of 
the things Ms. Clinton did and told some of the lies that she 
told, you said in your statement that this is not to suggest 
under similar circumstances there wouldn't be consequences. In 
fact, there would be--they would be subjected to administrative 
sanctions.
    And now we have an election going on where she is seeking a 
pretty big promotion. So maybe your point is she wouldn't be 
charged under similar facts, but can you sort of see why so 
many people are bothered by the facts in this case, given that 
really nothing happened to her and now she is running for 
President of the United States? I mean, just, can you see the 
optics on that are troubling?
    Mr. Comey. Oh, I totally get that. That is one of the 
reasons I am trying to answer as many questions as I can, 
because I get that question.
    But, again, folks need to realize, in the FBI, if you did 
this, you would be in huge trouble. I am certain of that. You 
would be disciplined in some serious way. You might be fired. I 
am also certain you would not be prosecuted criminally on these 
facts.
    Mr. Trott. And you have said that, and I appreciate it.
    Let me just ask one quick question, because I am out of 
time. But Mr. Bishop started to talk about this, and his 
district is affected, as well, in Michigan. But my district in 
southeast Michigan has the third-largest settlement of Syrian 
refugees of any city in the country, behind San Diego and 
Chicago. That is Troy, Michigan.
    And you said last fall in front of a Homeland Security 
Committee hearing that you really didn't have the data to 
properly vet the Syrian refugees that are trying to come in, 
and you said that again this morning.
    But, you know, last weekend, I am at a grocery store and a 
Starbucks, and two different constituents walked up to me and 
said, ``Can't you stop the President's resettlement of Syrian 
refugees into Troy, Michigan? We are all afraid.'' And they are 
based on, largely, your comment that we don't have the database 
to really vet these folks.
    Anything I can tell the folks back in Michigan that we are 
doing, other than--all I say now is we just have to wait for a 
new President, because this President has increased the number 
of refugees by 60 and 30 percent year over year the last 2 
years, we just have to wait for a new President. I would like 
to be able to say the FBI is doing something different than 
they were doing last year when you made those comments.
    Mr. Comey. Well, as I said earlier, they can know that we 
are--if there is a whiff about this person somewhere in the 
U.S. Government's vast holdings, we will find it. And the 
second thing they can know is, if we get a whiff about somebody 
once they are in, we are going to cover that in a pretty tight 
way.
    What I can't promise people is that if--I can't query what 
is not in our holdings. That is the only reservation I offer to 
people.
    Mr. Trott. Thank you, sir.
    I yield back.
    Mr. Goodlatte. Well, Director Comey, during questioning 
earlier, there was a dispute that arose over the contents of 
one or more of the immunity letters that were issued, 
particularly with regard to the issue of whether or not it 
contained immunity for destroying documents, emails.
    The individual who was questioning you about that was 
former Chairman Issa of the Oversight and Government Reform 
Committee, and I want him to be able to clarify. Because we 
have contacted the Department of Justice and asked them to read 
the immunity letters to us.
    So the gentleman is recognized briefly.
    Mr. Issa. Thank you, Mr. Chairman. And I will try to be 
very brief.
    Under the immunity agreement with one or more individuals--
we will use Cheryl Mills as, clearly, one of the individuals--
she negotiated a very, very good deal from what we can 
discover. She did not just receive immunity related to the 
production of the drive, computer, and the contents but, in 
fact, received immunity under 18 U.S.C. 793(e) and (f), 1924 
U.S.C.--18 U.S.C. 1924, and the so-called David Petraeus 
portion, 18 U.S.C. 2071. And I will focus on 2071. Her immunity 
is against any and all taking, destruction--or even 
obstruction, the way we read it--of documents, classified or 
unclassified.
    Now, the only question I have for you is--and I know you 
are going to put this to Justice and we may have to ask them 
separately--for the purposes of what you needed as an 
investigator, because you were the person that wanted access to 
the computer, does that deal make any sense, to, in return for 
things which she could have objected to as an attorney and held 
back but which had no known proffer of leading to some criminal 
indictment of somebody else, she received complete immunity, as 
we read it, from obstruction or destruction of documents, 
classified and unclassified. And that is based on a re-review 
of the immunity agreement.
    Mr. Comey. You know, I think this is--you are right, this 
is a question best addressed to Justice. But I think you are 
misunderstanding it.
    As I understand it, this was a promise in writing from the 
Department of Justice: If you give us the laptops, we will not 
use anything on the laptops directly against you in a 
prosecution for that list of offenses. It is not immunity for 
those offenses if there is some other evidence.
    Now, that said, I am not exactly sure why her lawyer asked 
for it, because, by that point in the investigation, we didn't 
have a case on her to begin with.
    Mr. Issa. Well, I understand that. But based on the Reddit 
discovery and others, the ``they asked me to do it''--and you 
said so yourself, it was probably Cheryl Mills, the ``they.'' 
You have an immune witness who has to tell you who they were. 
If the ``they were'' told me to delete, and that is Cheryl 
Mills, then, in fact, you have evidence from an immune witness 
of a crime perpetrated by Cheryl Mills, the ordering of the 
destruction of any document, classified or unclassified, which, 
clearly, she seems to have done.
    Mr. Comey. Then she wouldn't be protected from that. If we 
developed evidence that she had obstructed justice in some 
fashion--all she is protected from is we can't use as evidence 
something that is on the laptop she gave us----
    Mr. Issa. Right. So the information put into the record 
today, which included these Reddit discoveries, show that there 
is a they who asked to have the destruction of information. 
Under 18 U.S.C. 2071, if she doesn't have immunity for that 
order, she could, and by definition should, be charged. Because 
ordering somebody else to destroy something, as an attorney, 
well after there were subpoenas in place that were very 
specific, that is clearly a willful act, isn't it?
    Ms. Jackson Lee. Mr. Chairman, would you yield?
    Mr. Issa. Of course.
    Ms. Jackson Lee. Your line of questioning--well, first, let 
me show my cards. I believe that Cheryl Mills has an impeccable 
character, as my line of questioning suggested that Director 
Comey and his staff have impeccable character.
    But, my good friend, there is immunity given--I don't think 
this applies to Ms. Mills, and I looked at the sections that 
you are speaking of--if you take local, criminal, and State 
actions, given to the worst of characters for a variety of 
reasons. That was not the reason given to Ms. Mills. I am sure 
that it is a lawyer that was trying to be the most effective 
counsel to Ms. Mills as possible.
    Mr. Issa. Well, reclaiming my time, the gentlelady's point 
may be true. I am only speaking to the Director based on things 
were done that should not have been done. We now have evidence 
in front of this Committee, in the record, of people destroying 
records of activities as late as a few days ago.
    So the fact that there still should be an open question, 
first of all, as to could she be prosecuted, and if in fact the 
``they have told me to destroy this,'' under the exact same 
statute that included David Petraeus, who was no longer on 
Active Duty, 18 U.S.C. 2071, there is at least a case to be 
made.
    Now, the problem we have is the lawyer negotiated a set of 
terms which hopefully doesn't mean that she gets a free pass 
even if she willfully ordered the destruction of documents, 
which it does appear she did.
    And, look, my job is not to be judge, jury, or hangman. My 
job is to look at what has been presented to us, ask the 
highest law enforcement officer in the land to, in fact, look 
into it. Because it does appear as though it is there.
    Ms. Jackson Lee.  A brief yield, my good friend.
    Mr. Issa. Of course.
    Ms. Jackson Lee. Certainly, we have an oversight 
responsibility of the Director. I think he has been very 
forthright. But none of the actions of destruction can be--I 
don't think we have anything in evidence that suggests that Ms. 
Mills contributed to the dictating or directing----
    Mr. Issa. Well, the gentlelady may not have been----
    Ms. Jackson Lee [continuing]. Any destruction.
    Mr. Issa. The gentlelady may not have been here----
    Ms. Jackson Lee. So we can't speculate here.
    Mr. Issa. The gentlelady may not have been here at the 
time, but the Director himself, when asked who would the 
``they'' would have been in that order to destroy, at least 
said it probably was or likely could have been Cheryl Mills. We 
are not saying it is. What we are saying is you have an immune 
witness.
    Mr. Goodlatte. The gentleman will suspend.
    Mr. Issa. Of course.
    Mr. Goodlatte. The purpose of this was to set the record 
straight as to what the content of the document was. That has 
been accomplished. And the debate will continue on----
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    Mr. Goodlatte [continuing]. And continue on outside of this 
hearing room.
    Mr. Issa. And I would only----
    Ms. Jackson Lee. We can state; we cannot speculate. I 
yield----
    Mr. Issa. And I would only ask the Director be able to 
review those document at Justice and follow up with the 
Committee. It would be very helpful to all of us.
    I thank the Chairman.
    Mr. Goodlatte. The Director has answered in the affirmative 
that he will do that.
    Mr. Comey. Yes, we will follow up.
    Mr. Goodlatte. First of all, I want to thank Director 
Comey. We didn't make 4 hours and 40 minutes, but we did almost 
make 4 hours, and I know you have been generous with your time.
    However, I will also say that I think a lot of the 
questions here indicate a great deal of concern about the 
manner in which this investigation was conducted, how the 
conclusions were drawn, and the close proximity to that and the 
meeting of the Attorney General with former President Clinton 
on a tarmac. At the same time, she then said, ``Well, I am 
going to recuse myself,'' and then, shortly after that, you 
took over and announced your conclusions in this case, which 
are hotly disputed, as you can tell.
    The Committee and the Oversight and Government Reform 
Committee have referred to the United States Attorney for the 
Eastern District of--for the District of Columbia a referral 
based upon her testimony before the Select Committee on 
Benghazi, suggesting that your statement at your press 
conference and your testimony before the Oversight and 
Government Reform Committee very clearly contradicted a number 
of statements she made under oath before that Committee.
    And I want to stress to you how important I think it is 
that we made that referral for the purpose of making sure that 
no one is above the law. And in many cases regarding 
investigations, it is not just the underlying actions that are 
important, but they are the efforts of people to cover those up 
through perjury, through obstruction of justice, through 
destruction of documents.
    And so I would ask that this matter be taken very, very 
seriously as you pursue whatever actions the Department chooses 
to take, making sure that no one is above the law.
    Mr. Comey. Thank you, sir.
    Mr. Goodlatte. With that, that concludes today's hearing, 
and I thank our distinguished witness for attending.
    Without objection, all Members will have 5 legislative days 
to submit additional written questions for the witness or 
additional materials for the record.
    And the hearing is adjourned.
    [Whereupon, at 12:56 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

  Questions for the Record submitted to the Honorable James B. Comey, 
               Director, Federal Bureau of Investigation*
---------------------------------------------------------------------------
    *Note: The Committee did not receive a response from the witness at 
the time this hearing record was finalized.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]  
                              

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
